<html>
<title> - H. RES. 596, H. CON. RES. 404, H. RES. 577, H. CON. RES. 397, S. 2682, S. 1453, H. CON. RES. 414, H. CON. RES. 382, H. RES. 588, H. CON. RES. 361, H. CON. RES. 410</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



                 H. RES. 596, H. CON. RES. 404, H. RES. 577, 
                   H. CON. RES. 397, S. 2682, S. 1453,
                 H. CON. RES. 414, H. CON. RES. 382, H. RES. 
                   588, H. CON. RES. 361, H. CON. RES. 410

=======================================================================

                                MARKUPS

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                    SEPTEMBER 28 AND OCTOBER 3, 2000

                               __________

                           Serial No. 106-196

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______


                    U.S. GOVERNMENT PRINTING OFFICE
69-978                     WASHINGTON : 2001


_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           DONALD M. PAYNE, New Jersey
ILEANA ROS-LEHTINEN, Florida         ROBERT MENENDEZ, New Jersey
CASS BALLENGER, North Carolina       SHERROD BROWN, Ohio
DANA ROHRABACHER, California         CYNTHIA A. McKINNEY, Georgia
DONALD A. MANZULLO, Illinois         ALCEE L. HASTINGS, Florida
EDWARD R. ROYCE, California          PAT DANNER, Missouri
PETER T. KING, New York              EARL F. HILLIARD, Alabama
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
MARSHALL ``MARK'' SANFORD, South     ROBERT WEXLER, Florida
    Carolina                         STEVEN R. ROTHMAN, New Jersey
MATT SALMON, Arizona                 JIM DAVIS, Florida
AMO HOUGHTON, New York               EARL POMEROY, North Dakota
TOM CAMPBELL, California             WILLIAM D. DELAHUNT, Massachusetts
JOHN M. McHUGH, New York             GREGORY W. MEEKS, New York
KEVIN BRADY, Texas                   BARBARA LEE, California
RICHARD BURR, North Carolina         JOSEPH CROWLEY, New York
PAUL E. GILLMOR, Ohio                JOSEPH M. HOEFFEL, Pennsylvania
GEORGE RADANOVICH, California        [VACANCY]
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
     Hillel Weinberg, Senior Professional Staff Member and Counsel
                    Marilyn C. Owen, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                           September 28, 2000

Markup of H. Res. 596, affirmation of the United States record on 
  the Armenian Genocide Resolution (Part I)......................     1

                            October 3, 2000

Markup of H. Con. Res. 404, calling for the immediate release of 
  Mr. Edmond Pope from prison in Russia for humanitarian reasons, 
  and for other purposes.........................................    42
Markup of H. Res. 596, affirmation of the United States record on 
  the Armenian Genocide Resolution (Part II).....................    45
Markup of H. Res. 577, to honor the United Nations High 
  Commissioner for Refugees (UNHCR) for its role as a protector 
  of the world's refugees, to celebrate UNHCR's 50th anniversary, 
  and to praise the High Commissioner Sadako Ogata for her work 
  with UNHCR for the past 10 years...............................    85
Markup of H. Con. Res. 397, voicing concern about serious 
  violations of human rights and fundamental freedoms in most 
  states of Central Asia, including substantial noncompliance 
  with their Organization for Security and Cooperation in Europe 
  (OSCE) commitments on democratization and the holding of free 
  and fair elections.............................................    88
Markup of S. 2682, authorizing the Board of Broadcasting 
  Governors to make available to the Institute for Media 
  Development certain materials of the Voice of America..........    93
Markup of S. 1453, the Sudan Peace Act...........................    94
Markup of H. Con. Res. 414, relating to the reestablishment of a 
  representative government in Afghanistan.......................   107
Markup of H. Con. Res. 382, calling on the government of 
  Azerbaijan to hold free and fair parliamentary elections in 
  November, 2000.................................................   110
Markup of H. Res. 588, expressing the sense of the House of 
  Representatives with respect to violations in Western Europe of 
  provisions of the Helsinki Final Act and other international 
  agreements relating to the freedom of individuals to profess 
  and practice religion or belief................................   113
Markup of H. Con. Res. 361, commending the Republic of Benin.....   123
Markup of H. Con. Res. 410, condemning the assassination of 
  Father John Kaiser and others who worked to promote human 
  rights and justice in the Republic of Kenya....................   126

                                WITNESS

The Honorable Robert Pearson, United States Ambassador to the 
  Republic of Turkey.............................................    16

                                APPENDIX

Prepared statements:

Concerning H. Res. 596:
  The Honorable George Radanovich, a Representative in Congress 
    from the State of California.................................   129
  The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
    from the State of Florida....................................   130
  The Honorable William D. Delahunt, a Representative in Congress 
    from the State of Massachusetts..............................   130
The Honorable Eni F. H. Faleomavaega, a Representative in 
  Congress from American Samoa...................................   131
The Honorable Benjamin A. Gilman, a Representative in Congress 
  from the State of New York, and Chairman, Committee on 
  International Relations, concerning H. Con. Res. 397...........   132
The Honorable Cynthia A. McKinney, a Representative in Congress 
  from the State of Georgia: letter concerning S. 2682...........   133
The Honorable Benjamin Gilman, a Representative in Congress from 
  the State of New York, concerning H. Con. Res. 382.............   133
The Honorable Benjamin Gilman, concerning H. Res. 588............   134
The Honorable Tom Lantos, a Representative in Congress from the 
  State of California, concerning H. Con. Res. 410...............   134

Bills and Amendments:

H. Res. 596......................................................   137
    Amendment to H. Res. 596 offered by Mr. Tancredo, a 
      Representative in Congress from the State of Colorado......   148
    Amendment to H. Res. 596 offered by Mr. Lantos...............   149
    Amendment to H. Res. 596 offered by Mr. Burton, a 
      Representative in Congress from the State of Indiana.......   151
    Amendment to H. Res. 596 offered by Mr. Rohrabacher, a 
      Representative in Congress from the State of California....   153
H. Con. Res. 404.................................................   154
H. Res. 577......................................................   158
    Substitute Amendment to H. Res. 577, as reported by the 
      Subcommittee on International Operations and Human Rights..   161
H. Con. Res. 397.................................................   164
    Amendment to H. Con. Res. 397 offered by Mr. Gejdenson, a 
      Representative in Congress from the State of Connecticut...   173
S. 2682..........................................................   174
S. 1453..........................................................   178
    Substitute Amendment to S. 1453, as reported by the 
      Subcommittee on International Operations and Human Rights..   195
    Amendment to S. 1453 offered by Mr. Menendez, a 
      Representative in Congress from the State of New Jersey, 
      concerning page 11, after line 15..........................   215
    Amendment to S. 1453 offered by Mr. Menendez, concerning page 
      2, after line 5............................................   216
    Amendment to S. 1453 offered by Mr. Menendez, concerning page 
      11, after line 23..........................................   218
    Amendment to S. 1453 offered by Mr. Campbell, a 
      Representative in Congress from the State of California, 
      concerning pages 7-8.......................................   219
    Amendment to S. 1453 offered by Mr. Campbell, striking all 
      previous amendments and returning the bill to its original 
      form.......................................................   220
H. Con. Res. 414.................................................   221
    Amendment to H. Con. Res. 414 offered by Mr. Rohrabacher.....   224
H. Con. Res. 382.................................................   225
    Substitute Amendment to H. Con. Res. 382 offered by Mr. 
      Smith, a Representative in Congress from the State of New 
      Jersey.....................................................   231
H. Res. 588......................................................   237
    Substitute Amendment to H. Res. 588 offered by Mr. Salmon, a 
      Representative in Congress from the State of Arizona.......   245
H. Con. Res. 361.................................................   252
    Amendment to H. Con. Res. 361 offered by Mr. Ackerman, a 
      Representative in Congress from the State of New York......   255
H. Con. Res. 410.................................................   256

Additional material submitted for the record:

Letter to Chairman Benjamin Gilman dated October 2, 2000 
  concerning H. Res. 596, signed by former Secretaries of 
  Defense, former Joint Chiefs of Staff, former Allied 
  Commanders, former National Security Advisors, and others......   259
The Washington Post newspaper article dated September 6, 2000 
  entitled, ``Armenia Pins Economic Hopes on Peace,'' submitted 
  by Mr. Burton..................................................   262
Letter from Secretary of State Madeleine K. Albright and 
  Secretary of Defense William S. Cohen dated October 12, 2000, 
  concerning H. Res. 596, submitted by Mr. Lantos................   266
Three letters from religious leaders (Joseph K. Grieboski, et al; 
  the Holy Eastern Orthodox Archdiocese of the Americas; and the 
  Religious Action Center of Reform Judaism), concerning H. Res. 
  588, submitted by Mr. Salmon...................................   268

 
  H. RES. 596, AFFIRMATION OF THE UNITED STATES RECORD ON THE ARMENIAN



                          GENOCIDE RESOLUTION

                              ----------                              


                      THURSDAY, SEPTEMBER 28, 2000

                  House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:05 a.m., in Room 
2172, Rayburn House Office Building, Hon. Benjamin A. Gilman 
(Chairman of the Committee) presiding.
    Chairman Gilman. The Committee on International Relations 
meets today in open session.


h. res. 596--affirmation of u.s. record on armenian genocide resolution


    Chairman Gilman. The Committee is meeting today pursuant to 
notice, to take up several legislative items. We will first 
consider H. Res. 596, relating to the way the foreign policy of 
our Nation reflects appropriate understanding and sensitivity 
relating to the Armenian Genocide.
    Chair lays the resolution before the Committee.
    Clerk will report the title of the resolution.
    [A copy of the resolution appears in the appendix.]
    Ms. Bloomer. ``H. Res. 596, a resolution calling upon the 
President to ensure that the foreign policy of the United 
States reflects appropriate understanding and sensitivity 
concerning issues related to human rights, ethnic cleansing and 
genocide documented in the United States record relating to the 
Armenian Genocide, and for other purposes.''
    Chairman Gilman. Without objection, a first reading of the 
resolution will be dispensed with. Without objection, the Clerk 
will read the text of the resolution for amendment.
    Ms. Bloomer. ``Resolved, Section. 1. Short Title. This 
resolution may be cited as the `Affirmation of the United 
States Record on the Armenian Genocide Resolution'.''
    Chairman Gilman. Without objection, the resolution is 
considered having been read and is open for amendment at any 
point.
    I now recognize the gentleman from California, Mr. 
Radanovich, as the sponsor of the resolution, to introduce it 
to the Committee.
    Mr. Radanovich.
    Mr. Radanovich. Thank you so much, Mr. Chairman. I do have 
a 4-minute video I would like to play before the hearing if 
there is no objection.
    Chairman Gilman. Is there objection?
    It will be part of the gentleman's time.
    Mr. Burton.
    Mr. Burton. I was in consultation with my staff. What was 
the----
    Chairman Gilman. Would the gentleman repeat his request?
    Mr. Radanovich. Yes. I requested that I play a 4-minute 
video before the markup, if I may.
    Mr. Burton. I have no objection.
    Chairman Gilman. The gentleman has made a unanimous consent 
request. Is there any objection?
    If not, the gentleman may proceed, but bear in mind it is 
going to be taken from your time.
    Mr. Radanovich. Thank you, Mr. Chairman.
    Chairman Gilman. Would the gentleman like to speak on the 
measure while we are waiting for the equipment to be put in 
place?
    Mr. Radanovich. I would be happy to.
    Mr. Chairman, today I am introducing a new bill regarding 
the affirmation of the U.S. record on the Armenian Genocide. As 
the sponsor of this resolution, I have carefully followed all 
of the testimony and communications from proponents and 
opponents. I note that some Members----
    Chairman Gilman. The gentleman will withhold while the 
video is being shown at the present time.
    [video shown.]
    Mr. Rothman. Mr. Chairman, might we have an opportunity to 
see the video from the beginning?
    Chairman Gilman. Gentleman's requested that the video be 
replayed from the beginning.
    Mr. Rothman. Thank you, Mr. Chairman.
    Chairman Gilman. Please proceed with the video.
    [video shown.]
    Mr. Radanovich.
    Mr. Radanovich. Mr. Chairman, I thank you so much for 
bringing up this bill today. I am introducing a new bill 
regarding the affirmation of the U.S. record on the Armenian 
Genocide.
    As the sponsor of this resolution, I have carefully 
followed all of the testimony and communications from 
proponents and opponents, and I note that some Members have 
expressed concern with the training component of this former 
bill, H. Res. 398--specifically the complexity of implementing 
the clause.
    I also note that during the Subcommittee hearing Ambassador 
Grossman testified that the Foreign Service Institute already 
includes the Armenian Genocide in its training program. This 
was later confirmed by a State Department spokesman.
    Therefore, taking into account the concerns of some of my 
colleagues and the statements of the Department, and with the 
support of Chairman Smith, I submit this new bill. All 
references to training have been removed, and I trust that this 
change will enjoy the support of this Committee and will also 
make expedited floor consideration possible.
    H. Res. 398 enjoyed the bipartisan support of more than 140 
Members, and I rest assured that H. Res. 596 maintains the 
intent of my original bill. The new resolution also enjoys the 
support of the Speaker, the House Minority Whip, the Chairman 
and Ranking Minority Member of this Committee, as well as the 
Chairman and Ranking Minority Member of the International 
Operations and Human Rights Subcommittee.
    I thank all for their support and cooperation.
    Chairman Gilman. Gentleman's time has expired. I am going 
to have to keep a tight time control, since we have 10 measures 
and we will be interrupted by the proceedings on the floor.
    Mr. Radanovich. I would request that my statement be----
    Chairman Gilman. Without objection, the full statement will 
be made part of the record.
    [The prepared statement of Mr. Radanovich appears in the 
appendix.]
    Chairman Gilman. Mr. Burton.
    Before recognizing Mr. Burton, Mr. Gejdenson will be 
recognized.
    Mr. Gejdenson. Thank you, Mr. Chairman.
    I join with, I think, the majority of my colleagues in 
urging support for this resolution. It is clear that these 
kinds of acts didn't end in the early 1900's or in the 1940's, 
but we face them today in many places in the world. Not but a 
few days ago in this hearing room Mr. Royce had a hearing on 
what was happening in West Africa in seeing children with their 
arms cut off and legs cut off and ears cut off, and many others 
killed.
    I think that our action here today has to speak very 
directly on this outrage against humanity that occurred so long 
ago, but is still not recognized by all too many. It is clear 
that this is not directed against the modern Turkish 
Government, except the modern Turkish Government makes the 
mistake that it feels it needs to defend the actions of a 
predecessor regime.
    I would suggest to the Turkish Government that they take 
their lesson from the German Government. They would recognize 
the mistakes of the past and follow Germany, which now moves 
forward and holds its head high among the civilized nations of 
the world who participate in trying to make this a world with 
less barbarism in it.
    The vote here today is not a vote against Turkey. It is a 
vote to recognize history and to clearly state that this 
Congress and these American people that we represent will not 
let history be forgotten. So many have warned us about 
forgetting history and the consequences of that. What we have 
just seen on television has been told to us by many survivors 
and their families.
    There are always debates about the complexities of an 
issue, but what is clear here is that innocent civilians in 
large numbers were massacred and starved to death. Our own 
officials at the time recognized this. The historic evidence is 
clear; we need to move forward and pass this resolution.
    Chairman Gilman. Mr. Burton.
    Mr. Burton. First of all, Mr. Chairman, I have watched that 
Peter Jennings report before, and I think anybody that sees it 
would say that their hearts go out to the people who suffered 
those kinds of atrocities.
    But I would hate to think that the Congress of the United 
States is going to be swayed in any way by watching--violins in 
the background when somebody talks. I mean, the lady who was 
talking, could you hear the violins in the background? That was 
designed, that is what we call ``advocacy journalism,'' where 
they are trying to put forth a position on an issue by swaying 
the audience with what they see.
    Now, there is no question that genocides occurred and there 
is no question that a lot of people died in that conflict. But 
the fact is, I hope nobody is swayed just by that report.
    Now, let me just say this: Three million Turks, three 
million Turks died, many of them in what is called a genocide 
during the conflict we are talking about back in 1915 through 
1920. There is no question that Armenians died as well, but the 
fact is, this happened 85 years ago.
    There is a divergence of opinion. I have debated this issue 
over the past 18 years. We have gone to the floor with huge 
copies of books, volumes of books on both sides that explain 
what happened; and there is a divergence of opinion among 
historians about what actually happened back then and whether 
or not there was an Armenian Genocide or a Turkish Genocide. 
And the fact is, because of the difference of opinion, the 
Turks have never said that this actually happened. They haven't 
owned up to it, and I don't think they should.
    Now, the second thing I would like to say is this: Turkey 
has been an ally of ours through thick and thin. During the 
Iraqi war we used their bases to stop Saddam Hussein. We might 
not have been successful had it not been for their very help. 
They lost billions of dollars by cutting off the oil supplies 
that were coming from Iraq into the coffers of the rest of the 
world, into the tanks of the rest of the world, and they lost 
billions that they have never recovered. They have been ally of 
ours time and time again.
    This is a major issue. It is all over the front pages over 
there in Turkey, and what are we going to do today, we are 
going to kick our friends right in the teeth one more time 
about something that allegedly happened 85 years ago.
    In war, horrible things happen.
    I am going to talk about the amendment in a minute, Mr. 
Chairman, which talks about the Armenian forces and what they 
have done in the last 10 years to the Azerbaijanis. They forced 
people out of their villages. There have been massacres, but 
nobody's talking about that. We are going back 85 years.
    The only thing I want to say is that I protest this, and 
the other thing I want to say is that this bill was going to be 
jointly referred to my committee. I went to the Parliamentarian 
and asked, because of the retraining mechanism in this bill, if 
I had jurisdiction. They said, yes, and it was going to be 
referred to my Committee.
    So what happens after it goes through the Subcommittee? 
They changed the bill in the middle of the night with the help 
of the leaders on both sides of the aisle, and now they are 
taking that section out so I won't have joint referral.
    So I want to tell you, this thing is on rails. I think 
everybody knows it is on rails. It is going to fly through this 
Committee, and it is going to go to the floor; but I want you 
to know, I object strenuously to the tactics that are being 
used and for kicking our friend for years and years right in 
the teeth when they have been with us day in and day out, year 
in and year out.
    Chairman Gilman. Thank you Mr. Burton.
    Mr. Lantos.
    Mr. Lantos. Thank you, Mr. Chairman.
    Mr. Chairman, as the only Member of Congress ever elected 
who is a survivor of a holocaust, I yield to no one in my 
concern for human rights, past and present, but I think it is 
appropriate to ask, as we deal with this issue in the waning 
hours of this congressional session, as to why this issue is 
before us today.
    We all know why this issue is before us. It is before us 
because a Member of Congress who is in a very close 
congressional race persuaded the Speaker to put this on the 
agenda for political reasons. We are not dealing with a human 
rights issue. We are dealing with a partisan political issue 
which has been defused by the fact that the Democrat in that 
race also supports this legislation, which enables us now to 
deal with the merits of the issue rather than with the politics 
of the case.
    This is not a partisan issue anymore, so we can deal with 
the merits.
    Now, there is little doubt of the incredible amount of 
suffering of the Armenian people during this period, and in 
recognition of that suffering, the President of the United 
States annually issues a powerful statement recognizing that 
suffering and paying tribute to the victims. This is as it 
should be. But of course, serious statesmanship always compels 
us to look at all the ramifications of legislative measures, 
and one of the ramifications is, of course, the U.S. national 
interests--not 84 years ago, but in the year 2000.
    It is self-evident to every single Member of this Committee 
and of the whole Congress that U.S. national interest compels 
us to vote against this measure at this time. There is a long 
list of reasons why our NATO ally at this point should not be 
humiliated. It will be counterproductive to Turkish-Armenian 
relations. It will be counterproductive to Turkish-Greek 
relations. It certainly will be counterproductive to Turkish-
U.S. relations.
    It will be welcomed by Saddam Hussein. Saddam Hussein will 
be the prime beneficiary of this legislation. Before my 
colleagues take the politically easy road, they should ask 
themselves whether, in fact, by taking the politically 
convenient road they really want to benefit Saddam Hussein, 
against whom our policies could not be pursued with anywhere 
near its effectiveness without Turkish support.
    My feeling is, Mr. Chairman, that there is always room for 
honoring and recognizing past tragedies, but the manner and the 
mechanism need to be cast in the context of U.S. current 
national interests. This piece of legislation at this moment in 
U.S.-Turkish relations is singularly counterproductive to our 
national interest.
    I am all in favor of the President's annual declaration. I 
have spoken on countless occasions, memorializing this tragedy. 
I will not be party to diminishing U.S. national interests to 
participate in what was intended to be a political ploy in a 
congressional district in California. That political ploy has 
now been defused by both the Democrat and the Republican 
favoring this legislation.
    Therefore, the merit of the legislation is now before us. 
On the merits, I urge my colleagues to vote against this 
legislation.
    Chairman Gilman. Thank you Mr. Lantos.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Chairman, on September 12th, I received a letter and I 
will just quote it briefly:

          ``I am writing you to urge you, Chairman Smith and 
        Members of the International Operations Subcommittee, 
        to speak and vote in favor of the Armenian Genocide 
        Resolution. This resolution is to come on Thursday 
        September 14th,'' which it did.
          ``It is my hope,'' the author writes, ``that the 
        House will go on record calling upon the President to 
        make sure that all U.S. officials dealing with human 
        rights are educated about the memory of the Armenian 
        Genocide and also urging the President to incorporate 
        into his April 24th address a statement calling on our 
        Nation to remember the Armenian massacres. It is 
        crucial that the President provide appropriate 
        materials''--and he goes on.

    That was signed by Elie Wiesel, the quintessential 
humanitarian and a Holocaust survivor, asking that this 
legislation be passed into law or be approved by the House of 
Representatives as quickly as possible.
    I don't know if Elie Wiesel is a Democrat or a Republican. 
I have no idea. But he is a humanitarian who I think speaks 
with incredible, impeccable standing and has said, pass this 
resolution, which has been introduced by Mr. Radanovich, Mr. 
Rogan and Mr. Bonior, the gentleman from Michigan.
    Mr. Chairman, in 1915 there were about two million 
Armenians living in what was then the Ottoman Empire, a region 
they had inhabited for 2,500 years. By 1923, well over 90 
percent of these Armenians had disappeared. Most of them, as 
many as one and a half million, were dead. The remainder had 
been forced into exile.
    The United States Ambassador to Turkey at the time, Henry 
Morgenthau, accused the government of the Empire of a case of 
``race extermination.'' The British, French and Russian 
Governments accused the young Turk Government of ``a crime 
against humanity.'' Even the government of the Republic of 
Turkey, the successor state, tried and convicted a number of 
high-ranking young Turk officials for what the Turkish 
Government called the ``massacre and destruction of the 
Armenians.''
    When the term ``genocide'' was invented in 1944, its author 
Raphael Lemkin illustrated the term by saying, ``It was the 
sort of thing Hitler did to the Jews and the Turks did to the 
Armenians.''
    Unfortunately, memories seem to have faded. The government 
of the Republic of Turkey and some of those who apologize for 
it, or at least try to downgrade the idea that it was a 
genocide, suggest that it never even happened. I would just 
point out--when we held our hearing just a few days ago--
Ambassador Aktan made the point--and I think this doesn't pass 
the straight-face test--that Turks have never harbored any 
anti-Armenianism.
    I have held four hearings and briefings in the Commission 
on Security and Cooperation on current use of torture in 
Turkey. Every time we wanted to schedule a hearing and talk 
about what was going on in Turkey, there was an enormous amount 
of protest about even having the hearing because it might 
injure this delicate balance between ourselves and Turkey. But 
we need to speak the truth to power.
    You know, you look at the Country Reports on Human Rights 
Practices today, not 1984 or 1985 or years ago, and human 
rights monitors say that security officials increasingly use 
methods of torture that do not leave physical traces. This is 
talk about torture, such as beating with weighted bags instead 
of clubs and fists. Commonly employed methods of torture 
reported by Human Rights Foundation treatment centers include 
systematic beatings, stripping and blindfolding, exposure to 
extreme cold or high pressure, cold water hoses, electric 
shocks, beating on the soles of the feet and genitalia, hanging 
by the arms, lack of food and sleep; and you get the idea, and 
it goes on and on.
    That is current and that is today. Yes, and thank God, some 
in Turkey have spoken out against that kind of abuse.
    In this case, we have a situation where the overwhelming 
body of evidence clearly points to a genocide. And I remind 
Members, read the Genocide Convention, which defines the term 
as the extermination of a group of people whole or in part. 
This clearly is what has happened, and I would hope that we 
would be very clear in our statement and not shrink from 
calling genocide a genocide.
    At our hearing, Dr. Melson from Purdue University 
testified, and I quote, ``The Armenian Genocide and the 
Holocaust are the quintessential instances of total genocide in 
the 20th century.'' He testified,

          ``In both instances, a deliberate attempt was made by 
        the government of the day to destroy in part or in 
        whole an ethno-religious community, an ancient group 
        that had existed as a segment of the government's own 
        society.
          ``In both instances, genocide was perpetrated after 
        the fall of an old regime and during the reign of a 
        revolutionary movement that was motivated by an 
        ideology of social, political, and cultural 
        transformation and in both cases genocide occurred.''

    Chairman Gilman. Gentleman's time has expired.
    Mr. Smith. I urge support of this resolution, and I do have 
several other instances backing this up, and I hope Members 
will back Mr. Radanovich in his resolution.
    Chairman Gilman. Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman.
    This resolution is supported by 126 Holocaust scholars, 
including Elie Wiesel. The facts are obvious if you just look 
at current demographics. For 2,500 years Armenians lived in 
eastern Anatolia, and now they are gone. Are we to assume that 
they just vanished?
    The fact is that over a million, million-and-a-half were 
killed in the first genocide of the 20th century. No wonder our 
Subcommittee passed this resolution, and this Full Committee 
should do so as well.
    But let me confront what I think is the most repeated and 
least acceptable argument against the resolution, and that is 
that it is inconsistent with America's current geopolitical 
convenience. Yes, Turkey is a NATO ally and a powerful one at 
that; and yes, it played a role in Desert Storm and Desert 
Shield. But let us look at how powerful Germany is, a NATO ally 
that has play ed a critical role in winning the Cold War and in 
winning Desert Storm and Desert Shield.
    Today, the German Government recognizes the Holocaust, but 
what about 10 or 20 or 30 years from now? A new government may 
rise in Germany that demand s for U.S.-German relations we 
march down from this hall and dismantle the Holocaust Museum 
brick by brick. If we are going to ignore the Armenian Genocide 
because it meets our geopolitical needs today, then we will 
tear down the Holocaust Museum tomorrow because some future 
German Government or some future Austrian Government insists 
upon it.
    I think the power of America is not in whether it moves 
pawns and pieces on the chessboard of the world, but whether we 
are respected for our commitment to human rights and our 
commitment to ideals. And if we reject this resolution because 
it is bad for basing rights, then what credibility do we have 
in the world? And if those who say it is important to our 
geopolitical convenience that we ignore this genocide, vote 
against this resolution, then are we also prepared to whitewash 
the Holocaust if, in some future decade, that becomes 
politically convenient or helpful for basing rights or for our 
relationship with some NATO country.
    I think that history speaks for itself, and we do America 
proud if we stand up for human rights and for what really 
happened.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Sherman.
    Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman.
    Colleagues, we see the emergence of the Armenian Genocide 
resolution from time to time, and in part--and I emphasize ``In 
part''--it is driven by California politics. Over the last 20 
years, this Committee unfortunately has evolved to the point 
where we focus an extraordinary amount of our time and effort 
on condemning and commending by resolution instead of being 
focused on our authorizing responsibilities.
    I don't think that much that will be said here today by 
Members will influence this vote one way or another. Hope 
springs eternal that it might, but I don't think that will be 
the case. I am fortunate to follow our colleague from 
California, Mr. Lantos, who speaks with tragic, cogent 
authority on a subject like this.
    Few people who argue against this resolution argue that 
there was no genocidal action. The only question is who and how 
much and which sides and who was responsible.
    I think we need to be reminded always about what our 
responsibilities are to our national interest. I am sure all of 
you have been contacted by people from the State Department, 
the Defense Department, the National Security Adviser, not only 
of this Administration but the Carter Administration, the Bush 
Administration, and the Reagan Administration saying that the 
passage of this resolution is very much contrary to our 
national interest. The gentleman from California, Mr. Lantos, 
has explained very eloquently some of the many reasons why that 
is the case.
    Sometimes I think there should be a big banner across the 
back of this room reminding us to ask the question, ``What is 
our national interest?'' so that we are focused on it time and 
again.
    This is not a matter of geopolitical convenience, I would 
say to the gentleman from California, Mr. Sherman. This is a 
matter of our national interest. We are being advised by the 
best minds that have served this country over the last 20-plus 
years that the passage of this resolution is not in our 
national interest. Therefore, I will not vote for it.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Bereuter.
    Mr. Rothman.
    Mr. Rothman. I thank you, Mr. Chairman. I want to thank you 
and the Ranking Member for bringing this measure before our 
Committee today.
    This is not an easy decision we make today. I am 
extraordinarily mindful of the role that Turkey plays in 
securing America's interests around the world, and I want to 
begin my remarks by thanking the Republic of Turkey for all 
that they do for our country and for all of our allies around 
the world. There is no question that Turkey is an important 
friend of the United States and a strategic partner in NATO. 
But we are here today not to talk about modern Turkey. We are 
not here to talk about the importance of Turkey to our military 
alliance. We are asked a question today, do we acknowledge the 
truth or not. Do we acknowledge the truth or not?
    Now, maybe many of us would rather have not had that 
question asked of us, but we now confronted with it and 
certainly when it comes to the issue of genocide, the question 
becomes probably a little easier, certainly for those of us who 
remember our history and who have perhaps a personal stake in 
never forgetting history.
    We are here today to mark up a resolution that honors the 
memory of 1\1/2\ million human beings. Should we do that? 
Should we recognize the truth of their slaughter or should we 
say it didn't happen? I would like to read from a letter that 
Robert Jay Lifton wrote to Congressman Smith on September 13th, 
my colleague from New Jersey, who I am proud to sit with.
    And by the way, let me say this, I have read everything 
submitted to me from every side from the Turkish Government, 
those who support the Turkish Government and all those who 
support this resolution.
    Dr. Lifton wrote, ``Genocide is ignored at a terrible 
peril. Whether in the case of Nazi genocide of Jews during the 
1940, the Cambodian genocide of the late 1970's or the Turkish 
genocide of the Armenians in 1915, confronting the causes and 
human effects of such systematic mass killing is crucial to the 
world at large. The failure to confront these events 
contributes to a false consciousness to the effect that 
murderers did not really murder, victims were not really killed 
and all evidence of such killing should be ignored, glossed 
over. This kind of psychic numbing encourages, indeed invites, 
repetitions of the original crime.''
    When Hitler asked the rhetorical question to his SS 
generals, ``Who, after all, speaks today of the annihilation of 
the Armenians?'' he was invoking a deadly dynamic in which 
unimposed genocide begets new genocide.
    Resolution 398 interrupts that dangerous dynamic and asks 
instead that we and our diplomatic representatives acknowledge 
and learn from the events of history, however painful. In this 
way we serve the historical truth, our own integrity as a 
Nation and the overall human future.
    If we believe that unrecognized genocide contributes to 
future genocides, don't we have an obligation to assure that 
our diplomatic staff and those who advise our leaders learn 
about this history, learn about this genocide?
    This is an excruciatingly difficult choice that we are 
asked to make today. I understand that, my friends and 
colleagues. Turkey is an extremely important ally and friend of 
the United States. But this has nothing to do with the whether 
we acknowledge that fact. It has to do with whether we will 
speak the truth or say the truth, say that these events never 
occurred.
    I am not prepared to deny the truth, certainly not to deny 
the truth of this slaughter of 1\1/2\ million people, and I 
will be supporting this resolution.
    Chairman Gilman. Thank you Mr. Rothman.
    Mr. Ballenger.
    Mr. Ballenger. Mr. Chairman, I think everybody in this room 
recognizes that there probably was a genocide that occurred 
according to this resolution we have here, but let me ask a 
question. How many genocides do we--how many resolutions do we 
need in this Committee to go back over genocides?
    I mean Rwanda, Tibet under Red China, Russia and the 
gulags, Cambodia, Iraq under Saddam Hussein. In each of these 
is something that most people would recognize, and I have one 
that actually occurred in my own home State of North Carolina.
    I don't know how many of you remember the Trail of Tears 
where the Cherokees were forced by Andrew Jackson with an Army 
to move all the way, the ones that could move alive, all the 
way from North Carolina to Oklahoma.
    Genocides are horrible, and I realize that basically nobody 
wants to recognize that we did all these various and sundry 
things, but we have done them many times, and I think we have 
been somewhat hypocritical to pick out one amongst many.
    In my own considered opinion, the Turks are our friends. 
They have been our allies through the years, and in my 
considered opinion, we need at least to avoid embarrassing this 
government, which was not even in existence when this occurred, 
and so I plan on voting against the resolution.
    Mr. Radanovich. Will the gentleman yield?
    Mr. Ballenger. Sure, fire away.
    Mr. Radanovich. Thank you, Mr. Ballenger. I just wanted to 
state that during the Subcommittee hearing of H. Res. 398, the 
offer was made to those who had opposed the bill to not only 
include the Armenian Genocide, but to include other genocides 
that had happened throughout history, and no one took me up on 
that offer. So we were open to including that type of language 
in the bill, but nothing came forth.
    I yield back.
    Mr. Ballenger. Nobody asked me. I will be glad to.
    Mr. Burton. Will the gentleman yield?
    Mr. Ballenger. Sure.
    Mr. Burton. I did talk about that. I talked about a number 
of genocides, and I have some amendments today which will go to 
that issue, and I know the gentleman and everybody else will 
support those as an addition to the bill.
    I thank the gentleman.
    Chairman Gilman. Thank you, Mr. Ballenger.
    Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman. I would like to express 
some concerns about the resolution and also offer them in the 
form of questions to those Members of this Committee that are 
trying to encourage those who have not made up our minds to 
vote for the resolution.
    The first, very basic question in my mind in this 
resolution is, what are we intending to accomplish by adopting 
this resolution. I think it is fair to say that every Member of 
this Committee stipulates that what occurred in history was a 
terrible thing for which the Turkish Government and its leaders 
share immense culpability. It seems to me today that a lot of 
the debate centers over the choice of words and the label 
``genocide.'' The only specific references in the bill as to 
what we intend to accomplish are contained in the declaration 
of policy, and I haven't heard anything to convince me that 
this is not already the policy of the United States Government 
as far as the President's decision to speak on April 24th to 
condemn what occurred, as far as the information that is 
provided to our Foreign Service about what occurred.
    I know there is legislation pending in the California 
legislature that is intended to set up a compensation system, 
and perhaps that is what ultimately we are debating here today, 
and if that is the case, let us go ahead and discuss it openly 
and honestly.
    But I would just conclude by saying, I join those Members 
who support and oppose the resolution in condemning what 
occurred. But I remain perplexed about exactly what we are 
trying to accomplish today; and without a clear and convincing 
answer to that, I do not intend for vote for this resolution.
    Chairman Gilman. Thank you, Mr. Davis.
    Mr. Royce.
    Mr. Royce. Thank you, Mr. Chairman.
    I would like to express my strong support for this 
resolution, and I want to commend its author, Mr. Radanovich.
    I want to address one objection in particular that we have 
heard and that is the issue of will this undermine our 
strategic interests. It has been said that passing this 
resolution could hurt our relationship with our good ally 
Turkey. Turkey is an important ally, there is no doubt about 
that, and is strategic in terms of that alliance, and I am glad 
that Turkey has taken the action it has to support America. But 
I think we need to think about what it means to be an ally.
    Underlining some of the statements that we have heard is 
the notion that Turkey is America's ally, and it has taken 
these actions out of some sense of gratitude. Well, the fact is 
that nations are in NATO or are otherwise allies with the 
United States for one reason and one reason alone, because it 
suits their interests. International politics runs deeper than 
flattery. It is about nations acting on their own interests, 
and we are fortunate enough to share strategic interests with 
Turkey. That is why Turkey is an ally.
    Now it has been suggested that the Turkish government will 
have a harder time managing public opinion and maintaining its 
commitment to NATO if we pass this resolution. So a sense of 
the House resolution on a genocide committed 85 years ago by a 
previous government--we don't even mention Turkey in this 
resolution, we say the Ottoman Empire--is going to undermine 
the strategic interests we have--that we have with Turkey and 
have had for 50 years, I don't think that is true. I am 
confident that Turkey and our security relationship is stronger 
than that. And for those Members who may wonder, why risk it, 
why pass this resolution if there is the slightest risk of 
undermining our relations with Turkey, I would say because 
there is genocide denial in Turkey. That is what this is about.
    There is another reason. We have heard it suggested that 
the extremists in Turkey, who would use this resolution to 
attack Turkey's relationship with the United States should we 
pass it, might do so, but there is another way of looking at 
it. If the extremists who are the biggest deniers of the 
Armenian Genocide defeat this resolution, then we are siding 
with them.
    Now, for some years German Americans have kept a running 
dialogue with my father because, unfortunately, he was at 
Dachau and took photographs which, frankly, are the most 
horrific pictures I have ever seen in my life of people dead 
and half dead. They continue to insist that the Holocaust never 
occurred, and every year there is a new book out about how it 
never occurred. Unfortunately for them, there are many people 
around just as there are Armenians around who I am sure have 
talked to some of you about how they survived this genocide, 
how perhaps they were the only one in their village, out of a 
village of 1,000 people, to have survived.
    For us to aid those who deny a genocide is a mistake, my 
colleagues. You know, 3 years ago during debates on the Foreign 
Ops Appropriations bill, more than 300 Members voted to 
withhold economic assistance to Turkey until it acknowledged 
the genocide, but that provision was removed in conference. 
That was 300 of us. We are not talking about withholding 
economic aid here. We don't want to do that. We are not even 
talking about Turkey. We are talking about a fact that occurred 
in the Ottoman Empire, and we should go forward and for the 
record be prepared to say it.
    That is my feeling, and I hope I have conveyed----
    Mr. Smith. Will you yield?
    Mr. Royce. I will certainly yield.
    Mr. Smith. I thank my good friend for yielding; and I think 
you have answered in part, maybe in whole, Mr. Davis' question, 
a very legitimate question.
    You know at our hearing Ambassador Aktan from Turkey said 
the crucial question is why the Armenians are not content with 
the word tragedy or catastrophe, and insist on genocide. It is 
because of this aggressive, persistent, pervasive effort over 
the years to deny that a holocaust actually occurred. And if 
you apply that, just lift it and apply it to the Nazi Holocaust 
that occurred in the Second World War, while this was in the 
First, you get the same kind of reaction. We need to call a 
holocaust a holocaust.
    If you read the U.N. Genocide Convention, it defines the 
term as ``deliberately inflicting on the group conditions of 
life calculated to bring about its physical destruction in 
whole or in part.''
    One of our witnesses--if the gentleman would continue 
yielding--Dr. Smith, the Professor of Government from William 
and Mary, pointed out that as early as July 1915 the German 
ambassador reported to Berlin--the Germans were obviously 
allied with the Ottoman Empire--and I quote, ``Turks began 
deportations from the areas which were now not threatened----''
    Chairman Gilman. Gentleman's time has expired.
    Mr. Pomeroy.
    Mr. Pomeroy. I commend my colleagues for their speeches. I 
think there have been some very interesting comments made in 
the course of this hearing, and you might think that we get 
together every week and try and unravel tragedies of the 20th 
century, evaluate carefully and consider these matters. In 
fact, we don't operate like that at all. This is a highly 
unusual forum that we are having today; and I think it behooves 
us to ask what is going on here, why are we doing this.
    Well, I looked for some answer to that question in a memo 
written by the Center for Security Policy. Now the Center for 
Security Policy is a Republican-leaning think tank in town. 
Among others included in this outfit are former National 
Security Adviser Brent Scowcroft, and they write as follows--
and I am going to offer this into the record of this hearing 
this morning. I quote, and I am going to quote for the next few 
minutes, reading from it:

          ``It is no secret that control of the 107th Congress 
        hangs in the balance since the days before the November 
        election slips away . . . Speaker Dennis Hastert and 
        his colleagues have been in the unenviable position of 
        having to accept terms from raising the minimum wage to 
        new entitlement programs to busting the budget caps 
        that would have been unthinkable under other 
        circumstances. Whether their constituents welcome the 
        November reward or punish legislators at the polls for 
        such behavior remains to be unseen.
          ``What is far less predictable, however, are the 
        repercussions of allowing this strategy to leech into 
        the foreign policy arena. If the full House of 
        Representatives approves an Armenian Genocide 
        resolution scheduled to be marked up today by the House 
        International Relations Committee, U.S. relations with 
        Turkey will suffer serious and possibly irreparable 
        harm.''

    I quote, continued from the memo,

          ``There is little doubt that among the repercussions 
        will be the alienation of the pro U.S. Government in 
        Turkey, undermining its support at home for its 
        policies, and a shot-in-the-arm for Turkey's anti-
        Western Islamic opposition. This is all the more 
        regrettable because it should not fall to the Congress 
        to adjudicate the arcane and bitterly debated question 
        of whether the undisputed murder of hundreds of 
        thousands of Armenians was a centrally planned and 
        systematic act of the Ottoman Turk government that 
        would, therefore, meet the definition of genocide or, 
        alternatively, was it the result of widespread but 
        uncoordinated ethnic warfare. It is hard to believe any 
        of those legislators who will shortly be asked to 
        render judgment on this matter have done their 
        homework.
          ``The Speaker feels impelled to take such a course 
        out of an understandable desire to help a valued and 
        endangered colleague, Jim Rogan of California, whose 
        role as an impeachment manager has made his defeat this 
        November a priority for the Clinton team and its 
        allies. Saving Mr. Rogan takes on an additional 
        importance as the two parties battle for every single 
        seat in the hotly contested and increasingly desperate 
        struggle for control of Congress . . . As compelling as 
        Speaker Hastert's considerations are for pursuing this 
        Armenian Genocide initiative, they risk a potentially 
        serious, if gratuitous and unnecessary, rupture with 
        one of its most important strategic partners, Turkey.
          ``A stable, secure Turkey closely tied to the West is 
        an indispensable counterweight to these and a number of 
        other worrisome developments. It behooves the House 
        Republican leadership, therefore, to find ways to 
        secure a renewed mandate without jeopardizing vital 
        national interests.''

    Now, if this is not in our national interests, as some 
experts again from a Republican-based think tank would have us 
understand, then let us consider whether it is in the interest 
of the parties themselves, the parties in the region that live 
together, that live side by side and face the ongoing risk from 
inflamed circumstances.
    Speaking to this point is the Armenian patriarch of 
Istanbul, virtually the spiritual leader of the Armenian 
community continuing to reside in Turkey. Some would say he is 
essentially a captive in Turkey and, therefore, not to be 
trusted. Others would say he is a critical figure representing 
one of the leaders of the minority, Armenian minority in Turkey 
today.
    He writes, it is unhelpful to see resolutions affecting 
Armenian and Turkish relations adopted by third party 
parliaments--it can be no doubt he is talking about us here. 
However, it is our expectation that this sort of interference 
will be sustained as long as the current unsatisfactory status 
quo prevails and the two parties do not engage in fruitful 
dialogue to resolve significant issues. Good point.
    We do not think that the third party parliament action is a 
positive substitute for dialogue. Above all, utmost caution 
should be exercised so that this issue is not exploited for the 
benefit of a variety of political interests. Nor do we think 
the present situation is helpful at all. On the contrary, it is 
harmful to Turkish and Armenian relations. Any undertaking 
which hinders dialogue, peace and friendship is regrettable. We 
pray for the Armenian----
    Chairman Gilman. Gentleman's time has expired.
    Mr. Brady.
    Mr. Brady. Thank you, Mr. Chairman.
    First, let me, in regard to Mr. Pomeroy's remarks, my 
Democratic colleague's complaining about election year politics 
is like Madonna complaining about promiscuity. There is not 
much substance there.
    Secondly, let me tell you, while I oppose this resolution, 
I greatly respect Mr. Radanovich and I believe this is 
something he feels strongly about in his heart. The Republic of 
Turkey has been one of our strongest allies. They have fought 
with us in every major challenge. They are the only Muslim 
secular democracy with a free market economy. They have an 
excellent relationship with Israel in which it has overlapping 
security, economic and political interests.
    Here the question is not do we acknowledge the truth but 
which historic version do we endorse. In reading the materials 
and listening to the disputed testimony and recognizing that 
the archives of Russia, France and Armenia remain closed to 
date, I don't feel qualified as a Member of this Committee to 
endorse a version. This is an issue that the historians should 
address, not Members of Congress.
    As to Mr. Bereuter's question, is this in the U.S. 
interests, is this in America's interest, he is correct. This 
does not contribute to peace and stability in that region. On 
the contrary, it harms us. As the Armenian patriarch said, this 
is harmful to Turkish and Armenian relationships. This does not 
make this region more stable, and it is not a positive 
substitute for dialogue between the two nations.
    Finally, recent news stories have alerted us that the 
tension between Iraq and Kuwait is increasing once again. I 
think it important to remember the last time a similar 
resolution was considered in Congress it was in February, 1990. 
Senator Byrd strongly opposed it on the grounds it would damage 
our relationship with Turkey and U.S. security interests. 
Several months later, Iraq invaded Kuwait; and we relied on the 
Turkish government to cut off the Iraqi oil pipeline, station 
Turkish groups on the border with Iraq and to permit the use of 
their bases. Had the resolution passed in the Senate, no 
Turkish government would have been able to be as forthcoming as 
it was in 1990. None of us know the security threats we will 
face in the future.
    I recognize this resolution is important to our Armenian 
friends, but this is not the American interests which is our 
job and obligation as a Committee, and I yield the balance of 
my time.
    Mr. Burton. Would the gentleman yield real briefly?
    Mr. Brady. Yes.
    Mr. Burton. I would just like the say, Mr. Chairman, we 
have the new U.S. ambassador to Turkey here with us today; and 
I would urge the Chairman to allow Mr. Robert Pearson to 
address the Committee because he is very much aware of being on 
the scene of the problems that this might create.
    I thank the gentleman for yielding.
    Chairman Gilman. Mr. Brady has the time.
    Mr. Sherman. Mr. Brady, would you yield?
    Mr. Brady. Yes, I would be happy to yield.
    Mr. Sherman. I just want to comment on this idea that only 
those who are in support of the resolution are benefiting from 
any political impetus. Let us remember the power of the oil 
companies that are pushing against this resolution, the defense 
contractors that have been lobbying against this resolution, 
and let us realize that if any votes are swayed on this 
resolution to vote in favor of it, because of the input of 
Armenian Americans in California and throughout this country, 
that is I think at least as legitimate, I would say more 
legitimate than those votes that are swayed by oil cuts.
    Mr. Brady. Reclaiming my time, if I may, Mr. Chairman, let 
me just commend my friend from California on the record amount 
of soft money contributions and PAC contributions he received 
this year and give him that praise.
    I yield the balance of my time.
    Chairman Gilman. The gentleman's time has expired.
    Let me remind our Members before we go to vote that there 
will be a number of amendments. There will be rollcalls. We 
have a number of measures to be taken up when we return.
    We have had a request by Mr. Burton to have the ambassador 
speak, which we will do when we get back, by unanimous consent.
    The Committee stands in recess.
    [Recess.]
    Chairman Gilman. The Committee will come to order.
    Mr. Burton.
    Mr. Burton. Mr. Chairman, before the break I referred to 
our new ambassador to Turkey and asked that Mr. Pearson be 
allowed to address the Committee, and so I ask unanimous 
consent that he be allowed to address the Committee at this 
time.
    Chairman Gilman. By unanimous consent. Any objection?
    Mr. Lantos. Reserving the right to object, and I will not 
object.
    Chairman Gilman. Mr. Lantos.
    Mr. Lantos. I think Mr. Burton's suggestion is an excellent 
one. No one is more qualified to discuss more authoritatively 
U.S. national interests vis-a-vis Turkey than our ambassador, 
and I join Mr. Burton in----
    Chairman Gilman. Thank you, Mr. Lantos.
    I will now request Ambassador Robert Pearson to come up to 
the Committee table to speak. Ambassador Pearson was very 
recently sworn in as our representative in Ankara. I might note 
that before becoming U.S. Ambassador to Turkey, Ambassador 
Pearson served as Deputy Chief of Mission at NATO.
    We appreciate your willingness to make yourself available 
to the Committee as we debate the measure. Mr. Ambassador, I 
now give you the floor.

 STATEMENT OF THE HONORABLE ROBERT PEARSON, U.S. AMBASSADOR TO 
                             TURKEY

    Ambassador Pearson. Thank you, Mr. Chairman. I am very 
happy to be here and very happy to answer questions from the 
Committee.
    Chairman Gilman. Mr. Ambassador, the question has arisen 
with regard to the Armenian resolution. We would welcome any 
comments you may have on it.
    Ambassador Pearson. I have just come from Ankara, Mr. 
Chairman. I flew in last night, had a chance over the last week 
to talk to a number of Turkish officials about this issue.
    I think if you look at a map of Turkey you see on its 
frontiers are countries like Syria, Iraq, Iran. Of course, 
Armenia is a neighbor of Turkey, the Black Sea, the countries 
bordering the Black Sea, all of southeast Europe, Greece, the 
issue of Cyprus.
    I think that I can state authoritatively to you, Mr. 
Chairman, that if a vote is taken in the Committee and this 
resolution passes and if it passes the floor of the House there 
will be a strong Turkish reaction to it.
    The Turks provide the base from which we fly over northern 
Iraq. That permission to perform that monitoring exercise under 
U.N. Resolutions comes up for debate in the Turkish Parliament 
every 6 months, and the next debate will be in December of this 
year.
    We are, of course, very much involved and have been for 
years with the Turks concerning--trying to find a resolution to 
the issue of Nagorno-Karbakh. Relations between Turkey and 
Armenia are very important to finding a peaceful solution to 
that issue. I think that passage of this resolution could 
affect that process harmfully.
    The Turks have been working with us, of course, on the 
issue of Cyprus. Turkey and Greece have been very heavily 
involved in a joint exercise to lower tensions and to build 
stronger relations between those two countries and also, of 
course, concerning issues in the Aegean.
    Turkey provided the bases for us in the Kosovo campaign. 
They took in 19,000 refugees during that period of time. It is 
ironic that they were there just last year to help all of us in 
a campaign against ethnic cleansing to face a resolution like 
this one today.
    There are, I will simply add, something like two-thirds of 
a billion dollars worth of agricultural trade between the two 
countries. Before I left, I counted something like 19 major 
energy projects in which American countries are involved. We 
have a very large contract for provision of new energy to 
Turkey through gas pipelines and oil pipelines in the caucuses. 
So I think my contribution today, Mr. Chairman, will simply be 
to say that there is a lot on the table.
    Thank you very much.
    Chairman Gilman. Thank you, Mr. Ambassador.
    Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman.
    Ambassador Pearson, thank you.
    Beyond that, I have understood that Turkey is playing a 
more positive role now in the Caucasus region, even informally 
with Armenia, and I wonder if you could address its role in the 
Caucasus country.
    Ambassador Pearson. Thank you, Mr. Bereuter.
    They are playing a more active role in the Caucasus. Former 
President Demirel made a number of trips to the Caucasus. The 
new President, President Sezer, is planning a major trip to the 
Caucasus at the end of October.
    We have been working very closely with Turkey, as I 
mentioned, on oil and gas energy in the Caspian region. Turkey 
is a partner in the process called the Minsk process to try to 
find a resolution to the Nagorno-Karbakh issue between Armenia 
and Azerbaijan; and, of course, Turkey is in favor of improved 
relations with Armenia.
    Chairman Gilman. Mr. Smith.
    Mr. Smith. Mr. Ambassador, can you respond to the 
Radanovich resolution, section three, declaration of policy? Do 
you agree or disagree with the second clause which says, 
``calls upon the President in the President's annual message 
commemorating the Armenian Genocide issued on or about April 
24th to characterize the systematic and deliberate annihilation 
of 1,500,000 Armenians as genocide and to recall the proud 
history of the United States' intervention in opposition to the 
Armenian Genocide.'' Is that an accurate or an inaccurate 
characterization?
    Ambassador Pearson. Mr. Smith, I, of course, am here to 
talk principally about my perspective on the relationship from 
Ankara and not to characterize the events in the resolution. I 
think the Administration has stated its position on that point.
    Chairman Gilman. Gentleman's time has expired.
    I am going to ask unanimous consent that the Ambassador be 
granted an additional 5 minutes for questions for the 
Ambassador.
    Mr. Lantos.
    Mr. Lantos. Thank you, Mr. Chairman.
    Mr. Ambassador, I would like to explore with you the 
internal ramifications of the possible passage of this 
resolution. Those of us who have followed developments in 
Turkey closely for a long time know that there are strong pro-
U.S. elements and strong anti-U.S. elements within the 
political firmament of Turkey. Which of these elements would be 
aided by the passage of this resolution, the pro-U.S. forces or 
the anti-U.S. forces?
    Ambassador Pearson. Mr. Lantos, one of the last things a 
senior Turkish official told me before I left Ankara was that 
one of their chief concerns was that people who wanted to drive 
a wedge between American and Turkish relations would use this 
issue specifically to that effect.
    There is a lively debate in Turkey about how to deal with 
this issue. One can look at the press even over the last 3 
weeks and see that there is a great deal of open debate, but I 
think that the general feeling there is clear that this is 
designed to make Turkish-American relations and the working out 
of the issues we are both trying to work on more difficult.
    Mr. Lantos. If I may follow up, there is a strong Islamic 
fundamentalist force within Turkey and there is a powerful 
secular force in Turkey. The passage of this resolution, in my 
judgment, would powerfully assist Islamic fundamentalist forces 
and diminish the influence of the secular forces. Do you agree 
with my assessment?
    Ambassador Pearson. Well, Mr. Lantos, rather than try to 
specifically characterize individual groups inside Turkey, I 
would just say that people who are committed to the long-term 
benefits of this relationship would suffer as a result of the 
passage of this resolution in the Committee and in the House.
    Chairman Gilman. Mr. Salmon.
    Mr. Salmon. Thank you, Mr. Chairman.
    Mr. Ambassador, this has been a very, very difficult issue 
for many of us for a lot of reasons. I think one of the 
rhetorical questions that has been asked today is why are we 
doing this now. I love to study history. In my bachelor's and 
my master's degree I did quite a bit of studying of history and 
world religion history. I have always been fascinated by it, 
and I think that if there is a reason for addressing a 
resolution and if the reason is to affect the here and now, 
then it is a good point, but some have raised the specter of 
why here and now.
    We talk about the atrocities that man has committed against 
man over the ages. I look at the Spanish Inquisition, and yet I 
don't see us sponsoring some resolution to condemn the Catholic 
Church or the Roman crucifixion of Jesus Christ. We don't have 
a denunciation of the Romans right now. And in more recent 
history, just over a hundred years ago in our own country, my 
people, the Mormons, were chased out of Missouri; and the 
governor signed an extermination order that they could be 
killed if they didn't leave. Yet I have never seen a resolution 
denouncing Missouri.
    I do believe that history is valuable as long as we are 
using it at this present time for some great good, and so my 
question would be, after all is said and done, obviously, the 
motive must be to impact current relations between Armenia and 
Turkey, what will passage of this resolution do to the 
relationship between Armenia and Turkey? What is your opinion?
    Ambassador Pearson. Thank you, Congressman.
    Of course, I understand the sentiment in the resolution. I 
think all Americans understand the sentiment in the resolution. 
The passage of this resolution, however, would make Armenian-
Turkish relations more difficult.
    There is a closed border today between Armenia and Turkey, 
and there have been efforts, as I have recounted, in the past 
few years to try to improve those relations. Turkey has, in an 
attempt to further this process, opened an air corridor, a 
limited air corridor. I think there are some limited visa 
provisions that have been put into effect that are helpful. 
There is a common--let me say there has been a common 
commitment to try to work toward a resolution. When I talked 
with Turkish officials prior to coming here yesterday they all 
repeated their desire to find a way to work more effectively 
with Armenia. So I believe that this would specifically set 
back or risk setting back a lot of hard work that the United 
States has engaged in for a number of years and, frankly, not 
just us but a number of other countries in the region as well.
    Chairman Gilman. Gentleman's time has expired.
    I am going to ask consent to extend the time for Mr. 
Gejdenson's question, and then we will close the opportunity 
for the Ambassador.
    Mr. Gejdenson. Thank you, Mr. Chairman.
    I just want to briefly state that I think it is a mistake 
to place this as either you tell the truth or you attack the 
present Turkish government. The reality is that the present 
Turkish government is an important partner in the region. The 
present Turkish government is one that is not just serving 
American's interests in the region. We have mutual concerns in 
the region where our own individual national interests 
coincide.
    Turkey and the United States work together on a regular 
basis. I have worked with the Turkish government on a number of 
issues that are important to both of us. This Turkish 
government is making important efforts in the relationship with 
Greece, starting to address issues on Cyprus. There are lots of 
things we agree with them on. I don't think it is acceptable 
that we simply say, because of these things, we are not able to 
recognize an outrage in history;and I think it is important to 
look at the German experience.
    You know, if you look at the German experience, my father's 
family, without exception, was exterminated in World War II. He 
is the only member of his family to survive. My mother lost 
most of her family. We have dealt with that. The German 
government has recognized what happened. Israel and Germany 
have a very positive relationship. We deal with the German 
government because of our mutual national interests as a 
democracy.
    So I think there may be people that vote on different sides 
of this issue today for lots of reasons, but I don't think 
anybody who plans to vote for this resolution does so thinking 
that we should in any way diminish our relationship with the 
Turkish government.
    It is an easy thing to argue against recognizing history. 
Turkey is an important ally. Turkey does cooperate with us 
because it is in our interest, it is in their interest. We need 
to work more with the Turkish government. They have got to work 
toward democratizing their society. It is the only course for 
all of us.
    So it seems to me, Mr. Ambassador, with the greatest 
respect for the present Turkish government and the Turkish 
people, for the many great things they have done throughout 
history and the contributions they have made to civilization, 
there is this issue that needs to be addressed. This is all 
this is about, not to condemn the present Turkish government, 
not to insult the present Turkish people. We don't insult the 
German people when we recognize what happened in World War II.
    Chairman Gilman. We now conclude the Ambassador's time. 
Thank you, Mr. Ambassador.
    Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman; and I want to thank you 
and Mr. Gejdenson for bringing this resolution to the Committee 
for full discussion and debate. We are here participating in, 
it could be said, a history lesson, but that history also is, 
as we have heard, highly contested terrain.
    During the First World War, millions of people were killed 
or made homeless, and the deaths of some one and a half million 
Armenians must be viewed within the context of this larger 
human tragedy. I would certainly support efforts to educate 
Americans, especially our diplomatic representatives, about the 
complex events that occurred during this tragic period in world 
history, including the losses suffered by the Turks and others 
in the Ottoman Empire.
    It is not the intention of this resolution to offend the 
government of Turkey or damage an important international 
relationship which I believe our Ranking Member just laid out 
very eloquently. Nor is it the intent to minimize the heavy 
losses suffered by other groups during the Ottoman Empire 
during World War I or, for that matter, those in Russia, 
France, Germany, Japan or any other country.
    It is my belief that Americans will benefit from learning 
more about this period and the tremendous loss of life on all 
sides and that such education will help all of us avoid such 
conflicts in the future, and I agree that such education 
efforts should be framed within their full historical context 
rather than in isolation.
    This resolution does not preclude such an approach. As we 
seek to confront the violence and tragedy of our own country's 
past, we must also seek to more fully understand international 
events as well. History lessons are neither easy nor painless, 
and it is imperative that they be looked at from all sides, but 
we all benefit from looking at the past.
    When I was in the California legislature, I cosponsored 
legislation to require that our schools' curriculum reflect 
courses that reflected a study of the deplorable institution of 
slavery in our own country, which our own country still has yet 
to apologize for. We also required that this curriculum study 
the inhumanity of the Holocaust and the horrible inhumane 
treatment of our Native Americans. Awareness and education 
regarding crimes against humanity must always be remembered so 
that they will never happen again.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Ms. Lee.
    Mr. King.
    Mr. King. Thank you, Mr. Chairman. Mr. Chairman, I yield to 
Mr. Radanovich.
    Mr. Radanovich. I thank the gentleman from New York for 
yielding. I would like to take a moment to address an argument 
that persistently comes up regarding this resolution.
    Each time this body attempts to come to closure on this 
subject, opponents usually ask, why now? They may even say that 
the interests--the intent of the resolution is commendable, but 
the timing is inopportune. Mr. Chairman, unless the Turkish 
government ends its ongoing campaign to deny the facts of the 
Armenian Genocide, the only time acceptable to our ally is 
never; and I regret to say that our State Department readily 
concurs with Turkey.
    Why now? Because later accomplishes nothing. Turkey remains 
adamant in its denial, and its reprehensible tactics of threats 
and coercion are rewarded. Why now? Because the passage of this 
resolution today by this Committee and subsequently on the 
House floor will end denial which, expressed differently, is 
the killing of truth. At least one branch of my government will 
say categorically to all deniers that they have failed.
    I implore my colleagues here today to understand that this 
resolution is a Sense of the House resolution regarding the 
United States' record. Despite all the threats emanating from 
Turkey regarding U.S. bases, U.S. contracts, jobs, et cetera, 
this resolution is not an assault on the Republic of Turkey. 
Furthermore, I reject Turkey's presumption that it can impose 
its views regarding the American response to the Armenian 
Genocide on this Committee. If we bow to Turkish pressure over 
a House-only resolution regarding our record, there is no 
telling what else the U.S. will be called upon to give in to 
the next time Turkey threatens a dooms day scenario.
    I believe that this is a matter of principle. Congress must 
not let any foreign government dictate what legislation, 
especially legislation affirming America's record, it can or 
cannot adopt.
    Thank you, Mr. Chairman. I yield back.
    Chairman Gilman. Mr. King's time.
    Mr. King. Mr. Chairman, I yield the balance of my time to 
Mr. Royce.
    Mr. Royce. Mr. Chairman I just wanted to ask the Ambassador 
one question if I could.
    Chairman Gilman. Mr. Ambassador, would you take the witness 
table again?
    Mr. Royce. I thank you, Mr. Chairman.
    Mr. Ambassador, one of your tasks as ambassador is 
explaining American perspectives. This is a House Resolution 
with over 100 cosponsors, and I am sure you have anticipated 
that it may pass. How have you been explaining to Turkish 
authorities that this is not about the government of Turkey 
today, this is about the Ottoman Empire which you know 
committed a genocide but did expire in 1918? How have you done 
that, if I could ask?
    Ambassador Pearson. Thank you, Congressman. I think that is 
an excellent question.
    I have tried and explained in great detail what this 
resolution says and its terms and so on. I have to tell you 
quite honestly that people in Turkey regard this as directed 
against them. They understand that this has in it the words 
referring to the Ottoman Empire, but it looks to them as if it 
is referring to them.
    Mr. Royce. And you have explained to them, though, that 
this is about something in history, that this is not about the 
Turkish government, this is about a genocide that occurred 
under a prior regime?
    Ambassador Pearson. I have.
    Mr. Royce. And that this is part of our democratic process 
here of passing resolutions in the House.
    Ambassador Pearson. I have indeed, Congressman, but they 
firmly see this as directed against the current state of 
Turkey, and they see it in the context of a firm alliance, and 
that is why they find it so difficult to comprehend. But I 
absolutely have explained this resolution in detail to them.
    Mr. Royce. Thank you, Mr. Chairman.
    Chairman Gilman. Mr. King.
    Mr. King. Mr. Chairman, I yield back the balance of my 
time.
    Chairman Gilman. Thank you, Mr. King.
    Mr. Crowley.
    Mr. Crowley. Mr. Chairman, thank you for permitting me to 
take a moment to address the Armenian Genocide resolution 
before us.
    I commend Mr. Radanovich and Mr. Bonior for bringing this 
matter before the Congress. The tragic occurrence perpetrated 
against the Armenian people between 1915 and 1925 by the 
Ottoman Turkish Empire is of great concern to me and to members 
of my constituency. During this relatively brief time frame, 
over 1.5 million Armenians were massacred and thousands more 
were forced into exile. Unfortunately, the Turkish government 
of today has not recognized these brutal acts of genocide 
committed by the Ottoman Empire, nor is it willing to come to 
terms with its participation in many of these horrific events.
    Prior to the Armenian Genocide these brave people with a 
history of over 2,500 years in the region were subject to 
numerous indignities and periodic massacres by the sultans of 
the Ottoman Empire. The worst of these massacres prior to 1915 
occurred in 1895, when as many as 300,000 Armenian people were 
murdered, and those who survived were left completely 
destitute.
    Despite these events, Armenians have survived as a people 
and culture throughout Europe and the United States as well. 
The present Turkish government needs to come to terms with the 
past and work toward improving the future.
    I have taken the time to hear the perspective of Turkish 
groups who remain strongly opposed to this resolution. Their 
contention is that the historic account of these events is 
flawed and inaccurate. They suggest that since Turks were also 
killed at the time, it should not be considered a genocide. 
Obviously, there is some conflict as to the definition of 
genocide.
    I want to make sure we are all talking about the same 
thing. Genocide, as was mentioned by Mr. Smith, it is a 
systematic planned annihilation of a racial, political or 
cultural group. Did it happen to the Jews and others in 
Germany? Yes. Did it happen to the Armenians in the Ottoman 
Empire? It certainly did.
    I am well aware of the importance of Turkey as an ally in 
an unstable region and a front line NATO State. While we do not 
hold the current citizens of Turkey accountable for what their 
grandparents and ancestors did, that does not mean we should 
not commemorate and honor those who are slaughtered during this 
campaign. A vote against this measure will send the measure to 
Ankara that the U.S. is willing to look the other way as long 
as those who have committed acts of genocide hold a strategic 
position in our foreign policy.
    I believe by failing to recognize such barbaric acts, one 
becomes complicit in them. For that reason, I must vote and 
urge my colleagues to vote in favor of this resolution that is 
before us today. I too have concerns about our national 
interests and the message we send with this Committee. What 
message will we send to those victims, the human rights victims 
if this measure is defeated.
    Was it in the national interest of the United States to 
involve itself in the affairs of the Irish people in northern 
Ireland? I don't think there was any national interest at 
stake, at least not by definition that has been brought out 
today. To involve ourselves in the affairs of our greatest 
ally, Great Britain--and by the way, I believe the State 
Department also opposed our involvement in that affair as well. 
But even Great Britain's leader, Tony Blair, saw that he had to 
recognize the abuses of the British people by its past 
government, although the exact same government in terms of 
tradition exists today in Britain, to recognize the ills 
perpetrated on the Irish people before they can move forward 
with their peace process and come to terms with their own past.
    So, Mr. Speaker, I wholeheartedly endorse and support this 
measure, and I will be voting in the affirmative. I yield back 
the balance of my time.
    Chairman Gilman. Thank you, Mr. Crowley.
    Mr. Wexler.
    Mr. Wexler. Thank you, Mr. Chairman. First, I would very 
much like to associate myself with the remarks of Mr. Bereuter 
and Mr. Lantos and Mr. Davis.
    Heaven forbid anybody on this Committee or any American, in 
any respect, ignore or minimize or deny the deaths of hundreds 
of thousands of Armenians during the period of World War I. 
That would be an extraordinary tragedy. We in this country, 
each and every year at this point on April 24th, commemorate 
Armenian Remembrance Day, which allows the President and other 
officials and all Americans to pay proper tribute to the 
graveness of the tragedy that occurred some 90 years ago.
    It seems to me, in light of what Mr. Bereuter said, in 
terms of what is our national interest and ought to be our 
guiding principle, the question we must ask, not of just this 
resolution, but any resolution, is what is the specific purpose 
of the resolution? What does it accomplish? And it seems to me, 
although in some ways not particularly specific in terms of why 
this resolution would, in any way, change America's foreign 
policy, it is essentially a very basic goal that our foreign 
policy reflect appropriate understanding of the sensitivity of 
the issue concerned.
    It would seem to me if we were debating today whether or 
not America should build a museum or a place of learning 
regarding this tragedy, that would be a very appropriate 
debate. If we were debating whether or not America has any role 
to play with respect to reparations of the families who were 
the victims of this tragedy, that to me would be a very 
appropriate debate; but to debate whether or not our foreign 
policy should reflect a sensitivity related to the human 
rights, ethnic cleansing and genocide documented in the United 
States record relating to the Armenian Genocide, I would 
respectfully suggest I see nothing in our own foreign policy 
behavior to suggest that we don't already do that.
    With an issue that seems to have presented so much 
controversy, and like our ambassador says, with so much on the 
table, it is almost unfathomable to me that with so much 
controversy, that almost in the uniform position the best 
experts from the Reagan, Bush and Clinton Administrations all 
agree that this is not in the best security interests of the 
United States uniformly, from a variety of different political 
perspectives.
    So what are we gaining if we pass this resolution? It seems 
to me we are gaining language that doesn't, in any significant 
way, affect the current Administration in Turkey. So what are 
we losing potentially? That argument has been made over and 
over again, and whether or not you think it is a justifiable 
loss or not is almost irrelevant. I think it can be uniformly 
concluded that there will be a grave result in terms of U.S. 
and Turkish relations, Turkish and Armenian relations, and what 
have the Armenian people in America gained by this? Do they 
have a museum so that hundreds of thousands of people can march 
through it and learn and children can learn of the tragedy? No. 
Do Armenian families in America get paid reparations for their 
grave losses? No. They get fluff language, and I don't mean to 
denigrate it. It is extremely important. But we are not 
changing our economic relationship with Turkey on paper. We are 
not creating museums. We are not creating learning. We have a 
day of commemoration.
    So it seems to me it is, in fact, an appropriate analysis 
to ask what do we potentially lose and what do we potentially 
gain? Going back to Mr. Bereuter's original comments, what is 
in the national interests of the United States? It seems that 
those that I will defer to in term of their extraordinary 
expertise in both the Reagan, Bush and Clinton Administrations 
all agree that the equity is in the side of not passing the 
resolution, and Mr. Chairman, that is why I will choose to 
stick with that position.
    Chairman Gilman. Thank you, Mr. Wexler.
    Mr. Berman.
    Mr. Berman. Thank you, Mr. Chairman. I will try to be 
brief. I just want to pick up on a point made earlier, I think, 
by my colleague from California, Mr. Royce. I am a supporter of 
this resolution and intend to vote for it. This resolution 
creates a problem for our executive branch, I recognize, but in 
and of itself, that does not justify opposing the resolution.
    Nations, as people, work themselves into curious states of 
mind about different actions. Entirely different kinds of 
issues have come up recently, which have resonance with me in 
terms of the Administration's response on this issue.
    China has a view of Taiwan. China is very important to us. 
China's view on Taiwan is so deeply felt that, because of 
China's importance to us, we here do not do what seems like 
common sense things with respect to Taiwan. If the duly-elected 
democratic leader of Taiwan is coming to the United States and 
wants to talk to a Congressman, we will be massively 
undermining U.S.-China relationships by doing this. China's 
position is fundamentally irrational. It is not based on 
policy. It is deeply felt. It is understandable, but in the 
end, it can't sustain itself.
    And while I recognize that support for this resolution puts 
a special burden on the executive branch, the State Department 
and our diplomats in particular, it is going to have to be your 
job to communicate to these people the reality of what we are 
saying rather than the atmospherics and the hysterics that they 
have come to believe.
    I heard a quote from the gentleman from North Dakota about 
the patriarch of the Armenian Church, saying that third party 
resolutions are a poor substitute for dialogue. That is true. 
But in the end, sometimes third party resolutions, after a 
period of anger and reaction, become the basis for the 
dialogue. That dialogue has not taken place. The denial is not 
being confronted, and sometimes we have to do things which 
other people perceive in a certain way that we do not intend. 
But once the acceptance of that becomes a move forward and a 
move up, I urge my colleagues to support the resolution. It is 
historically valid, it is true. It is not an effort to destroy 
or undermine our relationship with Turkey or a slap at modern 
day Turkey in any way; and because they feel it is, does not 
make it so.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Berman. I appreciate your 
being brief.
    We now recognize Mr. Sanford.
    Mr. Sanford. I would just like to associate my words with 
the words of Mr. Ackerman in that I basically put myself in the 
same camp because----
    Mr. Ackerman. I have not spoken. I think you mean Mr. 
Berman.
    Mr. Sanford. I apologize. Thank you very much.
    Mr. Ackerman. But I will, if the Chairman recognizes me.
    Mr. Sanford. But I think you get to the very valid point, 
which is, a lot of us have struggled on what to do on this 
thing. I am just most pleased that the Committee took out the 
proactive language asking State Department to do certain 
things, because I think we have a real problem in this country 
with foreign policy by congressional district; and my concern 
overall with this original amendment when it came up was that 
we would, once again, have foreign policy driven by a given 
congressional district.
    Now that that language has come out and now that, as I 
understand, Tancredo is going to offer an amendment that would 
further make clear this is not a slight against present day 
folks in Turkey, but simply recognition of something that 
happened in history, I am going to be able to support, and 
again, I would associate my words with Mr. Berman, my 
colleague.
    Chairman Gilman. Thank you, Mr. Sanford.
    Mr. Meeks. Mr. Meeks is not present.
    Mr. Menendez.
    Mr. Menendez. Thank you, Mr. Chairman. I want to commend 
you and Ranking Member Gejdenson for bringing this resolution 
before us, and Chairman Smith and Ranking Member Ms. McKinney 
for favorably reporting it out of their Subcommittee, and of 
course Mr. Radanovich and Mr. Bonior for their authorship.
    This moment is a long time coming, not only for myself but 
for the 139 other cosponsors of the resolution. Many of us have 
worked on this issue for years and years. It is a long time 
coming for the 3\1/2\ million citizens of Armenia and the 
millions of Americans of Armenian descent here in this country. 
It comes too late for the 1\1/2\ million Armenians killed in 
the genocide perpetrated by the Ottoman Empire. It comes too 
late, too, for the 6 million Jews murdered in the Holocaust.
    I won't spend time making the case that we are indeed 
talking about a genocide. The resolution, through its numerous 
findings, does that admirably and convincingly. I implore 
anyone who still has a doubt to read the findings of the 
resolution and check their original source or go back to the 
New York Times pages of 1915 and 1916 as I have. Though it is 
never too early, it is also not too late to educate ourselves 
about the Armenian Genocide, and that is what this bill aims to 
do.
    As with the Holocaust, we have a responsibility to society 
to recount for history of the Armenian Genocide so that we do 
not forget its victims and so that we remember man's capacity 
to destroy others who differ in their opinions based on race, 
religion or ethnicity. Genocide is the most egregious crime. It 
is not a crime of passion or revenge, but rather of hate. Its 
innocent victims are guilty of only being born to a different 
mother.
    To those who continue to resist the truth, I say shame on 
you, and I can only believe that those who have chosen to 
ignore the cold, hard facts have done so in order to indulge 
their shame. Denying the genocide, like denying the occurrence 
of a holocaust, does not erase the tragedy, restore the lives 
lost or compensate those driven from their homeland. Indeed, it 
makes reconciliation harder, longer and more costly.
    Look at our relationship with Germany. In pressing the 
Germans, we strengthened their commitment to ensure that 
another holocaust would never occur again, and we strengthened, 
not weakened, our relationship with Germany, a significant NATO 
ally.
    Yes, Turkey has been an important ally. We recognize that. 
But that does not mean that Turkey has been an unconditional 
ally, and it must prove its commitment to the principles of 
international law, democracy and human rights. I believe the 
United States must be willing to stand up even to our closest 
allies when they are wrong and when, as in this particular 
case, we are not saying that modern Turkey, in fact, is 
responsible. What we are saying is that this time in history 
needs to be remembered because what has passed is often 
prologue, and failure to remember, failure to recognize, 
sweeping under the carpet of history is a mistake that 
ultimately we are doomed to repeat time and time again.
    I urge adoption of the resolution.
    Chairman Gilman. Thank you, Mr. Menendez.
    Mr. Ackerman.
    Mr. Ackerman. Thank you, Mr. Chairman. I had not originally 
intended to speak on this resolution, but I feel moved to do so 
by some of the questions that have been raised by our 
colleagues during this discussion, which I find important as 
well as intriguing, questions such as what do we lose and what 
do we gain and what is in our national interest?
    It seems to me when we talk about genocides or holocausts, 
that even the survivors do not completely survive, that those 
of us who, either ourselves or our parents have gone through 
such a thing, feel and understand it ever so deeply. Some of us 
should also note that when we as well as others said things 
like never again, we should not only be talking about the 
future, but we should not be pressed by historical revisionists 
to also say never before.
    The question of what is in our national interest, I think 
it is in our national interest to speak the truth. I think it 
is in our national interest to do what is right. I think it is 
in our national interest to lead by example. And I think it is 
in our national interest to be or become the moral leaders that 
we think we are. I think it is also unfair to say that victims 
who fight back because they fight back should also be counted 
as aggressors.
    As to what we gain and what we lose by doing this today, by 
speaking the truth to our friends, I think we strengthen them 
and prove our friendship. I think we make them better for it. I 
think when they confront the realities and admit that things 
happen that were not within their immediate historical control 
and can also express their regrets about it that we can all 
move on. And what do we as a Congress stand to gain, or what we 
might stand to lose by either doing or not doing this today, I 
think the answer might be our integrity.
    I yield back the balance of my time.
    Chairman Gilman. Thank you, Mr. Ackerman.
    Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman. Let me just pick up on 
that last word that Mr. Ackerman just spoke on integrity, which 
to me becomes tremendously important. I don't know, even as I 
sit here at this late hour, which way I am going to vote on 
this bill, but integrity is tremendously important, and 
integrity to me also starts at home.
    When I think of a bill that recently was circulating in 
this Congress, just asking this Congress to apologize to 
African Americans for slavery, and when I looked at the number 
of individuals who signed up on that bill, it was minuscule.
    Integrity. Integrity starts at home. When I think of what 
has happened to the native Americans in this land, and yet we 
do not teach it in the manner that it should be taught. When I 
look at my children's classes and my young daughter, who is now 
16 years of age, and every year in this country they have what 
we call Black History Month, and during that month, she has 
come and said, Dad, I am tired of learning the same thing over 
and over again about black history, and the only thing that 
they teach me, and I know, I respect his role in history, is 
Dr. King and the civil rights movement, but they never 
acknowledge and teach me about the middle passage and what 
happened to millions of Africans being brought over here in 
chains in the hulls of slave ships.
    Integrity. Integrity is when, in New York City, from which 
I come, we try to have a curriculum of inclusion to include 
everyone and that was denied. Integrity. So it gives me a 
problem and I understand history, and we have got to make sure 
that history is known so that it never repeats itself. And so, 
it should be that I should have no hesitation in regard to this 
bill, but the hesitation is because of the credibility or the 
integrity of the body that is trying to say it to another body, 
when yet we don't do it at home to ourselves. If we did it to 
ourselves, then it is easy to say we have and stand on the 
moral ground to do it for someone else.
    And so I don't know which way I am going to vote, Mr. 
Chairman. I know that we do and we must acknowledge genocide 
wherever it is so that it never repeats itself, but I also know 
that we as a body, and sometimes we--and this is a moral issue 
in my opinion--have to forget politics. Politics is playing a 
role in this because I don't know how we got where we are 
today, other than it has to be politics, but we have to, as a 
body at some time, decide that we are going to do the right 
thing ourselves and acknowledge the wrongs that we have 
committed to other people. Then I think we can stand on the 
high moral ground to tell everyone else that you have to 
acknowledge the wrong that you have done.
    I yield back.
    Chairman Gilman. Thank you, Mr. Meeks. We will now proceed 
with the amendments. I recognize Mr. Tancredo.
    Mr. Tancredo. Thank you, Mr. Chairman. I have an amendment 
at the desk.
    Chairman Gilman. The Clerk will read the amendment.
    Ms. Bloomer. ``Amendment offered by Mr. Tancredo, page 
eleven, line 17, strike `and.' Page 11, line 24, strike the 
period and insert `and.' Page eleven, after line 24, insert the 
following, three, `calls upon--'.''
    [The amendment appears in the appendix.]
    Chairman Gilman. The amendment will be considered as having 
been read. Without objection. Mr. Tancredo is now recognized 
for 5 minutes in support of his amendment.
    Mr. Tancredo. Thank you, Mr. Chairman. I don't think I will 
take that much time. The purpose of my amendment is to simply 
help clarify the intent of the resolution. If the purpose of 
the resolution is, as has been expressed often, to identify the 
sense of the Congress regarding the horrendous events taking 
place in this area of the world 84 years ago, then it seems to 
me that we should do just that. If we are not intent upon 
assessing blame to the present government of Turkey which has 
been a statement uttered several times by many Members of this 
Committee, then I think it behooves us to also state that very 
clearly and in as unambiguous manner as possible. That is the 
purpose of my amendment.
    It is a short one, and I think nothing more needs to really 
be said, at least by me, and I will just ask for its adoption.
    Chairman Gilman. Is anyone seeking time? Mr. Lantos.
    Mr. Lantos. Mr. Chairman, I want to commend my friend, 
Congressman Tancredo, for his amendment, and I will support his 
amendment.
    I think it is important to realize that while his amendment 
is a constructive one, and I trust all of my colleagues will 
vote for it, it does not solve the underlying--Mr. Chairman, 
the Committee is not in order.
    Chairman Gilman. Committee will come to order. The 
gentleman should be heard. You may proceed Mr. Lantos.
    Mr. Lantos. Thank you, Mr. Chairman. While Mr. Tancredo's 
amendment is a constructive amendment, which I will support and 
I hope all of my colleagues will, it does not address the 
underlying issue. The underlying issue is a very simple one.
    The government of Turkey and the Turkish people do not view 
the House International Relations Committee or indeed the 
Congress as a whole as a pedagogic instrument. That is not our 
role in their eyes. And I think it takes an enormous degree of 
unrealistic self-image to pretend that although our intentions 
are noble and we clearly talk about events in the past, and 
while, if we adopt this amendment, we again underscore that we 
do not wish to criticize the current government of Turkey, that 
is not how the underlying resolution is perceived. And I think 
it is sort of important for all of us to be very conscious of 
this.
    Mr. Tancredo's amendment improves the underlying piece of 
legislation, but it does not address the fundamental issue of 
the underlying legislation, as I believe several earlier 
comments did not.
    Now, one of my colleagues referred to Elie Wiesel, and I 
think several referred to scores of Holocaust specialists. I am 
probably as close to Elie Wiesel as anybody in the Congress of 
the United States. I have untold admiration and respect, 
friendship and affection for him. We are friends. But I do not 
view Elie Wiesel as an expert on U.S. foreign policy in the 
21st century. Elie Wiesel is an expert on the Holocaust in 
Europe in the 1930's and 1940's. He does not claim expertise 
beyond that. I am as annoyed, as I take it everybody in this 
room is, when Michael Jordan tells me what telephone to use. 
That is not his field of expertise. And to drag Elie Wiesel and 
other Holocaust scholars into a debate on U.S. national 
interests in a critical region of the world in the 21st 
century, with all due respect, is an absurdity. These would be 
the first people to claim that they have no expertise in this 
field.
    Our job domestically and internationally is to promote the 
national interests of the United States, not to listen to 
Holocaust scholars on what they think about resolutions which 
have a national foreign policy impact, about which they have no 
expertise.
    So Mr. Chairman, I strongly support Mr. Tancredo's 
amendment and urge all of my colleagues to vote for it. I yield 
back the balance of my time.
    Chairman Gilman. Thank you, Mr. Lantos. Are any other 
Members seeking recognition?
    Mr. Burton.
    Mr. Burton. Mr. Chairman, I agree with my colleague that 
this is a worthwhile amendment, but I also agree with what he 
said, this doesn't change the underlying problem.
    I think we have a bad case of what we call selective 
righteousness, which is being expressed today, and the reason I 
say that is because of the following, and Mr. Meeks hit right 
on it. I don't know how he is going to vote but I think he hit 
right on it.
    We have not passed a resolution on African slave trade 
involving the United States, but 18 million Africans were 
carried into slavery, 18 million were stuffed into boats and 
brought over to the United States, and I don't recall ever 
seeing a resolution passed by the Congress condemning our 
forefathers for allowing us to involve ourselves in the slave 
trade. Why don't we do that?
    Let us talk about the decimation of American Indians. When 
we first came to this country there were about 7 million 
Indians in this country. In 1890, that was reduced to 300,000. 
Went from 7 million to 300,000. What do you think happened to 
all those people? They were murdered. They were run off their 
property and put into reservations. My colleague from North 
Carolina talked about the trail of tears where Indians were 
taken by the hundreds and thousands to Oklahoma and many, many 
dying, starved to death because of that forced migration.
    The Congo Free State, we haven't heard anything about that. 
The Congo Free State--10 million, 10 million indigenous 
Congolese died at the hands of the Belgians. Where's the 
resolution on that? Ten million. That was the first one in the 
20th century. Now we are going back 85 years. Why don't we go 
back another 7 years to 1908 when 10 million Congolese were 
massacred.
    How about in the 20th century with Joseph Stalin? Where is 
the resolution on Russia before the Soviet Union? Stalin killed 
50 million. I don't hear anything about that. I haven't seen a 
resolution like that.
    Mao Tse-Tung, oh, we are really buddies with China right 
now. They are still a Communist State. Killed 50 million. How 
come we don't have a resolution on that?
    Religious minorities in India. India is one of our friends 
and allies. I never hear any criticism about them, but the fact 
of the matter is the Sikhs, the Christians in Nagaland, the 
Sikhs in Punjab, the Muslims in Kashmir by the hundreds of 
thousands, have been killed and persecuted.
    In Cambodia, there was a resolution on Cambodia, but it did 
not deal with the massacre and the intentional killing of 
anybody who wore glasses because they could read, and anybody 
who was educated--millions died there.
    The Sudan, the Sudan, what about the millions that have 
died there just recently?
    In Rwanda, 800,000 to 1\1/2\ million people were murdered. 
Another two million fled to neighboring countries since 1994.
    And I could go on if you want to to Australia, the 
Aborigines and how they have been mistreated by the Australians 
over the years, if you want to do that.
    China, the treatment of Tibet; France, the Calvinist 
executions of the Christians. We haven't talked about that. 
Spain--the Spanish inquisition. You know, we can go on and on 
and on, and you can go right up to the present day where these 
things are going on between the Hutus and the Tutsis in Africa, 
and yet we are being very selective in saying, oh my gosh, we 
have got to do something about the so-called Armenian Genocide. 
Today, the Armenians are taking their wrath out on the 
Azerbaijanies. Are we going to have a resolution on that? I 
mean, how far do we go?
    The point I am trying to make is, we could go on ad 
infinitum condemning people for atrocities that have taken 
place. There is no question about it, but the thing we ought to 
consider today is what is the national interest of the United 
States? The Turks, if you look at their papers and their 
television today, they are extremely upset. Our ambassador just 
told you that this could upset the entire relationship we have 
with them over there, our bases, Iraq, Iran, Syria, the entire 
Middle East.
    We don't know what could happen, but I could tell you this 
kind of thing is full of mischief, and if we are going to do 
it, if you are going to condemn all these atrocities that have 
taken place in history, then let us do it right. Let us make a 
bill that covers as many of them as possible, and if we find 
more, bring up another bill to do it, but let us not have 
selective righteousness today, especially when we killed 7 or 8 
million Indians to take over this country. This was theirs. 
They are living on reservations today. Now I am not saying that 
I want to go back to the situation we had, but the fact is that 
did take place, and I have never heard one resolution 
condemning that.
    Chairman Gilman. Gentleman's time has expired. Mr. 
Radanovich--I am sorry.
    Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman. The argument is we 
can't pass this resolution because it doesn't deal with every 
problem. Look at all the other resolutions we are going to deal 
with today. Look at what this Committee does day after day, 
week after week. We have a resolution coming up on Sudan. Are 
we going to be told we can't pass a resolution about Sudan 
because it doesn't mention Rwanda or Cambodia or East Timor?
    We have a resolution coming up about Afghanistan. Are we 
going to be told we can't pass that resolution because it 
doesn't deal with atrocities in Colombia or that we can't pass 
a resolution, the next one coming up on Kenya, because it 
doesn't deal with some of the most frightful things that have 
happened in other places? The resolution on Kenya deals with 
assassination. Are we going to be told we can't pass that 
resolution because we have had terrible assassinations here in 
the United States, some of which remain unsolved?
    Each resolution stands on its own. Each resolution is part 
of a brick wall where we try to build an edifice dedicated to 
human rights, and if we are told that no brick can be put in 
place because it does not encompass everything, then we will 
never build the wall. Of course, we should often recognize the 
horrors of slavery and the genocide of America against so many 
American Indian tribes or native American tribes. But is that a 
reason that we would not pass a resolution about Cambodia or 
Afghanistan or Rwanda or Sudan or Armenia?
    Second, we are told that we are unworthy of passing a 
resolution judging others. Yet we pass resolutions every day or 
every week praising Benin or some other country for 
successfully completing its democratic elections. Are we going 
to halt all resolutions praising the successful democratic 
elections in other countries because there are flaws in our own 
democracy? We have got to deal with this resolution as an 
individual resolution.
    I would point out that the European Parliament, the Russian 
Duma, the Canadian House of Commons, the Belgian senate and the 
French national assembly, not to mention the parliaments of 
Sweden and Lebanon, have all passed resolutions along the same 
lines in the last 15 years. Are we to say that they are worthy 
to pass resolutions, ignoring, as the gentleman points out, 
what happened in the Belgian Congo? I don't think that we 
should ignore human rights or history simply because we 
ourselves are guilty of terrible abuses or simply because no 
one resolution can encompass all of these facts.
    We are told that our national interest requires us to 
ignore the Armenian Genocide. I will repeat again. If in 20 
years it becomes, in the short term, alleged national interest 
of this country to march down and tear down the Holocaust 
Museum because a new powerful German government insists upon it 
or requests it, is there anyone here willing to march down with 
picks and blowtorches ready to destroy the Holocaust Museum, 
should some powerful ally of the United States request that in 
some subsequent decade? I don't think we are willing to ignore 
the Holocaust, no matter what the short term political 
international exigencies, nor do I think that we can ignore the 
Armenian Genocide for the same reason.
    Our strength comes from integrity, as the gentleman from 
New York said, and if we think that a few months of bad press 
in Ankara is more important than the integrity and the image of 
the United States for caring about human rights and caring 
about integrity and caring about the historical record, then I 
don't think that the rest of the world will judge us as fit to 
be the world's only superpower, a role that we hold in large 
part because of the respect that we have around the world.
    So I look forward to the passage of this resolution. I 
think the amendment strengthens the resolution and demonstrates 
to the people of Turkey that we regard these as important 
historical facts committed by another government.
    Chairman Gilman. Thank you, Mr. Sherman. The gentleman's 
time has expired.
    Mr. Gejdenson.
    Mr. Gejdenson. Mr. Chairman, we are running out of time 
here. I just ask unanimous consent that we move the amendment 
at this time.
    Mr. Burton. Reserving the right to object.
    Chairman Gilman. Mr. Burton reserves the right to object.
    Mr. Burton. I believe that each one of these--I am going to 
support this amendment, but I believe that every Member ought 
to have a right to, because of the significance of this 
legislation, every Member ought to have right to express 
themselves on these amendments. Therefore, if there are other 
Members who want to express their views on this amendment, then 
I think that they should. And so pending finding out if other 
Members want to speak on this, I object.
    Chairman Gilman. We have a request by Mr. Radanovich, Mr. 
Campbell, and Mr. Royce to speak. Do these gentlemen object to 
our taking up the amendment at this time?
    Mr. Radanovich. I do not.
    Mr. Royce. I do not object.
    Mr. Campbell. I do not.
    Chairman Gilman. Mr. Radanovich?
    Mr. Radanovich. I support the amendment and do not object.
    Chairman Gilman. All right. Then at this time without 
objection, the question is on the amendment. All in favor 
signify in the usual manner. Opposed? The amendment is carried. 
Are there any further amendments? Well, let me say this, that 
since we have a vote--are there any further amendments?
    Mr. Lantos. Yes, Mr. Chairman. I have an amendment at the 
desk which I think will entail considerable debate. I would 
suggest we take a break and then return.
    Chairman Gilman. Let us report the amendment, at least, and 
then we will take a break and come back after the vote.
    Mr. Radanovich. Mr. Chairman, on this amendment I reserve a 
point of order.
    Chairman Gilman. Well, we haven't heard the amendment yet. 
The Clerk will report the amendment.
    Ms. Bloomer. Amendment in the nature of a substitute 
offered by Mr. Lantos, strike all that follows----
    [The amendment appears in the appendix.]
    Chairman Gilman. Without objection, further reading of the 
amendment is dispensed with. Mr. Radanovich reserves a point of 
order. We are now on the Lantos amendment. You reserved a point 
of order.
    Mr. Radanovich. Mr. Chairman, may I reserve a point of 
order, please.
    Chairman Gilman. Yes, you have reserved a point of order. 
We resume proceedings at 1. The Committee stands in recess.
    [Recess.]
    Chairman Gilman. The Committee will come to order.
    Mr. Lantos is recognized for 5 minutes on his amendment.
    Mr. Lantos. Thank you, Mr. Chairman.
    Mr. Chairman, let me first commend all of my colleagues on 
all sides of this issue, because they have brought valuable 
insights to what is a very complex problem.
    My substitute, I believe, takes care of most of the 
concerns, objections, and goals of all of my colleagues. Before 
presenting the amendment, let me just state a few facts.
    During the course of the last 20 years, every single 
American President, every single American Secretary of State, 
every single American Secretary of Defense, every single 
American National Security Adviser deemed this resolution that 
was originally introduced--not my substitute, the original 
resolution--contrary to U.S. National interests.
    From Ronald Reagan to George Bush to William Clinton, from 
George Shultz to Madeleine Albright, from Colin Powell to you 
name it, all of our top officials in the foreign policy and the 
national security field have deemed my colleague's amendment, 
my colleague's resolution, severely damaging to U.S. National 
interests.
    Nothing has changed. Some of my colleagues raised the issue 
earlier that occasionally we deal with other specific issues, 
and there is no objection. Well, sure, when there are no heavy 
national security interests adversely affected, we pass 
resolutions perhaps without the necessary scrutiny and without 
the necessary debate.
    I am delighted we have had this debate.
    I want to deal for a moment, Mr. Chairman, with the German 
case. Several of my colleagues indicated, well, why can't the 
Turkish Government take the same position the German Government 
does?
    Well, I wish they did. I think the German Government's 
approach, beginning with the regime of Conrad Adenauer and all 
through the decades, has been a very farsighted, very mature, 
very judicious, and very intelligent approach. Our job would be 
a great deal more manageable if the Government of Turkey would 
have the same farsighted approach, saying mea culpa, mea maxima 
culpa, and we move on from there.
    Those are not the facts. It is regrettable that those are 
not the facts, but American national security and foreign 
policy interests must take precedent over satisfying any lobby, 
any lobby in this country.
    We have also heard some comments about unintended 
consequences. Well, there are unintended consequences in two 
ways. There are unintended consequences which are not pointed 
out, and there are unintended consequences which are 
highlighted. I am trying to highlight the unintended 
consequences of this well-intentioned resolution of my 
colleague. Those consequences will be devastating, they will be 
devastating across the board with respect to all of the issues 
in which Turkey is involved, including Turkish-Armenian 
relations.
    Mr. Meeks and others have indicated the tremendous range of 
human rights violations over the years. My resolution deals 
with all of them, without singling out any of them.
    If I may just deal with one paragraph in this resolution:

          ``Despite the best efforts of democratic nations and 
        the ameliorating influence of the universal religious 
        and humanist traditions, the 20th century was the 
        bloodiest in history, with an estimated 175 million 
        people worldwide having lost their lives because of 
        politically motivated violations, genocide, ethnic 
        cleansing, planned starvation, and other forms of 
        exploitation and basic cruelty.''

    My substitute, Mr. Chairman, deals with the tragedy of 
Armenia. It fully recognizes the horrendous human suffering, 
anguish, and devastation that unfolded in the case of Armenia, 
but it does not single out Turkey, an important NATO ally, 
where current and future U.S. National security interests and 
foreign policy interests are so important.
    I strongly urge the adoption of the substitute, and I yield 
back the balance of my time.
    Mr. Gejdenson. Mr. Chairman.
    Chairman Gilman. Mr. Gejdenson.
    Mr. Gejdenson. Mr. Chairman, I would urge my colleagues to 
reject this amendment. I would simply say that again I think 
Mr. Lantos--I think many of us--are concerned about the impact 
on Turkish-American relations. I believe Turkish-American 
relations are based on mutual interest. They are strong allies 
in the region. They share many of our same concerns for 
security and stability in the region. That should continue.
    I do think that the authors of this resolution deserve to 
have an up-and-down vote on the resolution, that there is a 
process whereby one has to confront the horrors of the past.
    I do think the original text does that. It does so 
especially with the amendment that I worked on with Mr. 
Tancredo--that the resolution is not intended in any way to be 
an affront to the modern Turkish Government--that this is a 
recognition of a horror that happened in history, and we should 
simply vote our conscience on that, up or down.
    The gentleman's amendment might be a nice and worthy 
resolution, but it does not meet the needs of what we are 
discussing today.
    Chairman Gilman. Mr. Royce.
    Mr. Royce. Yes, Mr. Chairman. I would just point out, we do 
speak out on genocide; we do speak out to condemn other 
governments. As a matter of fact, we have agreed to bring up a 
resolution by Mr. Lantos criticizing Kenya, and yet Mombasa is 
a strategic port.
    Earlier this year we brought up the resolution to condemn 
Sudan's government for its genocidal war in southern Sudan. I 
will remind the Members that that vote on the House floor 
passed by 416 to 1. In doing so, that resolution found that the 
Sudanese Government is deliberately and systematically 
committing genocide in southern Sudan.
    Mr. Lantos. Will my colleague yield for a moment?
    Mr. Royce. I will yield.
    Mr. Lantos. There are two profound differences in the 
example my good friend raises. The first one is that the 
Sudanese Government, the current Sudanese Government, is 
currently engaged in human rights violations of the most 
egregious types. Number two, Sudan is not a major NATO ally.
    So with all due respect to my colleague, to lump this 
resolution together with a long overdue denunciation of the 
dictatorial regime in the Sudan which is, as we sit here, 
killing people for religious and other reasons, I don't think 
is a very accurate comparison.
    Mr. Royce. It is not the only comparison I made, if I could 
reclaim my time. I also pointed out your resolution, that we 
have agreed to bring up criticizing the Government of Kenya, 
despite the fact that we have a strategic port there.
    My point is that regardless of whether Sudan was an ally or 
not an ally, I am glad we have spoken out on the Sudan. I wish 
the U.S. Congress had spoken out at the time of the Armenian 
genocide. What we can do now is move to set this record 
straight. I suggest we do.
    Mr. Smith. Mr. Chairman.
    Chairman Gilman. Mr. Smith.
    Mr. Smith. I would like to take a brief moment to rise in 
opposition to the amendment in the nature of a substitute to 
point out that the language is certainly not objectionable. As 
a matter of fact, it is laudable language.
    But the fact that it is being offered in lieu of the 
pending resolution, as a way of not getting to the underlying 
issue, is a problem. As a free-standing vehicle, perhaps as an 
introduced bill referred to the appropriate committee, which 
obviously would be the Subcommittee on International Operations 
and Human Rights, it would be a fine resolution. But I think we 
need to realize that this would take the place of the very 
substantive language that Mr. Radanovich has offered.
    Let me just say to my good friend, previously he was 
talking about Elie Wiesel, and questioned whether he is an 
expert on the genocide that has gone on, or went on, in Armenia 
by the Ottoman Empire. I happen to believe that he is an expert 
with enormous standing when he speaks of terrible and 
despicable crimes. When he stood at the Holocaust Museum with 
the President of the United States and turned to Mr. Clinton 
and said, ``Do something, Mr. President,'' it was with the 
weight of a man who has lived through atrocities, and his words 
need to be listened to very carefully.
    When we juxtapose that with the scholars who have come 
forward, as was noted earlier in the debate, if we are still 
talking about findings of fact, those who have been in denial 
have won. They have gotten us to delay, to suggest that there 
are some holes in the argument. That is not the case.
    As my good friend, the gentleman from New Jersey, Mr. 
Menendez, said earlier, look at the record. It is replete. It 
is filled with factual documentation about this despicable 
crime.
    When it comes to chastising other despicable crimes, I take 
a second place to nobody. As a Member for the last 20 years, I 
have spoken out against crimes against humanity in China, twice 
got the whole House of Representatives to go on record decrying 
forced abortion in China as a crime against humanity. I have 
offered resolutions time and again regarding virtually every 
part of the world.
    When I joined Mr. Lantos and many others and took the lead 
in Romania, we were told by the State Department, don't ruffle 
the feathers. That was a Reagan and Bush State Department; yet, 
we stood up against Nicholas Ceausescu and talked about his 
crimes.
    The point is, we have before us a very well-crafted 
resolution by Mr. Radanovich, Mr. Rogan, and the gentleman from 
Michigan, Mr. Bonior, and 100-plus other cosponsors. We need to 
deal with that language and not try to supplant it with what is 
otherwise very laudable language.
    Mr. Lantos. Will the gentleman yield?
    Mr. Smith. I yield to my friend.
    Mr. Lantos. As the gentleman knows, I have the utmost 
regard for my good friend. I stood with him or he stood with me 
on human rights issues for 20 years.
    There are profound differences between both the Communist 
regime of Ceausescu in Romania and the despicable Communist 
dictatorship in Beijing. You and I have stood together 
denouncing Ceausescu and denouncing the rulers in Beijing.
    Turkey happens to be a major NATO ally. China is not a 
major NATO ally. Ceausescu's Romania was not a NATO ally. To 
draw these analogies, with all due respect, I believe confuses 
the issue. The issue is, do we deliberately wish to insult, to 
humiliate, a major NATO ally in the most strategic location of 
the Middle East and the edge of Europe?
    My judgment is that, on balance, it is contrary to our 
national interest to do so. That is why I offer my substitute, 
which denounces all of the actions that the original resolution 
denounces, but does so in a nonhumiliating fashion.
    Mr. Smith. Reclaiming my time, Conrad Adenauer in the 
current, as well as the post-Nazi, government in Germany made 
it very clear that that which went on, the Holocaust and the 
terrible behavior of the Nazis, was something that they would 
not countenance, and they denounced it. Constantinescu, the 
President of Romania, will tell you any day he has no problem, 
as do any democrats in Romania, of denouncing the egregious 
behavior of the Ceausescu regime.
    The problem with the gentleman from Turkey is the denial 
issue. I believe the beginning of healing, rather than the 
continuing festering of the problem, is an honest assessment of 
what happened. Admit it and move on. Why deny it? It only 
brings more scrutiny.
    Again, the pending resolution is fine in and of its own 
right. When it is done in lieu of the amendment, that is not 
so.
    Chairman Gilman. Mr. Rohrabacher?
    Mr. Rohrabacher. Mr. Chairman, I would like to ask Mr. 
Lantos a question. I don't have the text of the gentleman's 
amendment. Does his amendment condemn the atrocities committed 
by the Ottoman Empire against the Armenian people?
    Mr. Lantos. It does not set out any specific set of 
atrocities. It deals with these outrageous human rights 
violations which resulted in 175 million innocent people being 
killed during the last century.
    Mr. Rohrabacher. It does not mention any country in 
particular?
    Mr. Lantos. It does not mention any country.
    Mr. Rohrabacher. Let me just suggest, if your amendment 
would be amended to include a list of countries that included 
the Ottoman Empire, so that it would be specifically mentioning 
the genocide that this whole debate is about, I would be 
inclined to support your amendment.
    If it does not, I think those of us who are inclined to 
support the Radanovich proposal here cannot come over and say 
that this is an adequate substitute. But if you would include 
the names of the Ottoman Empire and several other countries who 
have committed atrocities, I think that would be adequate to 
accomplish what this Committee is trying to do here today.
    Mr. Lantos. Will my friend yield?
    Mr. Rohrabacher. I certainly would.
    Mr. Lantos. I think his suggestion is a very constructive 
one. I take it seriously. If we can defer action on this 
matter, I will proceed in developing such a comprehensive list 
and bring it back at the next meeting of the Committee. I will 
be most happy to do so.
    Mr. Rohrabacher. I am afraid that we are probably going to 
have votes on this issue before you would have that chance. If 
your staff or someone could put together that amendment to your 
amendment, as we speak now, I would then be inclined to support 
your proposal. Otherwise, I could not do that.
    Mr. Campbell. Mr. Chairman, will the gentleman yield?
    Mr. Rohrabacher. I yield.
    Mr. Campbell. Mr. Chairman, I want to respond to the 
question asked by our friend, Chairman Burton, and now Mr. 
Lantos, why some and not others.
    I think one distinction that might be borne in mind is, as 
long as there is a victim who is still alive--you cannot bring 
back everything, but maybe there is something that a resolution 
can do. That, it seems to me, is one distinction we have not 
spent time with.
    I remember voting in favor of the Japanese-American apology 
when our good friend, Norm Mineta, proposed it. That is a 
distinction between some of the questions that our good friend, 
Chairman Burton, raised about other atrocities, including 
slavery and including the Trail of Tears that our friend, Mr. 
Ballenger, raised. It is not a perfect rule, but I think it is 
one that might give us a little guidance at present.
    What we do should be more than a debating society. We all 
grant that we are at risk of being characterized as such if all 
we do is make pronouncements. But if there is a victim today, 
still alive, whose pain can be somewhat alleviated, even in a 
minor degree, by a resolution that shows some people in the 
world recognize the validity of their suffering, that it did 
happen, I think it separates it from all the other cases.
    The only exemption, I suppose--the only remaining question, 
one Mr. Meeks raised, is perhaps we ought to be very careful 
about being introspective about our own country.
    I yield back.
    Mr. Rohrabacher. Reclaiming my time, I would just say that 
we are also here--and as Mr. Lantos and others have reminded 
us--engaged in making American foreign policy that will 
determine the peace of this world, as well as the well-being of 
our country.
    We must, when dealing with a country like Turkey, remember 
that Turkey has not just been a friend, it has been a good 
friend to the United States. In the Korean War and in Vietnam, 
the Turks were there at our side. In the battle against drugs, 
Turkey was almost overrun with drug dealers 50 years ago. They 
fought against them and they have succeeded. Now they are 
playing a very important, positive role in Central Asia.
    If there is a way for us to deal with this crime of the 
Ottoman Empire and not at the same time going out of the way to 
hurt Turkey--which is, after all, not the government and not 
the same people who committed this crime--let us do this.
    But as someone who believes that human rights have to play 
an important role in American policy, I think at least putting 
it on the record has to be part of any amendment.
    Mr. Lantos. If my friend will yield, I have prepared his 
list. If I may read that list, I would appreciate his support.
    The list I am proposing is: China, the Soviet Union, South 
Africa, the Ottoman Empire, Iraq, Iran, and Sudan, among 
others.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Burton.
    Mr. Menendez. Parliamentary inquiry, Mr. Chairman.
    Has the Chair ruled on the point of order that was observed 
at the beginning of the debate?
    Chairman Gilman. Let me respond to the gentleman.
    Mr. Radanovich has made a point of order, but he has 
reserved his point of order.
    Mr. Radanovich. I raise that point of order now.
    Mr. Burton. Mr. Chairman, you recognized me, I believe.
    Mr. Radanovich. Point of order as to the germaneness.
    Chairman Gilman. Mr. Burton.
    Mr. Gejdenson. Mr. Chairman, a parliamentary inquiry. 
Normally I know the answer to my questions, but in this case, I 
don't.
    If the gentleman is pressing his point of order at this 
stage and he is no longer reserving it, do you have to rule on 
his point of order before Mr. Burton speaks?
    Mr. Radanovich. Yes.
    Chairman Gilman. In response to the gentleman's inquiry, 
Mr. Burton had been recognized and I cannot take him off his 
feet, but I will then recognize the objection that has been 
raised right after Mr. Burton.
    Mr. Radanovich. Thank you.
    Mr. Lantos. Parliamentary inquiry.
    Chairman Gilman. The gentleman will state his inquiry.
    Mr. Lantos. I think Mr. Burton's point and all other points 
should be deliberately listened to by all of us. We have a live 
vote. I would like to request that we recess, and when we 
return Mr. Burton should be given the floor.
    But I don't think we can operate this with the bells 
ringing. This is an important issue. It deserves the attention 
we are all giving to it.
    I am asking unanimous consent that we now recess until 
after the vote.
    Chairman Gilman. In response to your request, Mr. Lantos, 
this I understand is the last vote of the day. I fear we won't 
have enough Members here to continue our business. It is our 
intention, the intention of the Chair, to move our entire 
agenda over until next week, but we will try to conclude on 
this amendment if we can. If we cannot, we will have to put 
that over, as well.
    Mr. Burton?
    Mr. Burton. Mr. Chairman, I will try not to take the full 5 
minutes so we can reach the floor.
    I appreciate Mr. Lantos' remarks. First of all, let me say, 
I think Mr. Lantos' suggestion and his amendment in the nature 
of a substitute is far preferable to what we have before us.
    I also think that what he has suggested as a list of 
nations that have committed acts, atrocities and other acts of 
genocide, should be incorporated into that. Then I would be 
happy to support that.
    Let me just read real briefly to you something that has 
been omitted. This occurred February 23, 1995. I hope every 
Member will listen to this, because we are talking about so-
called Armenian genocide--and there were atrocities that took 
place, there is no question about that. This is in 1995.

          ``Armenian forces,'' Armenian forces, ``often with 
        the direct military support of the Republic of Armenia, 
        were responsible for the majority of violations of the 
        laws of war and fighting in Nagorno-Karabakh in 1993 
        and 1994, according to Human Rights Watch/Helsinki.
          ``In its 136-page report, 'Azerbaijan's Seven Years 
        of Conflict in Nagorno-Karabakh,' released today, Human 
        Rights Watch/Helsinki documents hostage taking and 
        holding, violent forced displacement of civilians, 
        mistreatment and likely execution of prisoners, 
        indiscriminate fire, and looting and burning of 
        civilian homes in 1993 and 1995 by Armenian forces, 
        often supported militarily by the Republic of 
        Armenia.''

    Here is another forced replacement by the people that we 
are supposed to be recognizing today as victims of genocide.
    If we are going to be talking about this kind of a 
resolution, let's don't be selective. Let's make sure that we 
include as many as possible of those who perpetrated acts of 
genocide upon humanity or upon their own people.
    I think that is what Mr. Lantos is trying to say and trying 
to do. We don't always agree on everything, but I will tell 
you, I think he is right on the money today. For us to do less 
is to be very selective. Why pick out one when there are so 
many others, including the Armenians?
    Mr. Radanovich. Will the gentleman yield?
    Mr. Burton. I am happy to yield.
    Mr. Radanovich. Mr. Chairman.
    Chairman Gilman. Mr. Radanovich.
    Mr. Radanovich. Mr. Chairman, I raise my point of order as 
to germaneness.
    Chairman Gilman. Mr. Radanovich raises his point of order.
    Mr. Radanovich. As to germaneness.
    Chairman Gilman. Mr. Burton has 2 more minutes.
    Mr. Burton. Let me just say that I think we need to get to 
the floor and vote. He is going to raise the point of order 
anyhow.
    I have concluded my remarks. I yield.
    Chairman Gilman. I will now take up Mr. Radanovich's point.
    Will the gentleman make his statement on his point of 
order?
    Mr. Radanovich. I might be willing to consider an amendment 
like this, and with all due respect to the author of the 
amendment, if there was language in it that also struck every 
reference to the Jewish Holocaust and replaced it with this 
watered-down piece of nothing.
    Congress has historically in the past, and in this 
Committee, dealt with specific genocides--Sudan, Yugoslavia, 
and Rwanda, as examples. This amendment does not deal with the 
issue of the Armenian genocide. To my knowledge, the Ottoman 
Empire is not a member of NATO.
    I would request that this Committee reject this. It is not 
germane to the bill. The bill is specific to the Armenian 
genocide. That is why I raise the issue of germaneness.
    Chairman Gilman. I thank the gentleman. The Chair is 
prepared to rule on the germaneness:
    The Lantos amendment deals with a matter other than the 
central subject of the pending resolution, the Armenian 
genocide. In fact, it removes all reference to the Armenian 
genocide.
    Accordingly, the point of order is well taken. Under clause 
7 of rule XVI, the amendment is ruled out of order.
    Mr. Lantos. I challenge the ruling of the Chair.
    Chairman Gilman. The question is on the ruling of the 
Chair.
    Will the ruling of the Chair stand as a ruling of the 
Committee?
    Mr. Radanovich is recognized to offer a motion to table.
    Mr. Radanovich. Mr. Chairman, I offer a motion to lay the 
appeal on the table.
    Chairman Gilman. The question is on tabling the motion to 
appeal the ruling of the Chair.
    All in favor, signify in the usual manner.
    Opposed, no.
    The ayes have it.
    Mr. Lantos. Mr. Chairman, I request a rollcall, Mr. 
Chairman.
    Chairman Gilman. Is there a sufficient second for the 
rollcall?
    Mr. Burton. Second.
    Chairman Gilman. The Chair will count. An insufficient 
number is present for the rollcall.
    Mr. Lantos. Could you specify what you mean by ``an 
insufficient number for the rollcall?''
    Chairman Gilman. A recorded vote has been demanded. One-
fifth of those present, if a quorum is present.
    Accordingly, there is no----
    Mr. Burton. Mr. Chairman?
    Chairman Gilman. Who is asking for recognition?
    Mr. Burton. Congressman Burton.
    Chairman Gilman. Mr. Burton.
    Mr. Burton. I make a point of order that a quorum is not 
present.
    Chairman Gilman. The Chair will count.
    A quorum is present. Since there is a vote on now and since 
the amendment has been declared nongermane, we will now recess 
until next week, at which time proper notice will be sent to 
all of the Members of the Committee, which will conclude with 
our resolutions.
    The Committee stands adjourned.
    [Whereupon, at 1:38 p.m., the Committee was adjourned, 
subject to the call of the Chair.]



H. CON. RES. 596; H. RES. 577; H. CON. RES. 397; S. 2682; H. CON. RES. 
404; S. 1453; H. RES. 588; H. CON. RES. 414; H. CON. RES. 410; H. CON. 
                     RES. 361; AND H. CON. RES. 382

                              ----------                              


                        TUESDAY, OCTOBER 3, 2001

                  House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10 a.m. in Room 
2172, Rayburn House Office Building, Hon. Benjamin A. Gilman 
(Chairman of the Committee) presiding.
    Chairman Gilman. The Committee will come to order.
    The Committee on International Relations meets today in 
open session to continue its markup of several matters which 
began on Thursday, September 28.


        H. CON. RES. 404--CALLING FOR RELEASE OF MR. EDMOND POPE


    Chairman Gilman. We will now consider H. Con. Res. 404 
relating to Edmund Pope, which is a critical measure, and we 
want to get it done before we get into the remainder of our 
agenda today.
    The Chair lays the resolution before the Committee. The 
Clerk will report the title of the resolution.
    Ms. Bloomer. ``H. Con. Res. 404, calls for the immediate 
release of Mr. Edmond Pope from prison in the Russian 
Federation for humanitarian reasons and for other purposes.''
    Chairman Gilman. This resolution is referred to the 
Committee by the Speaker and, in addition, to the Committee on 
Ways and Means and the Committee on Banking and Financial 
Services.
    Without objection, the preamble and text of the resolution 
will be read in that order for amendment. The Clerk will read.
    Ms. Bloomer. ``Whereas Mr. Edmund Pope of State College, 
Pennsylvania----''
    Chairman Gilman. Without objection, the resolution is 
considered as having been read, and is open to amendment at any 
point.
    [The resolution appears in the appendix.]
    Chairman Gilman. This measure was introduced by the 
gentleman from Pennsylvania, Mr. Peterson.
    This House concurrent resolution introduced by Congressman 
Peterson of Pennsylvania, puts on record a defense of Edmund 
Pope, an American citizen who has been jailed by the Russian 
government for several months, now on a charge of espionage 
that, by all accounts, is based on extremely dubious evidence. 
The resolution calls on the Russian government to immediately 
release Mr. Pope and to make certain that he is provided proper 
medical attention for the rare form of cancer with which he is 
afflicted.
    Let me note to my colleagues that Mr. Pope is a 
businessman, that he has been to Russia many times over the 
past few years on business trips. We simply do not believe that 
the Russian government has proved its case, particularly in 
light of the fact that a Russian citizen who supposedly worked 
with Mr. Pope in the alleged espionage case has already been 
released by the Russian government.
    This resolution makes it clear that if Mr. Pope is not 
released, the President of the United States should continue to 
seek his release and should consider terminating all assistance 
that our Nation provides to the Russian government under our 
Foreign Assistance Act for purposes of preparing Russia to 
enter the World Trade Organization. It also calls on our 
President to refuse further debt relief to the Russian 
government if it does not release Mr. Pope.
    My colleagues, the actions of the Russian government in 
this case do not appear to be those of a country interested in 
proper treatment of businessmen and investors. I believe it is, 
therefore, appropriate to send this message in the form of a 
nonbinding resolution that we expect a Nation that wants to be 
part of international trade organizations and that wants wishes 
for more American investment to treat our American businessmen 
appropriately.
    I would further point out to my colleagues that over the 
past few years, our government has reportedly arrested several 
Russian spies here in the United States; some under diplomatic 
cover and others operating without it. We are all aware of the 
reports that Russian spying conducted here in the United States 
from espionage facilities such as the one in Lourdes, Cuba is 
today at record levels. It is ironic that Russia would arrest 
and imprison for months an American businessman who very well 
may be innocent, all the while conducting espionage against us 
at records that exceed those of the Cold War.
    I support this nonbinding resolution, and I urge my 
colleagues to adopt it.
    Is there any other Member seeking recognition?
    Mr. Lantos. Mr. Chairman, let me first associate myself 
with all of your comments and add my own. I think the time has 
come for Mr. Putin to decide whether he wishes to have 
constructive relations with the United States, whether he 
wishes to be part of the G-8 democratic industrial nations, or 
whether he chooses to go down the path of his own KGB history.
    The continued incarceration of Mr. Pope is an outrage. This 
gentleman is suffering from bone cancer, Graves Disease, and 
melanoma. Is he palpably not a spy, and Mr. Putin and his 
regime must be put on notice that further hostile actions 
against the United States will evoke an appropriate response.
    I would like to advise my colleagues that I am working with 
some Republican colleagues to introduce a resolution removing 
Russia from the G-8. The G-8 was an accommodation to Boris 
Yeltsin during the high point of Yeltsin's democratic 
performance. It is self-evident that Russia is not one of the 
great industrial nations of the world today; its economy is no 
greater than that of the tiny west European country of Belgium. 
It has been an accommodation that the G-7 have provided the 
Russians in an attempt to cement their relationship with the 
democratic world. It was always a fiction, but it is becoming 
increasingly an obscene fiction as the free press is suppressed 
in Russia, and as an American citizen is held on trumped-up spy 
charges.
    I strongly urge my colleagues to support this resolution. 
It is unconscionable that a gravely ill American citizen should 
be allowed to remain in Soviet prison, while Russia continues 
to conduct business with Iran, Iraq and others, attempting to 
break the flight embargo to Iraq, and is displaying a wide 
range of hostile acts. The incarceration of individuals 
associated with the free media was an ominous sign. There are 
now new signs of new mock trials being prepared by the Putin 
regime, and the massage of this resolution calling for the 
immediate release of Edmund Pope is a useful signal as to the 
views of the Congress of the United States.
    I strongly urge the adoption of the resolution.
    Chairman Gilman. Thank you, Mr. Lantos.
    Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. I join my 
colleagues. The Russia in this case really seems more like the 
old Russia than any new possible Russia that we had hoped for. 
I am someone who believes strongly in a close relationship and 
working with the Russians to develop a modern democratic 
society, a civil society with democratic, free market 
institutions. Not letting this gentleman see a western 
oncologist and keeping him incarcerated in his present 
condition is simply an outrage that no government should 
exercise, especially one that is trying to convince the world 
that it has chosen a new course and is moving away from its 
old, repressive past.
    So, Mr. Chairman, I urge passage of the legislation.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    I would like to note that in the rear of the room we have 
Mrs. Pope, who we welcome to our Committee today, and we hope 
that your husband will soon have an early release. Welcome, 
Mrs. Pope.
    Chairman Gilman. Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    I would like to associate myself with the sentiments of Mr. 
Lantos. We are doing that more often these days. This is a case 
where an American citizen has been unjustly and brutally 
treated by the Russian government, and it is reminiscent of 
days gone by.
    I am assured by my contacts in the intelligence community 
that Mr. Pope was not and is not, in any way, an intelligence 
operative for the United States Government. The material he was 
supposedly looking at, which caused the Russians so much 
trouble, was material that was shown to many businessmen and 
many U.S. Government officials at various weapons shows and 
military shows and things such as that.
    If Mr. Pope continues to be treated the way he is being 
treated and is not released, there will be consequences. We 
have already heard from Mr. Lantos some of the ideas and some 
of the things that he is doing that would be impacted by the 
treatment of Mr. Pope. I have a resolution on the floor today 
in the House asking that the Russian debt not be restructured 
because of their sending missiles to the Communist Chinese. I 
would draw attention to that of our Russian friends, that there 
will be more resolutions like this resolution, and we will 
consider Russia a hostile rather than a friendly government if 
they treat our citizens as such.
    We want to be friends with Russia. We want to be friends, 
we want to have a new relationship that is totally different 
than the relationship we had during the Cold War. But they 
cannot have that type of relationship and the benefits of that 
type of goodwill if they treat citizens like Edmund Pope the 
way they are, so I strongly support this resolution.
    Chairman Gilman. Thank you, Mr. Rohrabacher. Does any other 
Member seek recognition?
    Mr. Smith. Mr. Chairman, I want to thank you and express my 
support for this resolution and thank you for bringing it 
before the Committee today. This resolution calls for the 
immediate release of Mr. Pope, an American citizen allegedly 
arrested for spying in Russia and imprisoned in Moscow since 
early April of this year. Mr. Pope has been arrested for 
allegedly trying to purchase secret technology that had been 
advertised commercially for sale. When you consider that the 
Russian government has released the alleged co-conspirator in 
this case, it is difficult to understand why Mr. Pope is 
considered such a dangerous criminal. Moreover, Mr. Pope is 
seriously ill, and the Russian government has not permitted an 
American physician to visit, which one might expect simply for 
humanitarian considerations.
    When we look at the long, drawn out case of Alexander 
Nikitin, for whom it took 4\1/2\ years to prove his innocence 
on trumped-up charges of espionage, I believe it is unlikely 
that Mr. Pope would survive a lengthy judicial process. As we 
all know, the Secretary of State has expressed her concern 
about this case at our hearing last week, and I think it is an 
important and timely resolution. I thank you for bringing it 
before the Committee.
    Chairman Gilman. Thank you, Mr. Smith.
    Is any other Member seeking recognition? If not, the 
gentleman from New Jersey, Mr. Smith, is recognized to offer a 
motion.
    Mr. Smith. Mr. Chairman, I move that the Chairman be 
requested to seek consideration of the pending resolution on 
the suspension calendar.
    Chairman Gilman. The question is on the motion of the 
gentleman from New Jersey, Mr. Smith. All those in favor of the 
motion signify in the usual manner. All those opposed, say no. 
The ayes have it. The motion is agreed to.
    Without objection, the Chairman is authorized to make 
motions under rule 20 relating to a conference on this bill or 
a counterpart from the Senate. Further proceedings on this 
measure are postponed.


 H. RES. 596--RELATING TO THE FOREIGN POLICY OF THE UNITED STATES WITH 
           RESPECT TO ISSUES RAISED IN THE ARMENIAN GENOCIDE


    Chairman Gilman. The Committee will now resume its 
consideration of H. Res. 596.
    The Clerk will report the title of the resolution.
    Ms. Bloomer. ``H. Res. 596, a resolution calling upon the 
President to ensure that the foreign policy of the United 
States reflects appropriate understanding and sensitivity 
concerning issues related to human rights, ethnic cleansing and 
genocide documents in the United States record relating to the 
Armenian genocide, and for other purposes.''
    [The resolution appears in the appendix.]
    Chairman Gilman. When the Committee adjourned on Thursday, 
H. Res. 596, had been read for amendment and was deemed open to 
amendment at any point. Amendments offered by Mr. Tancredo and 
Mr. Lantos had been disposed of.
    As we now resume our consideration of House concurrent 
resolution 596, I want to recognize our Chairman of the House 
Intelligence Committee, Mr. Goss, who has requested consent to 
address the Committee very briefly. Regrettably, Mr. Goss will 
not be able to answer questions due to the sensitive nature of 
his jurisdiction.
    Mr. Goss.
    Mr. Goss. Thank you, Mr. Chairman, very much.
    Mr. Lantos. Parliamentary inquiry, Mr. Chairman.
    Chairman Gilman. The gentleman will state his inquiry.
    Mr. Lantos. Would it be reasonable to ask Mr. Goss 
questions which do not relate to sensitive intelligence 
matters? I find it, Mr. Chairman, unacceptable that the 
universally respected Chairman of the Intelligence Committee 
should not be able to use his own judgment as to what questions 
he is prepared to answer and not to answer. I would like to ask 
him some questions. I presume other Members of this Committee 
will want to ask him questions, and I don't think it is 
appropriate for you to foreclose the possibility----
    Chairman Gilman. Well, Mr. Lantos, if you will yield, we 
don't intend to foreclose. We will leave that entirely to the 
discretion of Mr. Goss on any questions that he may wish to 
answer.
    Mr. Lantos. Thank you, Mr. Chairman.
    Chairman Gilman. Mr. Goss.
    Mr. Goss. Thank you, Mr. Chairman. It is a privilege and a 
pleasure to be back in this room working with this Committee. I 
came this morning not to participate in a policy debate at all, 
that is your prerogative and the business of this Committee. I 
came to state that I have some very serious reservations about 
the consequences of the timing in the matter that is before 
your Committee and how they might impact our national security. 
It is my view that they would impact our national security 
negatively at this time. I say that based not only on the 
information I have coming from my Committee and working from 
members of the intelligence community that are concerned about 
this, but I also say that having been contacted by members of 
the Administration who have underscored to me that our thinking 
is correct, that there are serious negative consequences should 
this pass.
    I will be opposing this legislation should it come to the 
floor and urging colleagues to oppose it on those grounds, and 
I wanted the Committee to understand that.
    Again, I am not taking a policy position on it; I am taking 
a position that there are serious consequences to our national 
security which are adverse at an extremely sensitive time in a 
region where I think we could have some of those dreaded, 
unintended, negative consequences that we all worry about when 
we pass legislation. That is what I wanted to say to the 
Committee. I thank you for allowing me to say it. I will 
certainly say that I have been to Turkey recently, I have also 
been in the area. I understand firsthand and in firsthand 
conversations some of the equities that are involved, and I 
think I would be very upset, and I think we all would be very 
upset if some of those equities were no longer available to 
this Nation in its effort to protect the national security of 
Americans at home and abroad.
    Thank you, Mr. Chairman. I would be happy to answer any 
questions, but I do not presume to participate in your policy 
debate.
    Chairman Gilman. Mr. Goss, we thank you for appearing 
today, and there probably are some questions.
    Mr. Lantos.
    Mr. Lantos. Thank you very much, Mr. Chairman.
    Chairman Goss, how long have you served in the Congress?
    Mr. Goss. Mr. Lantos, I am in my 12th year.
    Mr. Lantos. How long have you been Chairman of the 
Intelligence Committee.
    Mr. Goss. This is my 4th year.
    Mr. Lantos. Have you ever requested to speak on an issue 
before the International Relations Committee?
    Mr. Goss. I have several times been invited back to the 
Committee to discuss matters where capability and policy seemed 
to come together overseas. I have always had extremely generous 
treatment from Chairman Gilman and I am grateful for that. I 
believe this is the first time I have ever come forward in a 
manner such as I have today.
    Mr. Lantos. Is it reasonable to assume that your judgment 
of the national security implications of this proposed 
resolution is so severe that it prompted you to appear before 
this Committee?
    Mr. Goss. That is reasonable. I can assure you that I was 
aware of this matter previously, I have talked to a number of 
people on my own initiative about it, and I felt it was 
important, after the conversations I have had in the past few 
weeks on this matter, to share my concern that it is so great 
that I will be taking a position on the floor in strong 
opposition, should this matter come to the floor.
    Mr. Lantos. Chairman Goss, have you seen a copy of the 
letter sent to Chairman Gilman and signed by a large number of 
former secretaries of State and chairmen of the joint chiefs?
    Mr. Goss. I am aware of its presence; I have not read it.
    Mr. Lantos. Allow me, Mr. Goss, to read a small portion of 
this and ask for your view of this letter sent by a most 
distinguished array of defense officials in both Republican and 
Democratic Administrations.
    Chairman Gilman. Mr. Lantos, would you refer to the date of 
that letter?
    Mr. Lantos. I will be happy to, Mr. Chairman. This letter 
is dated October 2, 2000, addressed to you, Mr. Chairman, and I 
think we all received a copy.
    The letter reads as follows:

          ``Dear Mr. Chairman:
          ``We urge opposition to House Resolution 596 recently 
        passed by the Subcommittee on International Operation 
        and Human Rights concerning the attention which should 
        be given by the President to the Armenian Genocide and 
        American Foreign Policy.
          ``Whatever you or others may feel about the merits of 
        this resolution, it is important to understand the real 
        world consequences of its adoption. The potential for 
        damage to U.S. interests in a vital region dramatically 
        outweighs,'' dramatically outweighs, ``in our judgment, 
        any acknowledgment of past atrocities during World War 
        I and its aftermath.
          ``Turkey's strategic location at the crossroads of 
        Europe, the Middle East, the Caucasus and the Balkans, 
        as well as its unique position as the only Muslim 
        democratic country with a vigorous market economy, 
        places it at the center of U.S. short- and long-term 
        strategic interests.
          ``Now is not the time to test the will of an 
        indispensable ally which, for over 40 years, has proven 
        its loyalty and strategic importance. A staunch ally 
        during the Cold War, Turkey will be even more crucial 
        to U.S. security interests in the 21st century in a 
        region plagued by new security challenges, including 
        political instability, Islamic extremism, proliferation 
        of weapons of mass destruction, terrorism, and 
        narcotics trafficking.
          ``Turkey's cooperation is essential to promote U.S. 
        strategic interests in the region. Yet, with the 
        adoption of this resolution, no Turkish Government will 
        be able to be as forthcoming as in the past, given its 
        public's strong sensitivities to events clouded by 
        history.''

    I won't read the rest of the letter, but I want to read, 
Mr. Chairman, some of the signatories of this letter. Our most 
recent Secretary of Defense, William J. Perry; the former 
Secretary of Defense, Frank Carlucci; General Alexander Haig, 
former Secretary of State and former Supreme Allied Commander 
for Europe; Admiral William J. Crowe, former Chairman of the 
Joint Chiefs of Staff; General Wesley K. Clark, recently 
retired Supreme Allied Commander for Europe; General George 
Joulwan, former Supreme Allied Commander for Europe; General 
John Shalikashveli, former Chairman of the Joint Chiefs of 
Staff, former Supreme Allied Commander for Europe; General 
Brent Scowcroft, former National Security Adviser; Mr. James 
Woolsey, former Director of the Central Intelligence Agency; 
General John W. Vessey, former Chairman of the Joint Chiefs of 
Staff, and the list goes on.
    Now, I would like to ask Mr. Goss, first of all, whether he 
agrees with the substance of the letter?
    Mr. Goss. I do.
    Mr. Lantos. Secondly, if I may ask you, Mr. Goss, do you 
think that you and I and the other 433 Members of Congress 
should give some weight to the powerfully expressed views of 
secretaries of defense, chairmen of Joint Chiefs of Staff, 
under both Democratic and Republican Administrations who rarely 
produce a document as powerful and as carefully reasoned as 
this one?
    Mr. Goss. Mr. Lantos, I very strongly believe in the 
democratic process and representative government, and I think 
that part of that process is that Members bring here to this 
wonderful forum in the people's House many views across America 
of things that are important on the minds of many Americans. 
But I also feel that there is a requirement beyond just that 
individual participation to protect our national security, and 
I think this is a rare instance where the national security and 
the views of those involved with the discharge of our national 
security responsibly should be taken into consideration.
    Mr. Lantos. Mr. Goss, I would now like to ask your view 
concerning the official position of the Department of State, 
which, in part, reads as follows:

          Over the years, the Department of State has set forth 
        its objections in detail to previous congressional 
        resolutions on this issue. These objections remain no 
        less valid today. In essence, the Administration 
        believes that the resolution would complicate its 
        efforts to build a peaceful, prosperous and stable 
        future for the people of the region. The Administration 
        opposes legislative measures to deal with the sensitive 
        issues raised in the resolution. That the Armenian 
        people endured horrible massacres and suffering during 
        the first World War is beyond doubt, that the peoples 
        of Turkey and Armenia must find a way to come to terms 
        with their shared history is a principle we strongly 
        support. But we also agree with the position adopted by 
        other friends of both Armenia and Turkey that the 
        question of how these massacres are characterized is 
        best left to historians and cannot be legislated from 
        the outside.
          The President and the Secretary of State ascribe 
        great importance to the process of building peace, 
        stability, and mutual confidence in the Caucasus 
        region. Normalization of the Turkish-Armenian 
        relationship is a vital element of any Nagorno-Karabakh 
        settlement, and thus the future of Armenia.

    Chairman Gilman. The gentleman's time has expired.
    You may put the letter in the record at this point.
    [The letter appears in the appendix.]
    Chairman Gilman. Do any other Members----
    Mr. Lantos. I would like unanimous consent to proceed for 
an additional 3 minutes, Mr. Chairman.
    Chairman Gilman. The gentleman has already exceeded his 
time by 7 minutes. Our time is running----
    Mr. Burton. Mr. Chairman?
    Chairman Gilman. Mr. Burton.
    Mr. Burton. Mr. Chairman, I will be happy to yield to my 
colleague, Mr. Lantos, part of my time.
    Chairman Gilman. Mr. Lantos may proceed on Mr. Burton's 
time.
    Mr. Lantos. I appreciate the gentleman's courtesy.
    I will not read the rest of the letter from the State 
Department. I would like to ask Chairman Goss to comment on 
whether the Secretary of State's position on this matter is 
relevant in making our determination?
    Mr. Goss. Certainly, the Secretary of State's view is very 
relevant. It always is. I don't always agree with it, but it 
should always be carefully considered.
    In this case, I do agree with it. I think it is part of a 
larger compendium of opinion and judgment that comes from 
experience, not only from our diplomats, but from our 
warfighters and some of our other interests in the area. When 
you add it all up, we are talking about long-term and short-
term consequences, both of which are seriously negative for the 
United States of America.
    Curiously enough, we are debating the price of gasoline 
these days at the pump. It is hard to believe that this 
particular resolution could have any relationship to it, but in 
fact, it does.
    Mr. Lantos. My final question to Mr. Goss, Mr. Chairman, is 
have you read the statement of the President of the United 
States on this issue?
    Mr. Goss. I have read a statement, I am not sure which 
statement you are referring to.
    Mr. Lantos. Allow me to read a small portion of it. This is 
a statement by the President----
    Chairman Gilman. The gentleman's time is more than 
exceeded. You have already consumed----
    Mr. Burton. Mr. Chairman, I have 5 minutes, as I understand 
it, and I yield it to Mr. Lantos.
    Chairman Gilman. Mr. Burton, you don't have any time. You 
have been recognized, so at this point----
    Mr. Burton. I thought you did recognize me, Mr. Chairman. 
Did you not recognize me?
    Chairman Gilman. Mr. Goss had been recognized.
    Go ahead on Mr. Burton's time.
    Mr. Lantos. Mr. Chairman, why are you so afraid of Members 
of this Committee expressing their----
    Chairman Gilman. That is an unfair comment, Mr. Lantos.
    Mr. Lantos. Are we adhering to the gag rule?
    Chairman Gilman. It is not a gag rule. We have a time 
limitation. We have about 10 more measures to consider in 
addition to this measure, and I am trying to keep us within our 
time frame.
    The time has expired.
    Do any other Members seek recognition? Mr. Campbell.
    Mr. Burton. Mr. Chairman, point of order. Point of order, 
Mr. Chairman.
    Chairman Gilman. Yes, state it.
    Mr. Burton. My point of order is I thought the time that 
each Member was allotted was 5 minutes. I watched my watch, I 
got about 2 minutes and I yielded to Mr. Lantos. That is 5 
minutes. Now, if we are changing the time, I wish the Chairman 
would recognize us and tell us how much time.
    Chairman Gilman. Each Member has 5 minutes.
    Mr. Burton. I did not use my time. I yielded to Mr. Lantos 
and he used 2 minutes.
    Chairman Gilman. Mr. Lantos has exceeded the 5 minutes that 
he was allotted.
    Mr. Burton. That was his time. My time is 5 minutes.
    Chairman Gilman. He has already utilized that time.
    Mr. Campbell.
    Mr. Campbell. Mr. Chairman, I have an observation on which 
I would welcome Chairman Goss's response. The division between 
the functions of the Intelligence Committee, the foreign 
relations or the International Relations Committee and the 
Speaker's office seems to me quite relevant to our discussion 
here today. Here is how I look at it.
    A question of policy as to whether an Armenian genocide 
occurred is something that is the relevant subject matter for 
our Committee. I don't believe there is a doubt that the 
Armenian genocide did occur, and in hearing my colleagues' 
arguments against this resolution, no one has really debated 
that it did occur. Instead, what we have heard is, we have an 
important ally, Turkey, who would be offended by this 
resolution. That is what we have heard. That is the argument.
    It seems to me that you have access to information, 
Chairman Goss, and the Speaker does, too. I think the Speaker 
gets the national intelligence briefing like the President and 
the Vice President, so the very top information about the 
United States strategic and tactical vulnerabilities around the 
world would be shared with the Speaker. They are not shared 
with me, and that is fine, that is as it should be. I am not on 
the Intelligence Committee. It is my privilege every year to 
take a visit up to your office and read the budget which I try 
to do every year, and in fact, I have done every year, but I 
don't get the briefing, nor, to the best of my knowledge, do 
the other Members on this Committee get the briefings, although 
they might before they go off on a foreign trip or something of 
that nature.
    So when you come before us, for which I am grateful and I 
have been your admirer for 12 years, for as long as I have 
known you, but when you come before us and give us information 
but you can't give us all of the information, it puts me in a 
bit of a spot, because I don't know what you know.
    Here is what seems to me the correct way to solve this 
problem. We do our job here, which is on the policy. Was there 
an Armenian genocide, yes, there was an Armenian genocide. The 
question of whether it then goes to the floor is a question for 
the Speaker of the House who controls the floor and always has 
under the Rules of the House, and it could well be that the 
Speaker of the House decides not to bring it to the floor 
because of the very factors to which you allude. The result of 
which if that occurs would be, the Speaker makes his judgment 
based on all the information available to him, I make my 
judgment on the basis of all the information available to me. 
The only possible harm it seems to me from that approach would 
be if the concerns to which you allude but which you cannot 
identify in all detail would somehow be jeopardized by the 
Committee's action, just by this Committee's action.
    I guess it is possible, but I really don't find it 
compelling that that would be the case. So that is my proposal, 
that we proceed today, we vote our conscience on this 
resolution, and then you weigh in with the Speaker who has got 
the fundamental judgment to balance on whether we bring it to 
the floor.
    I will be pleased to yield to my friend from Massachusetts.
    Mr. Delahunt. I think that is a very good suggestion, but I 
would even amend that, if the Chairman of the Intelligence 
Committee, of whom I also share your respect, if he is privy to 
information that he feels impacts vitally our national 
interests, if he could provide us in a closed session with as 
much information as he can, that might be appropriate. But 
simply his presence here today I think causes unease and 
uncertainty as to what information is available. I support this 
resolution, for the same reasons that you do. But I would like 
to obviously know more. I yield back my time.
    Mr. Campbell. I ask the Chairman's indulgence to allow 
Chairman Goss to advise me on my suggestion.
    Mr. Goss. Let me say that I believe the Speaker is 
regularly briefed; I am not sure to what degree he has been 
briefed on the matters that have been brought to my specific 
attention by the intelligence community as recently as 
yesterday afternoon and their concern on this matter, but I 
think the Speaker is generally well aware of it, and certainly 
I will be talking to the Speaker about this on behalf of 
concern about the capabilities question, which is what I have 
spoken to this morning, the capabilities question. I do not 
wish our country to lose any capability, particularly in that 
region, and that is why I have come down today, is to raise a 
warning flag.
    Of course, it is the Speaker's decision and leadership's 
decision, and I am not in that circle. I will do what the 
intelligence community does, which is say this is what we think 
the facts are, these are what the capabilities are, and the 
policymakers will debate it and do what they will do. I have 
specifically said at the beginning of my comments here today 
that I, even though I value my absentee seat on the Committee 
greatly and look forward to returning some day to this 
Committee, which I respect very greatly, I do not wish to 
inject myself in the policy debate. That is very much your 
task. I am concerned about maintaining maximum equities in the 
area, and I felt it important that people debating policy in 
the area that could affect those equities understood that there 
will be people who are worried about what the capabilities 
question should be should this matter come to the floor, we 
will be taking a strong position in opposition.
    Chairman Gilman. The gentleman's time has expired. Mr. 
Delahunt.
    Mr. Delahunt. I yield to Mr. Campbell.
    Mr. Campbell. Thank you.
    Just to follow up, Chairman Goss, I thank you for that 
answer. As always, you are responsive, I don't mean to say you 
are not, but my question was, do any of your concerns get 
triggered by this Committee's action if it doesn't get to the 
floor, because that was the way I saw it dividing this up. Let 
the Speaker make the judgment as to whether it is right for our 
country for this to come to the floor, but let us go ahead 
today. Are your concerns triggered by this Committee's actions?
    Mr. Goss. I guess my concerns were triggered by when this 
came up and was starting to be discussed publicly, it caused 
considerable uproar and caused people's anxiety levels to go 
up. You are asking me to make a judgment as to whether, if 
people's anxiety levels will tip over, the answer is I have no 
way of knowing that. Frankly, I wish the whole thing would go 
away. At what stage we deal with it and how we dispose of it 
will have consequences. Whether they are favorable consequences 
or negative consequences I think will depend on the 
leadership's decision on this. I can't answer your question.
    Mr. Delahunt. I would like to ask the Chairman a question 
and then I will yield back my time. Do you believe that you 
have information, specific information that is available to you 
that you could share with Members of this Committee that would 
impact our deliberations?
    Mr. Goss. I believe that the intelligence community has 
promised--in fact, has stated that I would have written 
material suitable for Members to look at in the Intelligence 
Committee spaces. I was promised that last evening. I cannot 
verify that that material has actually arrived. I know what the 
material talks about, but I haven't seen it myself.
    Mr. Delahunt. I yield back my time.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Royce.
    Mr. Royce. Thank you, Mr. Chairman. I would like to remind 
the Members that this House went on record to cut aid to Turkey 
4 years ago over this very issue. As a matter of fact, this was 
supported by 268 Members of this Congress, and I will just 
share with you the vote on the House floor to limit to $22 
million the amount of funds to be appropriated to Turkey under 
the Economic Support Fund until such time as that country 
acknowledges the atrocity committed against the Armenian 
population by the Ottoman Empire from 1915 to 1923.
    Now, this was supported by 268 Members, including Mr. 
Lantos at the time, and the question I would ask of Mr. Goss is 
this: Four years ago, we were talking about real money. Today 
we are just talking about a resolution. Four years ago, 1996, 
Saddam was a threat; 2000, today, Saddam is a threat, but are 
conditions that different from 1996 when the House went on 
record that--I guess I should ask this question, Mr. Goss. Was 
the House wrong in 1996 when we passed this so overwhelmingly?
    Mr. Goss. I think I should let that vote speak for itself. 
I don't think the House is right or wrong. The House did what 
it did. The issue today is would something that the House do 
today affect capabilities in the area, and based on information 
that has come in to me from warfighters, people who are 
concerned about our security, our diplomats and our 
intelligence community, the answer to that question would be 
yes. Is that sufficient to outweigh the message that this 
Committee is debating? I don't know the answer to that. That 
will depend on the collective wisdom of the Members of the 
House should it go to the House floor, and I would certainly 
not want to prejudge that.
    Mr. Royce. I would just point out that when this resolution 
was passed 4 years ago by an overwhelming vote, the Congress 
went on record as cutting aid to Turkey over this issue. Now, 
that was reversed in the Senate, but I would like to remind my 
colleagues of their vote at that time.
    Thank you, Mr. Chairman.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. Mr. Goss, do you 
argue with the historical facts involved in this case?
    Mr. Goss. Certainly not. I am not taking any position on 
the matter before us except the consequences of the debate.
    Mr. Gejdenson. So you don't argue that the genocide 
occurred?
    Mr. Goss. I am not arguing or addressing the substance of 
the matter before the Committee.
    Mr. Gejdenson. You are avoiding the substance?
    Mr. Goss. I am totally avoiding it, as I said in the 
beginning.
    Mr. Gejdenson. So let me ask you this. In dealing with 
Russia and China, should we avoid responding today to human 
rights outrages because of the considerations of building a 
relationship with Russia and China and because it may 
complicate other foreign policy issues?
    Mr. Goss. Obviously, human rights are a critical factor in 
all decisions made by the United States Government on behalf of 
United States citizens and should be, and we come to different 
conclusions in different areas under certain times. We 
certainly addressed human rights violations in different ways, 
whether it is Russia, China, Colombia or any other place you 
want to speak of. I am not, in any way, trying to deemphasize 
human rights violations, I am merely trying to flag, as I said 
at the beginning, that those of us dealing with the 
capabilities question find that there may be adverse 
consequences of significance here.
    Mr. Gejdenson. I guess my problem is this, that what we are 
being asked to do is to ignore a historical fact; and I have 
come to the conclusion, and I think most historians have, 
because it complicates our present foreign policy. I think that 
is a very dangerous message. I think that what societies have 
to do is confront history honestly as best we can. I think that 
if you see instances where there has been disintegration; you 
know, for a long time, American policy ignored the problems in 
Iran under the Shah, because he seemed to be the better choice 
over what was coming. The alternative finally came, and we have 
now lived with it for a long period of time.
    I think that we have to differentiate the recognition of 
this historical fact from our present relations with the 
country of Turkey. I think, frankly, the Turkish Government has 
to accept that. I can tell you that at least for this Member, I 
think there is a hopeful future for Turkey, and I think that it 
is an important country in the region for the United States. I 
think Turkey will function better internally with its present 
issues, with the Kurds and others within its borders, if it 
honestly addresses its history in the same way, as I said the 
other day, that the German government of today, while accepting 
the historical responsibility of what happened during the 
Holocaust, was among our closest allies and partners throughout 
the Cold War, and it continues today that we work with the 
German government.
    I think for the United States to say well, here we have 
important assets, and so in this case we are going to have to 
not recognize the historical outrage. This sends a very 
dangerous message to the future, that if you are important 
enough to the United States, if you happen to have the right 
landing strip or geographic position, then we may not be as 
serious about how you treat your people or your neighbors. 
Frankly, I think that has happened, at times. I think that 
resolving this issue is something not just the United States 
needs to do, I think the Turkish government needs to do it as 
well. I think the Turkish Government needs to address it 
historically and find a way to move forward. I think that would 
be best for all of us.
    To argue that American Members of Congress should sweep 
this under the rug to me is unacceptable. We need to reach out 
to the present Turkish Government; we need to try to help them 
develop a civil society and deal with the ethnic differences in 
their country, to include them more in Western European, pro-
democratic civil society. I don't think we do that by saying, 
okay, you are important enough where we are going to ignore 
these historical facts. Because in this case, you have decided 
it is problematic. The same arguments could have been made in 
dealing with the German government on issues surrounding the 
Holocaust.
    Gee, this is difficult for you to deal with. It is even 
more recent than what happened to the Armenians. But in the 
case of Germany, we said no, Germany is an ally, Germany is a 
country we want to be friends with. The German people today 
have a civil society that recognizes its international 
responsibility, and we are moving forward. I think we have to 
do the same thing here. There may be hurdles in the interim, 
but over the long haul, recognizing the honest verdict of 
history is the only way to proceed.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Gejdenson. Thank you, Mr. Chairman.
    Chairman Gilman. I would like to--the Chair recognizes 
himself on this issue. I would like to take this time to thank 
Chairman Goss for coming to the Committee and expressing 
himself with regard to this important issue.
    We thank you, Mr. Goss, for being here today.
    Mr. Goss. Thank you, Mr. Chairman.
    Chairman Gilman. I would like to take this time to 
recognize a distinguished delegation from the Turkish Grand 
National Assembly who is with us in our audience today. These 
parliamentarians who represent Turkey's five major political 
parties have come to Washington because of the importance that 
they find with regard to the measure before us. They include 
the Honorable Tayyibe Gulek, the Honorable Ayfer Yilmaz--please 
forgive the pronunciation--the Honorable Mehmet Ali Irtemcelik, 
the Honorable Metin Ergun, and the Honorable Temel 
Karamollaoglu.
    I am informed that the mission of this delegation is 
connected to the measure before our Committee, and it is an 
unprecedented opportunity for the Grand National Assembly of 
Turkey to come to Congress, and we welcome you.
    Mr. Lantos. Mr. Chairman, I have a parliamentary inquiry.
    Chairman Gilman. The gentleman will state his inquiry.
    Mr. Lantos. Would it be appropriate to invite one of the 
members of the Turkish Parliament to express the views of their 
membership concerning the issue raised by Congressman Campbell; 
namely, would action by this Committee have any impact on U.S.-
Turkish relations? I would like to suggest, Mr. Chairman, that 
one of the members be given the opportunity to speak to us.
    Chairman Gilman. That would be appropriate if some Member 
will yield his time.
    At this time I yield the balance of my time to Mr. Burton.
    Mr. Burton. Mr. Chairman, yes, I will be happy to yield to 
one of the members of the Turkish Parliament if they would like 
to come forward and give us their views.
    Chairman Gilman. Would the chairman of the Turkish 
Parliament come forward if he so desires?
    Mr. Burton. While he is doing that, Mr. Chairman, I would 
urge that the letter that was sent to you be distributed to all 
Members of the Committee. I think it is so relevant that every 
Member ought to read it and see who the signatories are to that 
letter. It is at the desk, and I would urge the Chair to have 
that passed out.
    Chairman Gilman. Are you referring to the letter by the 
Secretaries, the former Secretaries of Defense?
    Mr. Burton. Yes, sir, the one that Mr. Lantos----
    Chairman Gilman. I had not seen it until Mr. Lantos read 
it. We will have it distributed, Mr. Burton.
    Mr. Burton, are you yielding your time now?
    Mr. Burton. It is my time, and you said I could yield to 
the member of the parliament and I have so done.
    Chairman Gilman. Would the chairman of the parliamentary 
delegation please identify himself.
    Mr. Irtemcelik \1\. Thank you so very much, Mr. Chairman. 
Thank you very much for this opportunity as well. We salute all 
of the Members of this distinguished Committee. My name is 
Mehmet Ali Irtemcelik. I am, as you indicated, the spokesperson 
of the Turkish parliamentary delegation. We are an all-party 
delegation. In other words, all the parties represented at the 
Turkish National Assembly have one member in this delegation, 
and we have come here to express the feelings of the Turkish 
nation in the face of this attempt, I do not know how much time 
I have, if you could kindly tell me, I will organize my 
statement accordingly.
---------------------------------------------------------------------------
    \1\ Mr. Mehmet Ali Irtemcelik, leader of the parliamentary 
delegation from the Turkish National Assembly
---------------------------------------------------------------------------
    Chairman Gilman. The gentleman has 5 minutes.
    Mr. Sanford. Mr. Chairman, I would certainly yield him my 5 
minutes as well.
    Chairman Gilman. The gentleman now has 7 minutes, because 
you have already utilized 2 minutes.
    Mr. Lantos. Five and five is not seven, Mr. Chairman.
    Chairman Gilman. Thank you; a mathematician.
    Mr. Lantos. I am delighted to assist you any time.
    Chairman Gilman. The gentleman has already utilized 2 
minutes of his time.
    Mr. Delahunt. Mr. Chairman, I have a unanimous consent 
request.
    Chairman Gilman. The gentleman will state it.
    Mr. Delahunt. I would request that this distinguished 
chairman be allowed to speak as long as he wants, as long as he 
should need.
    Chairman Gilman. Is there any objection?
    If there is no objection, please proceed.
    Mr. Irtemcelik. Thank you very much, Mr. Chairman, once 
again. We take very seriously the resolution which is before 
this Committee at the present time. This issue has a past in 
this House. Many attempts have been made before, it has come, 
it has gone. We want our being here to be understood properly. 
This is the first time the Turkish Parliament has taken the 
initiative to send an all-party delegation to the Hill to 
express the views and the feelings of the Turkish nation.
    There are two aspects to the issue. One concerns the 
historical facts which the gentleman, Mr. Gejdenson, I 
understand referred to, historical facts. It is indisputable, 
Mr. Chairman, that most regrettable tragic events, mass 
killings, atrocities happened in Ottoman times during the first 
World War in what is Eastern Turkey today, and nobody denies 
it. No historian. But what you are talking about here and what 
certain circles want people to talk about elsewhere in other 
parliaments is a very, very serious issue. You are talking 
about genocide.
    Genocide is a word, is a concept, is a fact which cannot be 
taken lightly. There is a huge price tag which comes with it, 
and there must be a price tag that should come with it wherever 
and whenever genocide takes place. One genocide so far has 
taken place on the face of this planet, and we know which one 
it was. And history cannot be taken lightly either. History 
cannot be rewritten for the sake of certain individuals or 
groups of people.
    As I indicated, tens of thousands of people, Armenians and 
Turks have perished in the hands of one another toward the 
demise of the Ottoman Empire. And all Members of this 
Committee, I believe, are familiar with the real facts as well. 
But I want to insist on one point. Genocide did not happen. And 
the Turkish nation will never accept the charge because it 
didn't happen, and history is written on the basis of documents 
and not on hearsay or allegations. Otherwise, we would have had 
by now I don't know how many thousands or millions of world 
history.
    The Ottoman government then at its weakest point in its 600 
years history did not make the decision to exterminate 
systematically, and that is what genocide is about, to 
exterminate systematically any segment of its subjects. No 
genocide was carried out. There is not a single document, and I 
insist, and whoever wishes to do so could accept it as a 
challenge, there is not a single respectable, not forged, 
historical document that indicates that the Ottoman government 
had indeed taken the decision to perpetrate that crime against 
a portion of its population. You all know that some of the 
Armenians in Ottoman times, those who were residing in Eastern 
Anatolia rebelled against the empire, against the Ottoman 
government in the hope to have a homeland in that part of the 
Ottoman Empire after the demise of the Ottoman Empire, with the 
help of the invading Russian forces.
    They were duped, and as any self-respecting government 
would have done, would do, the Ottoman government has taken the 
decision to relocate these people in other parts, in other 
regions of the empire. In that case it was what is Syria today. 
And that decision was carried out. In the process, and before, 
there have been clashes, and very bloody ones, between Armenian 
and Turkish irregulars, and I haven't even referred to the fact 
that some of the Armenian gangs had been shooting at Ottoman 
armies and remember, they were then subjects of the Ottoman 
Empire.
    I am not referring to the fact that the Ottoman armies, 
fighting against invading Russian forces, have been caught 
between two fires. But anyhow, during the process, yes, I will 
repeat it again, tens of thousands of Armenians have perished, 
and at least some historians fully agree that a greater number 
of Turks had perished during the same events at the hands of 
Armenians. Atrocities have happened. That is a fact. Nobody 
denies that. But no one, no historian is in the position of 
accusing the Ottoman government then of having committed the 
crime of genocide, and I repeat it again. History cannot be 
written on hearsay to fit the petty or other needs or purposes 
of any person.
    I should like to add several facts since I said that 
history can be written, should be written on documents. The 
Ottoman archives are open. We have opened the Ottoman archives. 
But you may find it interesting to note perhaps that the 
Armenian archives are not open, not to mention the archives of 
the Dashnak party.
    So my first point is that what is before this Committee is 
fundamentally wrong, and we don't think it would be befitting 
any chamber of the legislative body of the greatest country on 
earth to accept such a resolution. Neither the U.S. Congress or 
any chamber of it, nor any legislative body on earth should 
consider itself authorized to codify or rewrite history for 
whatever purposes they may have. History must be left to 
historians and, to say the least, to say the least, there is no 
consensus among respectable or real, I should say perhaps, 
historians on what really happened then.
    There is no agreement on how to characterize those events. 
Some with political purposes insist that genocide happened; 
many forcefully disagree. But we all agree, and we cannot do 
otherwise, that very regrettable, tragic events, massive 
killings indeed happened in that part of the Ottoman Empire 
then.
    And, referring to genocide, referring to genocide, let me 
bring to your attention two points. One would be enough, 
perhaps. As you all know, hundreds of thousands of Armenians 
were living as loyal subjects of the Ottoman Empire and they 
have lived for centuries.
    Mr. Gejdenson, I think, tried to identify the Holocaust and 
what is, in his words, the Armenian genocide. So I regret to 
tell you that there are no parallels whatsoever. Tragic events 
have happened in what is Eastern Turkey today, that is true, 
that tens of thousands of Armenians and Turks have perished at 
the hand of one another is a fact as well. But what kind of a 
genocide was it? Why didn't anything happen to Armenians living 
in other regions of the Ottoman Empire? What kind of a 
systematic genocide was it? So I don't think this body will 
make the mistake of accepting this resolution, which is, as I 
indicated earlier, fundamentally wrong.
    Chairman Gilman. Would the gentleman wind up his speech 
in----
    Mr. Irtemcelik. The other point, the reason why we are here 
is because we attach great importance to the relationship we 
entertain with the United States of America. We cherish, in the 
words of President Clinton, our strategic relationship. 
Inevitably, and I don't want to be misunderstood, if this 
resolution is adopted, it will be impossible for our efforts 
alone to suffice to have our relations unaffected by it; but we 
are not here, we are not here to tell you, or else. That is not 
our view at all, and that is not our purpose. We are here to 
sensitize you, to tell you that we need your efforts to prevent 
our relationship from being affected by an issue which we don't 
need to inject into the relationship.
    We value our bilateral relations; we value our alliance, 
which is also important in, as far as our interests are 
concerned, as far as the U.S. interests are concerned, 
concerning various regions surrounding Turkey.
    And one last point, one last point, Turkish-Armenian 
relations. We wish to be able to entertain good relations with 
Armenia as we wish to entertain good and healthy relations with 
all of our neighbors and other countries in the world. I should 
like to remind this Committee that Turkey was one of the first 
countries to recognize Armenia today, and Turkey did everything 
in its power to try to integrate, to try to help integrate 
Armenia to the community of nations.
    In Armenia's most difficult days, we haven't hesitated for 
a moment to send them humanitarian aid. If need be, we will do 
it again. But you should consider, Mr. Chairman, that it takes 
two to tango, and Armenia also should wish seriously to 
entertain good relations with Turkey. We would expect our 
goodwill to be reciprocated.
    So, to sum up, we wish you, we expect you not to allow this 
resolution to continue its path, because it is fundamentally 
wrong and because it wouldn't serve our purposes to further 
deepen and diversify, which is a very sound and healthy, and 
mutually beneficial relationship. Once again, I thank you, Mr. 
Chairman, and all of your colleagues on this Committee for 
providing me with the opportunity to address this Committee.
    Chairman Gilman. We thank you, Mr. Chairman. We thank your 
delegation for taking the time to come to the House to our 
International Relations Committee to express your cogent views.
    I now recognize the gentleman who sought prior recognition, 
Mr. Radanovich.
    Mr. Radanovich. I want to associate myself with the 
gentleman from California, Mr. Campbell, regarding the 
information that was provided by Mr. Goss and by the Turkish 
Government. [The Speaker is aware of the fact that, because of 
this resolution, there have been threats made by Turkey that we 
might lose bases there and that there might be canceled defense 
contracts. There is even a scenario that Saddam Hussein might 
do something crazy that would affect relations, and the threat 
was that perhaps there might not be Turkish bases available in 
that event.]
    The Speaker is aware of all of these things and the Speaker 
also wants this bill reported out of Committee. It is the 
Speaker's responsibility to determine whether or not this thing 
should come to the floor, and if and when, and I suggest that 
we report to the leader of the United States House of 
Representatives and fulfill his desire to get this out of 
Committee, and would respect whatever decision he comes up with 
as far as the dispensation of this bill.
    I would ask the Chairman that we might be able to then move 
to the business at hand, which is, that we do have more 
amendments to do and we also need to conclude this and other 
business as well.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Radanovich. I now recognize 
Mr. Burton for his previous offer of an amendment.
    Mr. Burton. Thank you, Mr. Chairman. I have an amendment at 
the desk.
    Chairman Gilman. The Clerk will distribute and read the 
amendment.
    Ms. Bloomer. ``Amendment offered by Mr. Burton, page 11, 
after line 6, insert the following: 34, the purposes of this 
resolution and the national interests of the United States are 
likely to be negated without the establishment of a firm 
foundation----''
    Chairman Gilman. Without objection, the amendment is 
considered as having been read.
    [The amendment appears in the appendix.]
    The gentleman is recognized for 5 minutes.
    Mr. Radanovich. Mr. Chairman, I reserve a point of order.
    Chairman Gilman. Mr. Burton is recognized for 5 minutes on 
his amendment.
    Mr. Burton. Mr. Chairman, I think we checked this with the 
parliamentarian. I think it is in order, but we will wait and 
see what the ruling of the Chair is.
    I offer this amendment as a good faith effort to recognize 
the fact that our country has important strategic interests in 
the region where Turkey and Armenia live, Asia Minor and the 
Caucasus.
    I offer it also as a means of injecting some contemporary 
realism into this debate. You know, this Committee can exhibit 
a tendency to look at things in the abstract and forget that 
real human lives and real national interests, our interests, 
are at stake.
    Columnist George Will recently said, ``Few things in life 
are more stimulating than observing the calamities of other 
people from a safe distance.'' He was speaking of an altogether 
different situation, but he could just as easily have been 
describing this Committee and the attitude that often prevails 
around here.
    Finally, Mr. Chairman, I offer this amendment as a way of 
saying that something has been conspicuously absent throughout 
this debate, and that is who speaks for the Armenians? I don't 
mean Armenian Americans. I mean the two and a half or three 
million Armenians who actually live in Armenia. I mean the 
people who are struggling to put bread on the table over there.
    A little later today the Committee is scheduled to take up 
a resolution about the problems in Central Asia. Well, let me 
tell you that the Caucasus is no garden spot either. We all 
rejoiced 9 or 10 years ago when the Soviet Union disintegrated 
and the various nationalities and constituent republics who had 
been oppressed for so long under the Soviet jackboot regained 
their independence. I remember when Reagan said, tear down this 
wall. I thought it would never happen, and then it did. What a 
wonderful day that was.
    But the tragic fact is, and this is very tragic, Mr. 
Chairman and Members, that 9 years after regaining its 
independence the Republic of Armenia is dangerously close to 
becoming a failed state.
    I have an article from the September 6 edition of The 
Washington Post that I would like to submit for the record 
which I think is very, very important. I would like for the 
Members to read that if they can.
    [The information referred to appears in the appendix.]
    Mr. Burton. This article describes an Armenia from which 
one-third of the entire population has immigrated since 1991 
because the situation there is so hopeless. One-third of the 
country has immigrated in 9 years. Of the working age 
population that remains, according to this article, 40 percent 
are unemployed, and the country is drowning in corruption. 
Little, if any, effort has been made at enacting any basic 
reforms that would be necessary to attract foreign investment.
    I have seen other articles, and other Members have as well, 
that describe a country being torn apart by internal violence 
and political killings. One democratic leader in Armenia, a man 
who survived the Soviet Gulag, was quoted recently as saying, 
terrorism has become an integral part of our daily life.
    Here is just a short list of high officials in Armenia who 
have been assassinated in the last several years: the prime 
minister, the speaker of parliament, the prosecutor general, 
the chairman of the state security committee, the deputy 
minister of defense, the deputy minister of internal affairs, 
the mayor of Yerevan, the capital city, the director general of 
railroads, the president of the chamber of industry and trade.
    Meanwhile, Russia has been muscling in, perhaps it never 
really left, and has forced the signing of military cooperation 
agreements, including one this summer that guarantees Russian 
occupation of certain military bases on Armenian soil for the 
next 25 years guaranteed.
    It is now even being rumored that--we pray that this will 
not happen--that Armenia may join the treaty of union with 
Russia and Belarus.
    And, all the while, the pro-democracy forces in Armenia 
find themselves more and more on the defensive as the pro-
Russian forces in parliament and the military get stronger.
    Mr. Chairman, who speaks for the Armenians? We can disagree 
about the definition of what happened 85 years ago, but who 
speaks for the Armenians of today?
    The amendment I am offering recognizes the need for Turkey 
and Armenia to reconcile their differences. Yes, it is an awful 
history. We all hope that they can come to terms with it. But 
how does the resolution before us today propose to do that? Why 
has the plight of the Armenians today been completely ignored 
during this debate? How does this resolution propose to move 
one inch toward a solution to Armenia's problems today?
    Believe me, those problems can get a lot worse, and I am 
afraid they will if this resolution passes.
    Mr. Chairman, who speaks for the Armenians? We ought to 
think about that and the ramifications of this resolution if it 
passes, not only about Iraq and the surrounding countries and 
what it might do to destabilizing that whole area but also what 
is it going to do to the Armenians who are suffering already 
over there? Who speaks for them?
    Mr. Radanovich. Mr. Chairman.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman.
    I think we ought the get to the point of having an up or 
down vote on this issue. Not that dealing with other issues 
aren't important--and there are lots of issues--but I believe 
that we do have an obligation, at this point, to have a clear 
decision on whether we are going to proceed with recognizing 
what is, in my opinion, a fact of history: a million and a half 
people killed, women and children, intellectuals taken out of 
every part of Turkey, killed. Then we can get on dealing with 
our relationship with Turkey and every other issue in the 
region.
    We could offer amendments from now until whenever the 
session ends--which may never end, apparently--but it is clear 
what the sides are in this debate. Some people believe, 
irrespective of the facts of what happened during the Armenian 
genocide, that the United States' political interests are such 
that we shouldn't act on the legislation. That is one position 
that elected Members of Congress have a right to express and 
vote.
    There are some people here who believe that this piece of 
history needs to be dealt with before we move on. I believe, 
whatever your position is, we ought to get to a vote and not 
simply try to undermine the basic debate here by having other 
issues dealt with.
    We could have amendments that deal with every issue in the 
region from now until the new Congress is here. Let's vote on 
the Armenian resolution. Let's give it a fair opportunity to 
make this statement. If it is the collective wisdom of this 
Committee or the Speaker of the Congress to not move forward, 
that is fine. I think it is a mistake not to recognize history. 
I think it damages our present-day actions. I would urge that 
we defeat Mr. Burton's amendment, we proceed to a vote on the 
underlying bill up or down, and move on with the other 
responsibilities of this Committee.
    Chairman Gilman. Mr. Radanovich.
    Mr. Radanovich. Mr. Chairman, I withdraw my point of order, 
but do want to urge my colleagues to vote against this 
amendment. It opens the door to further amendments that will 
water down this bill so much so that it will not, in the end, 
be germane, and that is in dealing with the fact of the 
Armenian genocide. We as a body vote quite often on specific 
genocides in violation of human rights from countries varying 
from Sudan to Rwanda to Iraq. The list is very long.
    Again, this amendment opens the door to further watering 
down and making this amendment useless and nonfunctional, and I 
would urge my colleagues to vote against this thing. Again, as 
my friend from Connecticut says, let's deal with the issue at 
hand and move soon to an up or down vote on the issue. If you 
don't believe that there was an Armenian genocide, then let's 
just vote on this bill as it stands and be done with it. But 
let's not use clever ways to dissolve this thing and turn it 
into mush and meaningless nothingness and then thereby affect 
the germaneness of this bill.
    Chairman Gilman. Thank you, Mr. Radanovich.
    Mr. Lantos.
    Mr. Lantos. Thank you, Mr. Chairman.
    I first wish to strongly support Mr. Burton's amendment, 
and I want to use a portion of my 5 minutes to read a statement 
of the President of the United States on this issue. Some of my 
colleagues are under the misapprehension that, unless this 
Committee now approves this resolution, the United States will 
have been silent on the tragedies that have been inflicted on 
the Armenian people 85 years ago.
    Let me read the statement of the President of the United 
States.
    I quote,

          ``Today we remember a great tragedy of the 20th 
        century, the deportations and massacres of roughly one 
        and a half million Armenians in the final years of the 
        Ottoman Empire. I join Armenians around the world, 
        including the Armenian American community, in mourning 
        the loss of those innocent lives.
          ``I also extend my sympathy to the survivors and 
        their descendants for the hardships they have suffered. 
        I call upon all Americans to renew their commitment to 
        build a world where such events are not allowed to 
        happen. The lesson we must learn from the stark annals 
        of history is that we must forge a more humane future 
        for the peoples of all nations.
          ``Our own society has benefited immeasurably from the 
        contributions of Armenian Americans. They have enriched 
        every aspect of American life, from science to commerce 
        to the arts. For the past 8 and a half years, the 
        Armenian people have been engaged in an historic 
        undertaking to establish democracy and prosperity in 
        the independent Republic of Armenia. Their courage, 
        energy and resourcefulness inspire the admiration of 
        all Americans; and we are proud to extend our 
        assistance to help realize the dream of a vital and 
        vibrant Armenia. The United States fully supports the 
        efforts of Armenia and its neighbors to make lasting 
        peace with one another and to begin an era of security 
        and cooperation in the Caucasus region. We encourage 
        any and all dialogue between citizens of the region 
        that hastens reconciliation and understanding. On 
        behalf of the American people, I extend my best wishes 
        to all Armenians on this solemn day of remembrance.''

    This statement was issued by the President on April 24, the 
Armenian Day of Remembrance. I think it is important my 
colleagues be aware of the fact that the President of the 
United States, speaking on behalf of the American people, has 
made this statement. He made this statement on the Armenian Day 
of Remembrance, the 24th of April, unrelated to the elections 
which will take place 5 weeks from today.
    All of us, Republicans and Democrats, can applaud the 
President's statement. It is an appropriate statement. It 
expresses our anguish at the tragedy and suffering of the 
Armenian people 85 years ago, and we can move on defending our 
national security interests.
    If I have some time left, as I believe I do, Mr. Chairman, 
the light is still green----
    Chairman Gilman. The gentleman has 1 minute and 20 seconds.
    Mr. Lantos. Thank you, Mr. Chairman.
    I would merely like to remind my colleague--and I am sorry 
he is not in the room--Mr. Gejdenson, that resolutions 
concerning human rights in China and resolutions concerning 
human rights violations in Turkey 85 years ago are not 
comparable. Resolutions involving human rights abuses in China 
relate to the ongoing tragedy and suffering of the Chinese and 
the Tibetan people.
    China, the last time I looked, is not a major NATO ally. So 
to compare human rights resolutions directed at China in the 
year 2000, when the Falun Gong has again been arrested and 
beaten on Tiananmen Square, of note, this resolution is an 
absurdity. There is no parallel between this resolution and our 
ongoing attempt to improve the human rights conditions in 
China.
    I believe, Mr. Chairman, we have debated this issue long 
enough, and I move that we table the resolution.
    Chairman Gilman. The question is on the motion to table the 
resolution.
    Would the gentleman explain his motion?
    Mr. Lantos. I will wait until we deal with the Burton 
resolution, at which point I will move to table.
    Chairman Gilman. The gentleman withdraws his motion to 
table at this point.
    Mr. Radanovich. Mr. Chairman, I call for a vote.
    Chairman Gilman. Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much.
    Chairman Gilman. Is that a point of order, Mr. Radanovich?
    Mr. Radanovich. Not a point of order, sir; just a call for 
a vote.
    Chairman Gilman. Is the gentleman moving the previous 
question?
    Mr. Radanovich. Yes, sir.
    Chairman Gilman. The gentleman moves the previous question 
on the amendment.
    The gentleman is entitled to move the previous question, 
but there are some Members who would like to be heard. Does the 
gentleman want to hold his request?
    Mr. Radanovich. My only question, Mr. Chairman, is that we 
have only got 24 hours in this day. For a couple of more 
speakers, yes, but I think that we sooner or later are going to 
have to vote on this issue, and I hope that we can do that 
sooner rather than later.
    I withdraw my motion for now.
    Chairman Gilman. The gentleman withdraws his motion.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Yes, I would remind my good friend, Mr. 
Radanovich, that there are very serious consequences to his 
resolution. I am a supporter of his resolution, but with the 
serious consequences that means we spend more time on these 
things, and there are people who have amendments which might be 
perfecting amendments.
    For example, I will be carrying one of Mr. Burton's 
amendments because, unfortunately, he has to leave at 11:30; 
but also I have a perfecting amendment. For example, in your 
resolution, it mentions the young Turk government, and I am 
going to ask that that be replaced by the, quote, government of 
the Ottoman Empire, because that is more accurate.
    Chairman Gilman. Mr. Rohrabacher, would you address 
yourself to the Burton amendment at this time?
    Mr. Rohrabacher. Yes. I oppose this particular Burton 
amendment, but I believe that it is important for us to leave 
the avenue open for other amendments to make this very 
significant piece of legislation better.
    Chairman Gilman. Thank you, Mr. Rohrabacher.
    Mr. Sherman, on the Burton amendment.
    Mr. Sherman. Thank you. I oppose this amendment, as I 
oppose other amendments. I would like to move quickly to a vote 
on the underlying resolution.
    Mr. Burton asks, who speaks for the Armenians? I would 
point out that every voice of the Armenians here, in Armenia, 
in Lebanon, in Syria and around the world, call out for the 
recognition of this genocide and call out for us to adopt this 
resolution before the last survivors of that genocide die.
    Mr. Burton points out the difficulties faced by the people 
of Armenia. I hope that he will join with me in supporting 
increases in aid to Armenia and to Nagorno-Karabakh.
    We are told that this genocide of Armenians was not a 
genocide because those perpetrating it did not kill every 
Armenian in every part of the Ottoman Empire. I would point out 
that even the Holocaust did not lead to the utter destruction 
of the Jewish community of Bulgaria or Morocco, and in both of 
those areas the Nazis had some power, just not enough power to 
complete their genocide. Genocide is genocide, even if it is 
aimed at wiping out a people from a portion or a region of the 
area in which they live.
    We are told that it is not the purpose of this Committee to 
deal with history, but I would point out that Chairman Gilman 
quite wisely in 1996 authored House Resolution 316, which the 
House and this Committee adopted overwhelmingly, condemning 
those who deny the Holocaust. And I would say that if this 
Committee is going to condemn, quite properly, those who deny 
history then it is time for this Committee to affirm history 
and to recognize it.
    We have had extensive hearings on this issue, both before 
the Subcommittee on Human Rights and the Full Committee, and 
even during this markup we have heard three witnesses, all of 
them on one side. I would hope that we would move as quickly as 
possible to a vote. As we do we are told that national security 
is important; and it is, but I would point out that not only 
has Speaker Hastert urged that this resolution come before the 
floor of the House, but Governor George W. Bush has spoken out 
in recognition of the Armenian genocide. I doubt either of 
those two individuals would be making statements harmful to 
American security.
    It is true that today's diplomats would find it more 
convenient if we avoided recognizing an aspect of history that 
our ally, Turkey, for reasons I have not fully understood, 
finds it distasteful for us to remember. But let us--and I made 
this point before--let us imagine that a decade or two from now 
Germany, a powerful nation, a nation I would say more important 
to our national security than Turkey, were to have a political 
change and some new government there were to demand that we as 
Members of the House march down and physically remove brick by 
brick the Holocaust Museum. I think that we would say no, that 
no matter how important an ally Germany was, that if its 
government insisted that we repudiate history we would refuse.
    Likewise, if the government of Austria, which could play a 
major role, a destructive role, if it choose, in international 
affairs--it is a highly technological country, capable of 
exporting some of the most dangerous technology should it 
choose to do so--if Austria 10 or 20 years from now were to 
demand that we not recognize the Holocaust, we should say no 
because, as has been pointed out by other speakers, our 
credibility in the world depends upon our adherence to the 
truth.
    Let us move forward and recognize the truth and adopt this 
resolution.
    Chairman Gilman. Thank you, Mr. Sherman. The gentleman's 
time has expired.
    Mr. Campbell.
    Mr. Campbell. Thank you, Mr. Chairman. I will take 1 
minute.
    Nobody on our Committee has denied the existence of the 
genocide. The only testimony is from the Turkish National 
Assembly's representative who, of course, I respect and to whom 
I am grateful that he has come and testified, but no gentleman 
or gentlelady on this Committee has said that the genocide did 
not exist.
    Mr. Burton. Would the gentleman yield very quickly?
    Mr. Campbell. I only have a minute, and you have spoken 
often. I am anxious to hear your response.
    Mr. Burton. Well, you are incorrect, Mr. Campbell.
    Chairman Gilman. The gentleman has not yielded his time.
    Mr. Campbell. I do not yield. Assuming I don't take all of 
my time--I was trying to restrict myself to 1 minute--I would 
be happy to yield at the end. Then if the Committee is patient 
and gives you the time, I would be delighted.
    The issue comes down to Western Anatolia. I mean, that is 
the burden of the testimony of the gentleman from Turkey, that 
how there could be a genocide if there was no extermination in 
Western Anatolia such as happened in Eastern Anatolia?
    This is essential to the heart of the question. If the 
government policy is to wipe out a people by government design, 
in a systematic manner, where they have control to do so, that 
constitutes genocide.
    That they did not do it everywhere does not make it less, 
that they did it where they could or they did it where it was 
most helpful. The opposite end of the spectrum would be a 
horrible civil war where you go after the enemy's troops or the 
people who are supporting the enemy, but you don't go after the 
race. You don't go after children.
    So that is the distinction. And even taking into account 
the testimony of the gentleman from the Turkish National 
Assembly, we do not have a rebuttal.
    Mr. Rothman. Will the gentleman yield?
    Mr. Campbell. Same condition. We don't have a rebuttal that 
what happened in Eastern Anatolia was a genocide; what happened 
in Western Anatolia is a separate issue.
    Imagine, in other words, if you had a true genocide but it 
was limited only to one part of where people lived, would you 
say, no, it isn't? So it seems to me on those two points--and I 
would be happy now to go to the various people who have asked 
to yield--that there is no dispute that what happened in 
Eastern Anatolia was a genocide; but I would ask for those who 
still remain in doubt to take a look at the testimony that was 
adduced at the Subcommittee hearing and is referred to in the 
resolution itself.
    Two things are most telling. One is the United Nations 
General Assembly in 1946, when it set up the Genocide 
Convention, explicitly referred to the Armenian genocide. That 
is in clause 19 of the whereases, and clause 20 of the 
whereases states that in 1948 the U.N. War Crimes Commission 
precisely referred to the Armenian genocide in setting up what 
a Nuremberg trial would constitute as a crime against humanity.
    And lastly, contemporary testimony from our ambassador to 
the Ottoman Empire, Ambassador Morgenthau, which is referenced 
in Finding 11, referred to a campaign of race extermination by 
the government at that time.
    So because of the nature of our hearing we only heard from 
one side. The evidence is quite clear from the other side, and 
we should not lose sight of it.
    Now with the Chairman's indulgence, I would yield first to 
my colleague from Indiana and then to my other colleague.
    Chairman Gilman. The gentleman has 1 minute and 45 seconds 
remaining.
    Mr. Burton. I will be real quick.
    I respect very much Mr. Campbell, and I agree with him on 
many issues. On the floor of the House of Representatives, for 
the past 16 years, when this kind of a resolution came up, I 
have been down there saying that atrocities did take place, 
horrible things happened, but it was not a genocide, and I 
maintain that today. So when you say that nobody on the 
Committee would refute that, I do.
    I would like to also say that when the Russians invaded and 
worked with the Armenians during World War I, three million 
Ottoman Muslims were killed; and many people called that, the 
way they were systematically eliminated, a genocide. It wasn't. 
It was a tragedy, just like the Armenian problem was a tragedy. 
They also had----
    Mr. Campbell. I am going to take my time back.
    Mr. Burton. Let me just say one more thing.
    Mr. Campbell. No, I am going to take my time back.
    Mr. Burton. They also killed 200,000 Jews.
    Chairman Gilman. The gentleman is reclaiming his time.
    Mr. Campbell. And I yield to my colleague.
    Mr. Rothman. Thank you.
    It is my inclination to support the resolution and oppose 
the amendment, but I want to give the full strength to the 
distinguished gentleman from Turkey's position, which is that a 
genocide did not occur because in his words, paraphrasing, of 
course, no systematic order was given to exterminate a people, 
the entire Armenian people, let alone the entire population of 
Armenians from that portion of the Ottoman Empire.
    So I think that is his strongest case. The problem with 
that, though, is that certainly then it is a quibble about the 
definition of--not a quibble--a serious disagreement about the 
application of--the word genocide to an instance where in the 
strongest case of the Turkish representative the government 
ordered the deportation of a people within its empire to 
another region, where during the course of that deportation the 
gentleman says tens of thousands--I think the record is clear 
it is over a million, if not a million and a half----
    Chairman Gilman. The gentleman's time has expired.
    Mr. Rothman. Can I have unanimous consent to address the 
body for another 1 minute, please?
    Chairman Gilman. Without objection.
    Mr. Rothman. Thank you, Mr. Chairman.
    Okay. So that is his best case, and so that it doesn't 
qualify as a systematic, organized effort to exterminate a 
particular people, it is just moving them from one part of 
their empire to another.
    What is troubling me, though, is that this movement of 
these peoples occurred during, I am told, 1915 to 1923. That is 
8 years. During this 8-year period one and a half million 
Armenians happened to be slaughtered or happened to die. Now, 
one could argue that if this was a deportation order gone awry 
and these slaughters occurred that would perhaps not qualify 
for a genocide, but how could the Ottoman Empire not take 
responsibility for the death of a million and a half people 
over the course of an 8-year period when they were in total 
control? That is the problem I have with the Representative's 
argument.
    Chairman Gilman. The gentleman's time has expired.
    Ms. Lee. Mr. Chairman.
    Chairman Gilman. Ms. Lee is recognized.
    Ms. Lee. Thank you, Mr. Chairman.
    I want to oppose Mr. Burton's amendment and just say that I 
don't believe this resolution should be watered down at all. 
You know, last week and now again this week we are having a 
full discussion of this resolution and why many of us on both 
sides of the aisle believe that we must acknowledge and set 
forth in our foreign policy the horrors of the Armenian 
genocide. These terrible crimes against humanity must never be 
forgotten.
    So as a co-sponsor of this resolution--and many of us have 
made it perfectly clear that we believe that our country does 
have a duty and responsibility to acknowledge and condemn this 
genocide--I urge the Committee to pass this resolution and 
oppose the Burton amendment. We do not need to pass this 
resolution encumbered by amendments which will cloud the 
purpose of the resolution, and that is to acknowledge this 
horror, to acknowledge the Armenian genocide in our foreign 
policy.
    I yield back the balance of my time.
    Chairman Gilman. Thank you, Ms. Lee.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    First of all, let me say that was very enlightening. I do 
welcome our friend from the Turkish Grand National Assembly, 
Mr. Irtemcelik, but I think his testimony, frankly, actually 
made our case, and made it very profoundly.
    He told us, and again I say this with all due respect, that 
the genocide did not happen, when the overwhelming body of 
evidence clearly points to a genocide, as my good friend from 
New Jersey just pointed out, as many as 1.5 million people 
died. As a matter of fact, as you know, Mr. Chairman, we had a 
lengthy, exhaustive hearing just a couple of weeks ago, where 
we heard from scholars who made it crystal clear--at least 
those who presented what I thought what was very tangible 
evidence--that a genocide did indeed occur.
    As a matter of fact, in a letter that was sent to me, 
Professor Deborah Lipstadt, the director of the Institute for 
Jewish Studies at Emory University, stated, and I quote, 
``Denial of genocide strives to reshape history in order to 
demonize the victims and rehabilitate the perpetrators. Denial 
of genocide is the final stage of genocide. It is what Elie 
Wiesel has called double killing. It denies the murders, the 
dignity of the survivors, and seeks to destroy the remembrance 
of the crime.''
    In the testimony, it was pointed out that Henry Morgenthau, 
the United States Ambassador to the Ottoman Empire at the time, 
said, and I quote, ``When the Turkish authorities gave the 
orders for these deportations they were simply giving the death 
warrant to a whole race. They understood this well, and in 
their conversations with me''--this is Henry Morgenthau--``they 
made no particular attempt to conceal the fact.''
    As was pointed out in our testimony, the ambassadors of 
Germany and Austria, representatives of governments allied with 
Turkey, also quickly realized what was taking place. As early 
as 1915, the German ambassador reported to Berlin, and I quote, 
``Turks began deportation from areas now not threatened by 
invasion. This fact, and the manner in which the relocation is 
being carried out, demonstrates that the government is really 
pursuing the aim of destroying the Armenian race in Turkey.''
    By January 1917, his successor reported, and I quote, ``The 
policy of extermination has largely been achieved. The current 
leaders of Turkey fully subscribe to this policy.''
    This is the ambassador from Germany, allied with the 
Ottoman Empire, making those damning comments. And I would 
remind my colleagues again that the Convention on Prevention 
and Punishment of the Crime of Genocide, the U.N. document, 
article 2, states very clearly that genocide is defined thusly, 
``deliberately inflicting on a group conditions of life 
calculated to bring about its physical destruction in whole or 
in part.''
    One and one-half million out of two million--that is almost 
the whole thing. That is almost the whole race, so it is 
clearly a genocide.
    Again, we welcome our friend from the Grand National 
Assembly, but I think he actually made our case.
    Chairman Gilman. The gentleman's time has expired. Thank 
you, Mr. Smith.
    If there is no further debate, the question is now on the 
amendment. As many as are in favor, signify in the usual 
manner.
    Opposed?
    The noes have it.
    Mr. Burton. Mr. Chairman.
    Chairman Gilman. Mr. Burton.
    Mr. Burton. I ask for a rollcall vote.
    Chairman Gilman. A rollcall has been requested. Is there a 
sufficient second for a rollcall, by a show of hands, please?
    A sufficient number, the Clerk will call the roll.
    Ms. Bloomer. Mr. Gilman.
    Chairman Gilman. No.
    Ms. Bloomer. Mr. Gilman votes no.
    Mr. Goodling.
    [No response.]
    Ms. Bloomer. Mr. Leach.
    [No response.]
    Ms. Bloomer. Mr. Hyde.
    [No response.]
    Ms. Bloomer. Mr. Bereuter.
    Mr. Bereuter. Aye.
    Ms. Bloomer. Mr. Bereuter votes yes.
    Mr. Smith.
    Mr. Smith. No.
    Ms. Bloomer. Mr. Smith votes no.
    Mr. Burton.
    Mr. Burton. Aye.
    Ms. Bloomer. Mr. Burton votes yes.
    Mr. Gallegly.
    Mr. Gallegly. No.
    Ms. Bloomer. Mr. Gallegly votes no.
    Ms. Ros-Lehtinen.
    [No response.]
    Ms. Bloomer. Mr. Ballenger.
    Mr. Ballenger. Aye.
    Ms. Bloomer. Mr. Ballenger votes yes.
    Mr. Rohrabacher.
    Mr. Rohrabacher. No.
    Ms. Bloomer. Mr. Rohrabacher votes no.
    Mr. Manzullo.
    [No response.]
    Ms. Bloomer. Mr. Royce.
    Mr. Royce. No.
    Ms. Bloomer. Mr. Royce votes no.
    Mr. King.
    [No response.]
    Ms. Bloomer. Mr. Chabot.
    Mr. Chabot. No.
    Ms. Bloomer. Mr. Chabot votes no.
    Mr. Sanford.
    Mr. Sanford. Aye.
    Ms. Bloomer. Mr. Sanford votes yes.
    Mr. Salmon.
    Mr. Salmon. Aye.
    Ms. Bloomer. Mr. Salmon votes yes.
    Mr. Houghton.
    Mr. Houghton. Aye.
    Ms. Bloomer. Mr. Houghton votes yes.
    Mr. Campbell.
    Mr. Campbell. Aye.
    Ms. Bloomer. Mr. Campbell votes yes.
    Mr. McHugh.
    [No response.]
    Ms. Bloomer. Mr. Brady.
    Mr. Brady. Aye.
    Ms. Bloomer. Mr. Brady votes yes.
    Mr. Burr.
    [No response.]
    Ms. Bloomer. Mr. Gillmor.
    Mr. Gillmor. Yes.
    Ms. Bloomer. Mr. Gillmor votes yes.
    Mr. Radanovich.
    Mr. Radanovich. No.
    Ms. Bloomer. Mr. Radanovich votes no.
    Mr. Cooksey.
    Mr. Cooksey. Yes.
    Ms. Bloomer. Mr. Cooksey votes yes.
    Mr. Tancredo.
    Mr. Tancredo. Yes.
    Ms. Bloomer. Mr. Tancredo votes yes.
    Mr. Gejdenson.
    Mr. Gejdenson. No.
    Ms. Bloomer. Mr. Gejdenson votes no.
    Mr. Lantos.
    Mr. Lantos. Yes.
    Ms. Bloomer. Mr. Lantos votes yes.
    Mr. Berman.
    Mr. Berman. No.
    Ms. Bloomer. Mr. Berman votes no.
    Mr. Ackerman.
    Mr. Ackerman. No.
    Ms. Bloomer. Mr. Ackerman votes no.
    Mr. Faleomavaega.
    Mr. Faleomavaega. Yes.
    Ms. Bloomer. Mr. Faleomavaega votes yes.
    Mr. Payne.
    Mr. Payne. No.
    Ms. Bloomer. Mr. Payne votes no.
    Mr. Menendez.
    [No response.]
    Ms. Bloomer. Mr. Brown.
    [No response.]
    Ms. Bloomer. Ms. McKinney.
    Ms. McKinney. I vote no.
    Ms. Bloomer. Ms. McKinney votes no.
    Mr. Hastings.
    [No response.]
    Ms. Bloomer. Ms. Danner.
    [No response.]
    Ms. Bloomer. Mr. Hilliard.
    [No response.]
    Ms. Bloomer. Mr. Sherman.
    Mr. Sherman. No.
    Ms. Bloomer. Mr. Sherman votes no.
    Mr. Wexler.
    [No response.]
    Ms. Bloomer. Mr. Rothman.
    Mr. Rothman. No.
    Ms. Bloomer. Mr. Rothman votes no.
    Mr. Davis.
    Mr. Davis. No.
    Ms. Bloomer. Mr. Davis votes no.
    Mr. Pomeroy.
    Mr. Pomeroy. Aye.
    Ms. Bloomer. Mr. Pomeroy votes yes.
    Mr. Delahunt.
    [No response.]
    Ms. Bloomer. Mr. Meeks.
    [No response.]
    Ms. Bloomer. Ms. Lee.
    Ms. Lee. No.
    Ms. Bloomer. Ms. Lee votes no.
    Mr. Crowley.
    Mr. Crowley. No.
    Ms. Bloomer. Mr. Crowley votes no.
    Mr. Hoeffel.
    Mr. Hoeffel. No.
    Ms. Bloomer. Mr. Hoeffel votes no.
    Chairman Gilman. The Clerk will call the absentees.
    Ms. Bloomer. Mr. Goodling.
    [No response.]
    Ms. Bloomer. Mr. Leach.
    [No response.]
    Ms. Bloomer. Mr. Hyde.
    [No response.]
    Ms. Bloomer. Ms. Ros-Lehtinen.
    [No response.]
    Ms. Bloomer. Mr. Manzullo.
    [No response.]
    Ms. Bloomer. Mr. King.
    [No response.]
    Ms. Bloomer. Mr. McHugh.
    [No response.]
    Ms. Bloomer. Mr. Burr.
    Mr. Burr. Votes aye.
    Ms. Bloomer. Mr. Burr votes aye.
    Mr. Menendez.
    Mr. Menendez. No.
    Ms. Bloomer. Mr. Menendez votes no.
    Mr. Brown.
    [No response.]
    Ms. Bloomer. Mr. Hastings.
    [No response.]
    Ms. Bloomer. Ms. Danner.
    [No response.]
    Ms. Bloomer. Mr. Hilliard.
    [No response.]
    Ms. Bloomer. Mr. Wexler.
    [No response.]
    Ms. Bloomer. Mr. Delahunt.
    [No response.]
    Ms. Bloomer. Mr. Meeks.
    [No response.]
    Chairman Gilman. The Clerk will report the tally.
    Ms. Bloomer. On this vote, there are 15 ayes and 19 noes.
    Chairman Gilman. The amendment is not agreed to.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Yes, Mr. Chairman, I have an amendment at 
the desk.
    Chairman Gilman. The Clerk will report the amendment. The 
Clerk will distribute the amendment.
    Mr. Rohrabacher is recognized for 5 minutes.
    Mr. Rohrabacher. The purpose of my amendment----
    Chairman Gilman. Hold just a moment. The Clerk will report 
the amendment.
    Ms. Bloomer. Amendment offered by Mr. Rohrabacher, in 
Section 2, the 11th clause, line 3: replace ``Young Turk 
Government'' with ``government of the Ottoman Empire.''
    [The amendment appears in the appendix.]
    Chairman Gilman. Mr. Rohrabacher is recognized for 5 
minutes on his amendment.
    Mr. Radanovich. Mr. Chairman, on that I reserve a point of 
order.
    Chairman Gilman. Mr. Radanovich reserves a point of order.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Okay. The purpose of my amendment is to 
get right to the heart of the matter of Mr. Radanovich's bill, 
and that is that Mr. Radanovich is in no way attempting to put 
blame on the Turkish government or the current population of 
Turkey for sins committed by people who lived in Turkey in the 
past, and especially the government of the Ottoman Empire. The 
current Turkish government bears no responsibility for the 
crimes of the Ottoman Empire before Turkey became the 
government that it is today.
    Let me say that I also have an amendment, a resolution, 
H.R. 606, which amplifies this. Unfortunately, it will not be 
permitted to be put into the hopper today, or excuse me, 
brought before the Committee today because there just wasn't 
enough time to meet the parliamentary requirements.
    But H.R. 606, I might add, when it does come to a vote, 
puts into context what we are saying today, and that is that 
there were many atrocities, similar atrocities, committed 
against various populations during the 20th century, and that 
what happened in the final days of the Ottoman Empire and the 
slaughter of innocent Armenians is not an aberration of history 
but instead happened in Cambodia, happened, of course, in 
occupied Europe by the Germans, by the Nazis, and happened in 
Soviet Russia. But we do not, for example, condemn the people 
of Russia today for the crimes committed by Josef Stalin, 
because Josef Stalin, of course, was a dictator operating 
totally independently of the will of the Russian people.
    With that said, that is the purpose of my amendment, which 
is changing the words from the ``Young Turk Government'' to be 
replaced by the ``government of the Ottoman Empire.''
    I would ask now Mr. Radanovich a question for the record. 
Mr. Radanovich, as the author of this legislation before us 
today, is it your intent or is it not your intent that this 
legislation will lay the foundation for any claim of 
reparations against Turkey for crimes committed during the time 
of the Ottoman Empire?
    Mr. Radanovich. Thank you, Mr. Rohrabacher. No, it is not 
the intent of this legislation. It strictly deals with genocide 
recognition.
    Mr. Rohrabacher. Okay. Thus, Mr. Chairman, this legislation 
in no way would justify reparations against the current Turkish 
government or Turkish people for crimes that were committed 
during the Ottoman Empire's time period.
    Let me say that the legislation does cover some property 
disputes that might have arisen from this situation, and I 
think that is justified for the people whose families lost 
their property during this time period when we had this killing 
going on. There has to be some sort of settlement with them, 
but not reparations. That is not what this is about.
    I support Mr. Radanovich's bill and believe my amendment 
underscores it because of two things. Number one, we are 
talking about an event in history. I will have to say that I 
have tried to keep an open mind in this, realizing that Turkey 
is one of our best friends of the United States of America and 
during the Cold War we relied so much on that friendship. That 
does not escape the truth that in the final days of the Ottoman 
Empire, not only in the Armenian section of that empire but in 
other sections of that empire as well, there were horrible 
crimes committed against various populations, crimes against 
humanity, because the magnitude of the slaughter was that bad.
    So we are recognizing that truth that in the final days of 
the Ottoman Empire these types of things happened, but we are 
not blaming the current Turkish people.
    By the way, let me just add this: The slaughter that took 
place against the Armenians may be an example of where winners 
end up slaughtering the losers. That still does not make it 
justified because much has been said, and our friends from 
Turkey pointed out, that Armenians during that time period 
killed some Turkish noncombatants as well.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Rothman.
    Mr. Rothman. I thank the Chairman.
    As I mentioned earlier, I am going to be voting for the 
underlying bill, and I will be supporting this amendment as 
well.
    I did want to make this germane perhaps, this comment. I 
wanted to follow my colleague from California's comments that 
this in no way reflects this body's or certainly my feelings 
with regard to the Turkish people of today or the great history 
of Turkey or of the vital role that Turkey and its people play 
in the security of freedom in the world today.
    We are mindful of your importance to the region and to our 
national security, and we consider you friends. We hope that 
you consider that the way we have behaved with regard to your 
security qualifies us as your friends as well.
    My friends from Turkey, for hundreds of years in the United 
States of America we denied the actual subjugation and 
destruction of the African slaves we brought by the millions 
from Africa, who died by the millions at our hands, and the 
consequences to the African American people once they came 
here. We denied as Americans the slaughter of millions of 
Native Americans, denied that for a long time.
    Now I have no intention of directing you, my friends from 
Turkey, to consider or reconsider your view of history. I will 
just share with you our own years of struggle to deal with our 
own history and to reiterate the point made by the gentleman 
from California that this does not reflect our view about our 
friends in Turkey today or about our mutual value to one 
another.
    I will be supporting the amendment.
    Mr. Radanovich. Mr. Chairman.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. I will be very brief.
    I intend to support Mr. Rohrabacher's amendment. I think it 
is a helpful amendment, and I think it is consistent with Mr. 
Tancredo's amendment that was passed last week, that stated in 
part that in the President's annual message commemorating the 
Armenian genocide, it should state that the modern-day Republic 
of Turkey did not conduct the Armenian genocide which was 
perpetrated by the Ottoman Empire. I think that this is 
consistent with that; and, therefore, I would encourage my 
colleagues to support this amendment.
    I yield back the balance of my time.
    Chairman Gilman. Thank you, Mr. Chabot.
    Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I would first like to offer my appreciation to the 
distinguished leader from the Turkish Parliament for his 
observation and his sentiments before the Members of this 
distinguished Committee.
    It is ironic that we have to become experts overnight on 
the history of this very difficult region of the world. To my 
good friend, Mr. Campbell from California, I think history is a 
very funny story. You tend to become subjective. You tend to 
believe which story you want to believe and who wrote the 
history of these peoples.
    In fairness also to the issue here, I think the bottom line 
is that where do we go from here, Mr. Chairman? If we are going 
to pass a resolution on genocide against the Armenian people, 
let's do it also for the Cambodian government and Pol Pot. 
Let's do it also for Stalin, who exterminated systematically 
over 25 million Russians during the Stalin era. Let's also 
observe the, if we call it genocide, killings of some 250,000 
Bosnians due to Milosevic's administration. It goes on and on.
    I suppose, ironically, Mr. Chairman, we are dealing with 
this issue when we are only a couple of months away from the 
presidential election, as well as gubernatorial and 
congressional elections. I sincerely hope, Mr. Chairman--and 
this is something, too, that the fact is that this resolution, 
a similar resolution, was taken up by the House 4 years ago, 
and it was killed in the Senate.
    In the 12 years that I have served as a Member of this 
Committee, never have I seen a simple resolution proposed in 
the House with such tremendous emotion, with such tremendous 
feelings in terms of how this body or this distinguished 
Committee ought to take a position or make a decision on this 
issue. If there were a systematic killing of some 1.5 million 
Armenians, historians have also said that there were just as 
many Turkish in the millions also killed in the process.
    There was a war against the Russians during World War I 
where a lot of the patriots among the Armenian people took 
sides with the Russians. There is nothing wrong with that, 
being patriots. If you are fighting the opposition, you would 
also like it to become that.
    This happened in World War II when the French patriots 
decided to repatriate themselves through General de Gaulle and 
his people.
    I am concerned, Mr. Chairman, about where do we go from 
here if we pass this resolution? Let's propose resolutions 
about all that I have indicated. What about the systematic 
killings of hundreds of thousands in Indochina during the 
French presence there in that part of the world?
    So we are opening up, I believe, Mr. Chairman, an issue 
that is not going to go away. If we are going to make the 
decision on this, let's do it on an even-handed basis in terms 
of where genocide occurs in other regions of the world.
    I am not trying to defend what our good friend from the 
Turkish Parliament has stated. But, as I have said before, we 
have become overnight experts on history in this region of the 
world which to me is one of the most complicated areas, our 
understanding of the Balkans in the areas of Ottoman Empire and 
how that occurred. I feel very, very reluctant, Mr. Chairman, 
that we are making a decision, but do we have all the facts at 
hand?
    I just wanted to express the concern that my good friend 
from California, Mr. Lantos, has reiterated earlier. I yield 
back the balance of my time.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Radanovich.
    Mr. Radanovich. Thank you, Mr. Chairman. I withdraw my 
point of order and support the amendment.
    Chairman Gilman. The gentleman withdraws his point of order 
and supports the amendment.
    Mr. Lantos.
    Mr. Lantos. Thank you, Mr. Chairman.
    Mr. Chairman, I support the amendment, of course, but I 
would like to use my time to summarize basically where we are.
    There are basically--the Committee is not in order, Mr. 
Chairman.
    Chairman Gilman. The gentleman's point is well taken. The 
Committee will please respect the gentleman's time.
    The gentleman may proceed.
    Mr. Lantos. Thank you, Mr. Chairman.
    I have great respect for all of my colleagues on both sides 
of this issue. I think the time has come to summarize where we 
are.
    There are two items being discussed here seriatim. One 
relates to the horrendous suffering of a vast number of 
Armenian men, women and children 85 years ago; and there is 
unanimity on this Committee in terms of recognizing that 
tragedy and expressing our sorrow and anguish with respect to 
it. The President of the United States, on Armenian Remembrance 
Day, spoke on behalf of all of us.
    There is a second issue, and that is the current national 
security interests of the United States. We have now heard at 
our last meeting and today from our current ambassador to 
Turkey. We have heard from the Chairman of the Intelligence 
Committee. We have heard from, in writing, a vast array of 
former secretaries of defense and chairmen of the Joint Chiefs 
of Staff.
    I am asking for unanimous consent to place in the record a 
letter we expect to receive by our current Secretary of State 
and Secretary of Defense which also strongly opposes passage of 
this resolution.
    Chairman Gilman. Without objection.
    [The letter appears in the appendix.]
    Mr. Lantos. We, in fact, can do both of these things. We 
can express our support for the President's statement with 
respect to the tragedy of the Armenian people, for which I am 
sure there will be a unanimous vote on behalf of every Member 
of this Committee, but at the same time not impact on our 
national security, which is clearly involved.
    The Chairman of our Intelligence Committee does not come 
here frivolously. Former secretaries of State and chairmen of 
the Joint Chiefs don't write us letters frivolously. The 
Secretary of State and the Secretary of Defense don't write us 
frivolously. Every single American president in the last 
quarter century opposed this legislation. Every secretary of 
state did. Every secretary of defense did. Every chairman of 
the Joint Chiefs did.
    I think it takes an incredible degree of arrogance for us 
to sweep all of this aside and to move now to approve this 
resolution. After all, it is important for us to remember that 
this came to us initially for the purpose of saving a 
congressional seat in California. The partisan politics----
    Mr. Royce. Will the gentleman yield?
    Mr. Lantos. In a moment.
    The partisan politics of that issue have now been diffused 
because both the Democratic candidate and the Republican 
candidate in that congressional district, for whatever reasons, 
strongly support the underlying resolution. So it is no longer 
a partisan issue.
    It allows us to deal with this issue on its merits. On its 
merits, we are in a position to identify ourselves with the 
President's statement expressing the anguish of the American 
people for the tragedy of the Armenians 85 years ago, without 
adversely impacting our national security.
    I yield back the balance of my time. I am happy to yield to 
my friend.
    Mr. Royce. I thank the gentleman for yielding.
    I just wanted to point out, because I heard this argument 
yesterday and last week as well, that I think all of us are 
aware that Congressman Bonior is the cosponsor of this 
resolution. As a matter of fact, he wrote to the Speaker and 
said, ``I urge you to schedule this bipartisan legislation for 
consideration for the floor as soon as possible.'' And he said, 
``This resolution has a long history of bipartisan support. I 
have worked to achieve passage of this for some years, and we 
believe that now is the time to move forward.''
    Then I noticed that we have a letter from Minority Leader 
Richard Gephardt and Sam Gejdenson and Frank Pallone saying, 
``We are writing to urge that you schedule for immediate floor 
consideration.''
    Mr. Lantos. Reclaiming my time.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Royce. So I am making that point to you that this is a 
bipartisan resolution----
    Chairman Gilman. Mr. Lantos has the time, and the 
gentleman's time has expired.
    Mr. Royce [continuing]. Supported by Mr. Gephardt and Mr. 
Bonior.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Tancredo. Mr. Chairman.
    Chairman Gilman. Mr. Tancredo.
    Mr. Tancredo. Thank you, Mr. Chairman.
    I just want to speak briefly in support of this amendment 
and to stress what I believe to be the importance of it.
    Last week, when we passed my amendment, which was referred 
to by Mr. Chabot, some comments were made about the effect of 
it and as to whether or not it would really change the course 
of affairs or the way in which we look at the whole issue. I 
just want to state very clearly for the record and also for our 
friends here from Turkey that at least in my mind it is an 
enormously important distinction we are making here.
    Please indulge us, if you will, with regard to our desire 
to reflect the events of history 85 years ago. Regardless of 
whether or not you agree with that determination of this 
Committee, please do not let that encumber your decision about 
the action we are about to take. Because the action we are 
about to take, both supporting this amendment and the 
underlying resolution, is one that I think is extremely 
important for a variety of reasons, be it political or the 
heartfelt beliefs of the people, the majority of Members of 
this Committee.
    But it should have absolutely nothing to do with our 
relationship with the present government of Turkey, and in 
order to state that clearly and maybe in a redundant fashion, 
we have another amendment by Mr. Rohrabacher. But that is only 
to encourage you to understand what we believe to be the case 
here and that is that the present government of Turkey holds no 
responsibility for the actions taken in this area of the world 
85 years ago.
    So, therefore, although others have suggested that this is 
not really going to solve our problem, I will tell you that, at 
least for this Member, the only way in which I can support the 
underlying resolution is with the inclusion of this language. 
It is extremely important for me and I believe for other 
Members of the Committee. So I do not want it discounted by the 
very people we are trying to, in fact, talk to through this 
resolution, and that is the present government of Turkey.
    We value your friendship. We understand your concerns. 
Please understand on our side what we are trying to do here and 
how clearly we are attempting to distinguish between those two 
actions.
    Chairman Gilman. If there is no further debate, the 
question is now on the amendment by Mr. Rohrabacher. As many as 
are in favor, signify in the usual manner.
    As many as are opposed, say no.
    The ayes have it.
    The amendment is agreed to.
    Mr. Bereuter.
    Mr. Bereuter. Mr. Chairman, I request a recorded vote.
    Chairman Gilman. A recorded vote is requested. Is there a 
show of hands favoring a recorded vote?
    A sufficient second, the Clerk will call the roll.
    Ms. Bloomer. Mr. Gilman.
    Chairman Gilman. Aye.
    Ms. Bloomer. Mr. Gilman votes yes.
    Mr. Goodling.
    [No response.]
    Ms. Bloomer. Mr. Leach.
    [No response.]
    Ms. Bloomer. Mr. Hyde.
    [No response.]
    Ms. Bloomer. Mr. Bereuter.
    Mr. Bereuter. Aye.
    Ms. Bloomer. Mr. Bereuter votes yes.
    Mr. Smith.
    Mr. Smith. Yes.
    Ms. Bloomer. Mr. Smith votes yes.
    Mr. Burton.
    Mr. Burton. Aye.
    Ms. Bloomer. Mr. Burton votes yes.
    Mr. Gallegly.
    Mr. Gallegly. Aye.
    Ms. Bloomer. Mr. Gallegly votes yes.
    Ms. Ros-Lehtinen.
    [No response.]
    Ms. Bloomer. Mr. Ballenger.
    Mr. Ballenger. Aye.
    Ms. Bloomer. Mr. Ballenger votes yes.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Yes.
    Ms. Bloomer. Mr. Rohrabacher votes yes.
    Mr. Manzullo.
    [No response.]
    Ms. Bloomer. Mr. Royce.
    Mr. Royce. Aye.
    Ms. Bloomer. Mr. Royce votes yes.
    Mr. King.
    [No response.]
    Ms. Bloomer. Mr. Chabot.
    [No response.]
    Ms. Bloomer. Mr. Sanford.
    Mr. Sanford. Yes.
    Ms. Bloomer. Mr. Sanford votes yes.
    Mr. Salmon.
    [No response.]
    Ms. Bloomer. Mr. Houghton.
    Mr. Houghton. Yes.
    Ms. Bloomer. Mr. Houghton votes yes.
    Mr. Campbell.
    Mr. Campbell. Aye.
    Ms. Bloomer. Mr. Campbell votes yes.
    Mr. McHugh.
    Mr. McHugh. Aye.
    Ms. Bloomer. Mr. McHugh votes yes.
    Mr. Brady.
    Mr. Brady. Aye.
    Ms. Bloomer. Mr. Brady votes yes.
    Mr. Burr.
    Mr. Burr. Votes yes.
    Ms. Bloomer. Mr. Burr votes yes.
    Mr. Gillmor.
    Mr. Gillmor. Yes.
    Ms. Bloomer. Mr. Gillmor votes yes.
    Mr. Radanovich.
    Mr. Radanovich. Aye.
    Ms. Bloomer. Mr. Radanovich votes yes.
    Mr. Cooksey.
    Mr. Cooksey. Yes.
    Ms. Bloomer. Mr Cooksey votes yes.
    Mr. Tancredo.
    Mr. Tancredo. Aye.
    Ms. Bloomer. Mr. Tancredo votes yes.
    Mr. Gejdenson.
    Mr. Gejdenson. Yes.
    Ms. Bloomer. Mr. Gejdenson votes yes.
    Mr. Lantos.
    Mr. Lantos. Yes.
    Ms. Bloomer. Mr. Lantos votes yes.
    Mr. Berman.
    Mr. Berman. Aye.
    Ms. Bloomer. Mr. Berman votes yes.
    Mr. Ackerman.
    Mr. Ackerman. Yes.
    Ms. Bloomer. Mr. Ackerman votes yes.
    Mr. Faleomavaega.
    Mr. Faleomavaega. Yes.
    Ms. Bloomer. Mr. Faleomavaega votes yes.
    Mr. Payne.
    [No response.]
    Ms. Bloomer. Mr. Menendez.
    Mr. Menendez. Yes.
    Ms. Bloomer. Mr. Menendez votes yes.
    Mr. Brown.
    [No response.]
    Ms. Bloomer. Ms. McKinney.
    Ms. McKinney. Yes.
    Ms. Bloomer. Ms. McKinney votes yes.
    Mr. Hastings.
    [No response.]
    Ms. Bloomer. Ms. Danner.
    [No response.]
    Ms. Bloomer. Mr. Hilliard.
    Mr. Hilliard. Aye.
    Ms. Bloomer. Mr. Hilliard votes yes.
    Mr. Sherman.
    Mr. Sherman. Yes.
    Ms. Bloomer. Mr. Sherman votes yes.
    Mr. Wexler.
    [No response.]
    Ms. Bloomer. Mr. Rothman.
    Mr. Rothman. Yes.
    Ms. Bloomer. Mr. Rothman votes yes.
    Mr. Davis.
    Mr. Davis. Yes.
    Ms. Bloomer. Mr. Davis votes yes.
    Mr. Pomeroy.
    [No response.]
    Ms. Bloomer. Mr. Delahunt.
    [No response.]
    Ms. Bloomer. Mr. Meeks.
    [No response.]
    Ms. Bloomer. Ms. Lee.
    Ms. Lee. Aye.
    Ms. Bloomer. Ms. Lee votes yes.
    Mr. Crowley.
    Mr. Crowley. Aye.
    Ms. Bloomer. Mr. Crowley votes yes.
    Mr. Hoeffel.
    Mr. Hoeffel. Yes.
    Ms. Bloomer. Mr. Hoeffel votes yes.
    Chairman Gilman. The Clerk will call the absentees.
    Ms. Bloomer. Mr. Goodling.
    [No response.]
    Ms. Bloomer. Mr. Leach.
    [No response.]
    Ms. Bloomer. Mr. Hyde.
    [No response.]
    Ms. Bloomer. Ms. Ros-Lehtinen.
    [No response.]
    Ms. Bloomer. Mr. Manzullo.
    [No response.]
    Ms. Bloomer. Mr. King.
    [No response.]
    Ms. Bloomer. Mr. Chabot.
    [No response.]
    Ms. Bloomer. Mr. Salmon.
    Mr. Salmon. Yes.
    Ms. Bloomer. Mr. Salmon votes yes.
    Mr. Payne.
    [No response.]
    Ms. Bloomer. Mr. Brown.
    [No response.]
    Ms. Bloomer. Mr. Hastings.
    [No response.]
    Ms. Bloomer. Ms. Danner.
    [No response.]
    Ms. Bloomer. Mr. Wexler.
    [No response.]
    Ms. Bloomer. Mr. Pomeroy.
    [No response.]
    Ms. Bloomer. Mr. Delahunt.
    [No response.]
    Ms. Bloomer. Mr. Meeks.
    [No response.]
    Chairman Gilman. The Clerk will report the tally.
    Ms. Bloomer. Mr. Chabot.
    Mr. Chabot. Aye.
    Ms. Bloomer. Mr. Chabot votes yes.
    Chairman Gilman. The Clerk will report the tally.
    Ms. Bloomer. On this vote, there were 34 ayes and zero 
knows.
    Chairman Gilman. The Clerk will withhold.
    Chairman Gilman. Mr. Burton. Is Mr. Burton recorded?
    Ms. Bloomer. Yes.
    Chairman Gilman. The Clerk will report the tally.
    Ms. Bloomer. On this vote, there were 34 ayes and zero 
knows.
    Chairman Gilman. The amendment is adopted.
    Without objection, the previous question is ordered.
    The gentleman from New Jersey, Mr. Smith, is recognized for 
offer a motion.
    Mr. Smith. Mr. Speaker, I move to order the resolution 
reported to the House with the recommendation that the 
resolution, H. Res. 596, as amended, be agreed to.
    Chairman Gilman. This motion is not amendable and not 
debatable.
    The question is on the motion. All in favor, signify in the 
usual manner. Opposed?
    The ayes have it.
    Mr. Burton. Mr. Chairman, I ask for a rollcall vote.
    Chairman Gilman. A rollcall vote is requested. Is there a 
sufficient second by a show of hands?
    There is a sufficient second. The Clerk will call the roll.
    Ms. Bloomer. Mr. Gilman.
    Chairman Gilman. Aye.
    Ms. Bloomer. Mr. Gilman votes aye.
    Mr. Goodling.
    [No response.]
    Ms. Bloomer. Mr. Leach.
    [No response.]
    Ms. Bloomer. Mr. Hyde.
    [No response.]
    Ms. Bloomer. Mr. Bereuter.
    Mr. Bereuter. No.
    Ms. Bloomer. Mr. Bereuter votes no.
    Mr. Smith.
    Mr. Smith. Aye.
    Ms. Bloomer. Mr. Smith votes aye.
    Mr. Burton.
    Mr. Burton. No.
    Ms. Bloomer. Mr. Burton votes no.
    Mr. Gallegly.
    Mr. Gallegly. Aye.
    Ms. Bloomer. Mr. Gallegly votes aye.
    Chairman Gilman. Let me interrupt the Clerk. To those 
Members leaving, after this vote we will be recessing until 1 
o'clock to come back to complete the rest of our agenda. We 
will stand in recess until 1 after the Clerk completes the 
rollcall.
    Please proceed.
    Ms. Bloomer. Ms. Ros-Lehtinen.
    [No response.]
    Ms. Bloomer. Mr. Ballenger.
    Mr. Ballenger. No.
    Ms. Bloomer. Mr. Ballenger votes no.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Aye.
    Ms. Bloomer. Mr. Rohrabacher votes aye.
    Mr. Manzullo.
    [No response.]
    Ms. Bloomer. Mr. Royce.
    Mr. Royce. Aye.
    Ms. Bloomer. Mr. Royce votes aye.
    Mr. King.
    [No response.]
    Ms. Bloomer. Mr. Chabot.
    Mr. Chabot. Aye.
    Ms. Bloomer. Mr. Chabot votes aye.
    Mr. Sanford.
    [No response.]
    Ms. Bloomer. Mr. Salmon.
    Mr. Salmon. No.
    Ms. Bloomer. Mr. Salmon votes no.
    Mr. Houghton.
    Mr. Houghton. No.
    Ms. Bloomer. Mr. Houghton votes no.
    Mr. Campbell.
    Mr. Campbell. Aye.
    Ms. Bloomer. Mr. Campbell votes aye.
    Mr. McHugh.
    Mr. McHugh. Aye.
    Ms. Bloomer. Mr. McHugh votes aye.
    Mr. Brady.
    Mr. Brady. No.
    Ms. Bloomer. Mr. Brady votes no.
    Mr. Burr.
    Mr. Burr. No.
    Ms. Bloomer. Mr. Burr votes no.
    Mr. Gillmor.
    [No response.]
    Ms. Bloomer. Mr. Radanovich.
    Mr. Radanovich. Aye.
    Ms. Bloomer. Mr. Radanovich votes aye.
    Mr. Cooksey.
    Mr. Cooksey. I vote present.
    Ms. Bloomer. Mr. Cooksey votes present.
    Mr. Tancredo.
    Mr. Tancredo. Aye.
    Ms. Bloomer. Mr. Tancredo votes aye.
    Mr. Gejdenson.
    Mr. Gejdenson. Aye.
    Ms. Bloomer. Mr. Gejdenson votes aye.
    Mr. Lantos.
    Mr. Lantos. No.
    Ms. Bloomer. Mr. Lantos votes no.
    Mr. Berman.
    Mr. Berman. Aye.
    Ms. Bloomer. Mr. Berman votes aye.
    Mr. Ackerman.
    Mr. Ackerman. Aye.
    Ms. Bloomer. Mr. Ackerman votes aye.
    Mr. Faleomavaega.
    Mr. Faleomavaega. No.
    Ms. Bloomer. Mr. Faleomavaega votes no.
    Mr. Payne.
    [No response.]
    Ms. Bloomer. Mr. Menendez.
    Mr. Menendez. Aye.
    Ms. Bloomer. Mr. Menendez votes aye.
    Mr. Brown.
    Mr. Brown. Aye.
    Ms. Bloomer. Mr. Brown votes aye.
    Ms. McKinney.
    Ms. McKinney. Aye.
    Ms. Bloomer. Ms. McKinney votes aye.
    Mr. Hastings.
    [No response.]
    Ms. Bloomer. Ms. Danner.
    [No response.]
    Ms. Bloomer. Mr. Hilliard.
    Chairman Gilman. The Clerk will withhold.
    Ms. Bloomer. Ms. Danner.
    Ms. Danner. No.
    Ms. Bloomer. Ms. Danner votes no.
    Mr. Hilliard.
    Mr. Hilliard. No.
    Ms. Bloomer. Mr. Hilliard votes no.
    Mr. Sherman.
    Mr. Sherman. Aye.
    Ms. Bloomer. Mr. Sherman votes aye.
    Mr. Wexler.
    [No response.]
    Ms. Bloomer. Mr. Rothman.
    Mr. Rothman. Aye.
    Ms. Bloomer. Mr. Rothman votes aye.
    Mr. Davis.
    Mr. Davis. Aye.
    Ms. Bloomer. Mr. Davis votes aye.
    Mr. Pomeroy.
    [No response.]
    Ms. Bloomer. Mr. Delahunt.
    [No response.]
    Ms. Bloomer. Mr. Meeks.
    [No response.]
    Ms. Bloomer. Ms. Lee.
    Ms. Lee. Aye.
    Ms. Bloomer. Ms. Lee votes aye.
    Mr. Crowley.
    Mr. Crowley. Aye.
    Ms. Bloomer. Mr. Crowley votes aye.
    Mr. Hoeffel.
    Mr. Hoeffel. Aye.
    Ms. Bloomer. Mr. Hoeffel votes aye.
    Chairman Gilman. The Clerk will call the absentees.
    Ms. Bloomer. Mr. Goodling.
    [No response.]
    Ms. Bloomer. Mr. Leach.
    [No response.]
    Ms. Bloomer. Mr. Hyde.
    [No response.]
    Ms. Bloomer. Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Yes.
    Ms. Bloomer. Ms. Ros-Lehtinen votes aye.
    Mr. Manzullo.
    [No response.]
    Ms. Bloomer. Mr. King.
    [No response.]
    Ms. Bloomer. Mr. Sanford.
    Mr. Sanford. Present.
    Ms. Bloomer. Mr. Sanford votes present.
    Mr. Gillmor.
    [No response.]
    Ms. Bloomer. Mr. Payne.
    [No response.]
    Ms. Bloomer. Mr. Hastings.
    [No response.]
    Ms. Bloomer. Mr. Wexler.
    [No response.]
    Ms. Bloomer. Mr. Pomeroy.
    [No response.]
    Ms. Bloomer. Mr. Delahunt.
    [No response.]
    Ms. Bloomer. Mr. Meeks.
    [no response.]
    Chairman Gilman. The Clerk will call Mr. Delahunt.
    Ms. Bloomer. Mr. Delahunt.
    Mr. Delahunt. Aye.
    Chairman Gilman. Any other Member wishing to change their 
vote or any Member not recorded?
    The Clerk will report the tally.
    Ms. Bloomer. On this vote, there were 24 ayes, 11 noes, and 
2 present.
    Chairman Gilman. The motion is agreed to.
    A motion to reconsider is laid upon the table.
    The Committee now stands in recess until 1:30 p.m..
    [Recess.]
    Chairman Gilman. The Committee will come to order.


  H.R. 577--TO HONOR THE UNITED NATIONS HIGH COMMISSIONER FOR REFUGEES


    Chairman Gilman. We will now consider H.R. 577 relating to 
the U.N. High Commissioner for Refugees. The Chair lays the 
resolution before the Committee. The Clerk will report the 
title of the resolution.
    Ms. Bloomer. ``H. Res. 577, a resolution to honor the 
United Nations High Commissioner for Refugees for its role as a 
protector of the world's refugees, to celebrate UNHCR's 50th 
anniversary, and to praise the High Commissioner Sadako Ogata 
for her work with the UNHCR for the past 10 years.''
    [The resolution appears in the appendix.]
    Chairman Gilman. This resolution was considered by the 
Subcommittee on International Relations and Human Rights and 
reported with an amendment. Without objection, the language 
recommended by the Subcommittee on International Relations and 
Human Rights which is before the Members will be considered as 
original text for the purpose of an amendment.
    Without objection, the Clerk will read the preamble and 
operative language of the Subcommittee recommendation, so 
ordered.
    Ms. Bloomer. ``Whereas, since the founding of the United 
Nations High Commissioner for Refugees in December 1950----''
    [The amended resolution appears in the appendix.]
    Chairman Gilman. Without objection, the Subcommittee's 
amendment is considered as having been read and is open for 
amendment at any point.
    I now recognize the gentleman from New Jersey, Mr. Smith, 
the Chairman of the Subcommittee, to introduce the resolution.
    Mr. Smith. Thank you very much, Mr. Chairman. I am very 
proud to be a cosponsor of this resolution introduced by my 
friend and colleague, Tony Hall, whose commitment to human 
rights and humanitarian principles is well-known.
    The resolution celebrates the 50th anniversary of the 
Office of the United Nations High Commissioner for Refugees, 
the UNHCR; it commends the UNHCR for its good work over the 
years, and congratulates the present high commissioner, Dr. 
Ogata, who will be retiring in December.
    The Subcommittee on International Operations and Human 
Rights made minor technical changes to the bill when we 
considered it and reported it favorably to the Full Committee. 
As the resolution points out, it is important that UNHCR never 
forgets that at the heart of its mandate is protection. Donor 
countries like the United States often forget this. Our own 
contribution to refugee protection around the world is about 20 
percent lower than it was just 5 years ago and most other 
countries have done even worse. Countries of first asylum to 
which refugees have fled from persecution or from the fear of 
persecution often wish they would just go away, and sometimes 
the brutal regimes from which they fled are all only too happy 
to have them back.
    So there is always pressure on the UNHCR to pretend that 
mass repatriation would be safe when it, in fact, is very 
dangerous; or to pretend that repatriation is voluntary when, 
in fact, the refugees and asylum seekers are given no choice.
    Occasionally, as in the so-called Comprehensive Plan of 
Action for asylum seekers from Indochina, the UNHCR has yielded 
to this pressure. On these occasions, I and other Members of 
Congress have been among UNHCR's strongest critics. On many 
other occasions, the UNHCR has stood up for the principle of 
protection, even at great risk to its own institutional 
interests.
    This resolution celebrates those instances of courage and 
compassion over the last 50 years and particularly during the 
stewardship of Dr. Ogata. I urge my colleagues to support this 
resolution, and I yield back the balance of my time.
    Chairman Gilman. Thank you, Mr. Smith.
    Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. I want to commend 
my colleagues for their work on this resolution and just say 
that while the High Commissioner's office is 50 years old, the 
predecessor organization, UNRA, ran the camp where I was born 
in Germany at the end of World War II, and I know what it meant 
to my family and thousands and thousands of others who survived 
that horror, and the U.N. Commissioner's offices around the 
world continue to do work for refugees that really is 
irreplaceable.
    When I have been to places in this hemisphere and others, 
it is clear they are doing the same jobs, the same training, 
education, health. All of us here also remember that 3 workers 
were recently killed in West Timor, that doing some of the most 
humanitarian work on the planet doesn't protect you from the 
kind of violence that goes on in the world. I urge passage of 
the legislation.
    Chairman Gilman. Thank you, Mr. Gejdenson. Anyone else 
seeking recognition?
    If not, H. Res. 577, in observation of the 50th anniversary 
of the establishment of the UN High Commissioner for Refugees, 
honors the outstanding service that the UNHCR has provided the 
international community since 1950. This small agency of the 
U.N., since its inception, has helped ameliorate, and in many 
instances resolve the plights of hundreds of millions of 
victims of persecution and abuse.
    I would like to commend our colleague, the gentleman from 
Ohio, Mr. Hall, for his diligence in making certain that the 
Congress is able to record its immense respect for the UNHCR on 
the occasion of this important milestone.
    We should also note that measure pays fitting tribute to 
our current high commissioner, Dr. Sadako Ogata, who we met 
with on a number of occasions and who is stepping down after 
completing her 10-year tour of duty in this vital international 
post.
    During her tenure, Mrs. Ogata has seen the caseload of 
refugees and persons of concern coming to her office rise to a 
total of some 22 million people. This number is indicative of 
the increase in wars, internal conflicts, and natural 
disasters. It has produced a tide of human suffering that has 
only been paralleled in the past by our most serious global 
conflicts.
    The UNHCR has also had to exceed the terms of its own 
mandate as laid out in the statutes that created the Office of 
High Commissioner some 50 years ago, by providing invaluable 
assistance to those vulnerable individuals who were internally 
displaced within the borders of their home countries, and who 
are also the victims of persecution or human rights abuses.
    As global events have become even more complex, the UNHCR 
has been able to adapt itself to meeting the new challenges and 
complexities presented, and I hope that this resolution, by 
calling attention to the good work performed by the UNHCR and 
its staff, will increase the support by American citizens and 
others around the world of the efforts spearheaded by the 
UNHCR.
    Accordingly, I urge our colleagues on our Committee to 
support H. Res. 577.
    Are any other Members seeking recognition?
    If not, if there are no further amendments, the question is 
on agreeing to the Subcommittee recommendation. As many as are 
in favor of the amendment signify in the usual manner; those 
opposed say no. The amendment is agreed to.
    Without objection, the previous question is ordered.
    The gentleman from Nebraska, Mr. Bereuter, is recognized to 
offer a motion.
    Mr. Bereuter. Mr. Chairman, I move the Chairman be 
requested to seek consideration of the pending resolution on 
the suspension calendar.
    Chairman Gilman. The question is on the motion of the 
gentleman from Nebraska. As many as are in favor signify in the 
usual manner; opposed no. The ayes have it. The motion is 
agreed to.
    Further proceedings on this measure are postponed.


H. CON. RES. 397--ABOUT SERIOUS HUMAN RIGHTS VIOLATIONS IN CENTRAL ASIA


    Chairman Gilman. We will now consider H. Con. Res. 397 
relating to the situation in central Asia. The Chair lays the 
resolution before the Committee. The Clerk will report the 
title of the resolution.
    Ms. Bloomer. ``H. Con. Res. 397, a resolution voicing 
concern about serious violations of human rights and 
fundamental freedoms in most States of central Asia, including 
substantial noncompliance with their organization for security 
and cooperation in Europe commitments on democratization and 
the holding of free and fair elections.''
    [The concurrent resolution appears in the appendix.]
    Chairman Gilman. This resolution was introduced on 
September 12, 2000, referred to the Subcommittees on Asia and 
the Pacific and on International Operations and Human Rights. 
It was considered September 13 in the Asia Pacific 
Subcommittee, forwarded without amendment to the Full 
Committee. The Operations Subcommittee has waived 
consideration.
    Without objection, the preamble text of the resolution will 
be read in that order for amendment.
    The Clerk will read.
    Ms. Bloomer. ``Whereas the States of central Asia, 
Kazakhstan, Kyrgyzstan----''
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and is open to amendment at any 
point. The measure was introduced by the distinguished 
gentleman from Nebraska, Mr. Bereuter, the Chairman of the 
Subcommittee on Asia and the Pacific. I now recognize the 
gentleman for 5 minutes to introduce the resolution to the 
Committee.
    Mr. Bereuter. Thank you, Mr. Chairman. I am an original 
cosponsor, but the primary author is, in fact, Mr. Smith, the 
gentleman from New Jersey.
    With the collapse of the Soviet Union in 1991, the five 
independent States of Central Asia came into being: Kazakhstan, 
Kyrgyzstan, Tajikistan, Turkmenistan, and Uzbekistan. The 
deserts, mountains, steppes, and river valleys in this region 
are home to 50 million people. State borders, which were 
imposed by Stalin, artificially partition and breed resentments 
among various large ethnic groups, principally Russians, 
Uzbeks, and Tajiks.
    Since achieving their independence, the Central Asian 
Republics have operated with little or no international 
scrutiny. In effect, Central Asia has been relegated to an 
international policy backwater. However, given the geo-
strategic significance of the region and given the region's 
vast wealth of natural resources, such an oversight is risky. 
We ignore the region at some peril.
    Regrettably, the nations of Central Asia appear to be 
moving along the path of authoritarianism. In recent months, 
each of the five countries has conducted general elections. 
These elections varied in the degree of electoral freedom. 
However, in no case did any of the elections meet 
internationally-accepted norms. Indeed, most remain reminiscent 
of Soviet-style elections. There has been decertification of 
opposition parties and, in some cases, the apprehension of 
opposition leaders. The State Department's Country Reports on 
Human Rights Practices for 1999 concludes that the presidential 
power in Kazakhstan and Kyrgyzstan overshadows legislative and 
judicial power and that Uzbekistan, Turkmenistan, and 
Tajikistan have lost ground in democratization and respect for 
human rights. This continual decline is very disturbing and 
raises questions about the ability of the United States and 
other democracies to successfully encourage true democratic 
institutions and the rule of law.
    In some ways, this is a difficult resolution. There are 
five countries in Central Asia. Each has unique 
characteristics. Some enjoy certain socioeconomic advantages 
over the others. Kyrgyzstan and Kazakhstan allow a relatively 
greater, but still very limited, degree of political 
participation. The ruler in Turkmenistan has developed cult of 
personalities so deep that he has changed his name so that he 
is, quite literally, the ``Father of the Turkmen,'' Turkmen-
bashi. Tajikistan has suffered from a severe civil war through 
the 1990's, but the common theme throughout central Asia is 
governmental abuse of basic human rights. Opposition leaders 
who appear to be gaining influence are dealt with in a 
decisive, antidemocratic manner, sometimes brutally.
    Now it is certainly true that most, if not all, of these 
countries face armed insurgencies. There are all-powerful 
tribal warlords in Tajikistan. In Uzbekistan and Kyrgyzstan, 
there are armed religious extremists. Indeed, as we meet, there 
are Taliban-backed insurgents fighting Uzbek military forces, 
and Islamic militants are decidedly antidemocratic. In 
Kazakhstan, there have been efforts by pro-Moscow elements to 
overthrow the government. It is entirely appropriate that the 
governments of the region deal with such threats. However, it 
is one thing to campaign against armed insurgents; it is quite 
another to use the insurgency as an excuse to suspend 
international law and to crack down on the legal political 
opposition. Unfortunately, in some instances, that is what has 
been done and is going on today.
    H. Con. Res. 397 speaks to the very real abuses that have 
occurred in each of the Central Asian Republics and puts these 
nations on alert that the U.S. House of Representatives is 
deeply concerned about the ongoing abuses of power. The 
resolution urges the nations to come into compliance with their 
OSCE commitments and calls upon the President and the Secretary 
of State to raise human rights concerns when meeting with 
representatives of these governments, even more energetically 
than I assume they have been.
    I congratulate the resolution's primary author, Mr. Smith, 
for introducing the resolution. The language he has crafted 
accurately reflects the serious democratic shortcomings 
throughout the region. I am pleased to be a cosponsor along 
with several other Members, and I appreciate the willingness of 
his staff to work with the Asia Pacific Subcommittee to craft a 
resolution that I think we can all energetically and 
emphatically support.
    Mr. Speaker, I urge support for H. Con. Res. 397. I yield 
back the balance of my time.
    Chairman Gilman. Thank you, Mr. Bereuter.
    Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. I have an amendment 
at the desk.
    I will withhold.
    Chairman Gilman. Mr. Smith.
    Mr. Smith. Thank you very much. I thank my friend for 
withholding momentarily.
    Mr. Chairman, I introduced this resolution last October 
because of the serious concerns about the general trends in 
central Asia. Since then, we have held 3 hearings, one on 
Kazakhstan in 1999, Uzbekistan in 1999, and Turkmenistan in the 
year 2000. They were very comprehensive hearings. We heard from 
all sides. We heard from human rights advocates, we heard from 
a number of diplomats and, unfortunately, the trend is a very 
negative one. Since then, the situation has deteriorated even 
further from the date of the original introduction of the 
resolution. The updated and newly introduced resolution is H. 
Con. Res. 397, and I am grateful to my good friend, the 
Chairman of the Asia and Pacific Subcommittee, for moving this 
resolution so that we can consider it in this timely fashion.
    Throughout the region, Mr. Chairman, strongman regimes have 
emerged where presidents have contrived to control or co-opt 
the political systems and the sources of wealth. It is clear 
that these leaders intend to stay in power indefinitely, and 
are prepared to manipulate constitutions, elections, and 
legislative and judicial systems to do so. Their desire to 
remain in power requires repressive political systems so as to 
stifle criticism to prevent exposure of high-level corruption 
and to intimidate politicians and the public.
    In the last year, the leaders of Turkmenistan and 
Kazakhstan have made their privileges permanent. President 
Niyazov of Turkmenistan had himself coronated as ``President 
for life'' last December, and in June, Kazakhstan's President, 
Nazarbaev, arranged for parliament to grant him certain 
prerequisites and powers for life.
    It is quite possible that some of these leaders plan to 
create family dynasties. Kyrgyzstan, for example, which used to 
be considered the most reformist Central Asian country, held 
scandalously flawed parliamentary elections in February and 
March, and President Akaev is now preparing to have himself 
reelected to his third term in October by excluding any serious 
challengers.
    While the leaders and their families and supporters live in 
luxury, the great bulk of the population in these countries has 
suffered a devastating drop in living standards, and discontent 
is growing.
    Radical elements in Central Asia, which may be linked to 
international terrorist centers, have called for overthrowing 
these regimes and introducing theocracies. These elements are 
currently mounting military campaigns against Uzbekistan and 
Kyrgyzstan.
    While it is possible that nothing could have stopped or 
dissuaded the most radical and determined groups from pursuing 
this goal, the domestic policies of Central Asian leaders have 
aggravated the situation by depriving the public of an 
opportunity to express grievances or otherwise participate 
legally in the political process, or to enjoy a share of the 
pie.
    While we reject and condemn any attempts to create or 
impose a political system by force, especially by elements that 
are anti-American, we cannot remain silent about the deeply 
harmful consequences of the domestic policies of Central Asian 
leaders which violate their OSCE commitments on 
democratization, human rights, and the rule of law. I hope that 
all Members will support this resolution, and I yield back the 
balance of my time.
    Chairman Gilman. Thank you, Mr. Smith.
    Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman.
    I have an amendment at the desk that I think is agreeable 
to my colleagues on the other side of the aisle.
    Chairman Gilman. The Clerk will report the amendment and 
the Clerk will distribute the amendment.
    Ms. Bloomer. ``Amendment offered by Mr. Gejdenson. After 
the 5th clause of the preamble, insert the following----''
    Chairman Gilman. Without objection, the amendment is 
considered as having been read.
    [The amendment appears in the appendix.]
    Chairman Gilman. Mr. Gejdenson is recognized on the 
amendment.
    Mr. Gejdenson. The intention of the amendment is simply to 
point out that in Kazakhstan, there has been some progress. 
Obviously there is a long way to go in all of these countries. 
There is absolutely no historic tradition of democracy. It is a 
critical area in the world for us when we look at the 
surrounding countries in this region: Iran, Afghanistan, 
Pakistan, India, China, all touching this area. Obviously I 
applaud what the Chairman of the Subcommittee, Mr. Smith, has 
done here; it is an important statement. I just wanted to give 
a little bit of applause to Kazakhstan for beginning some 
process, but obviously all of these countries have a long way 
to go. I am happy to see this little bit of progress in 
Kazakhstan. I would offer the amendment at this time.
    Chairman Gilman. The amendment has been offered by Mr. 
Gejdenson. Is there any discussion? Mr. Bereuter.
    Mr. Bereuter. Mr. Chairman, I move to strike the last word.
    Chairman Gilman. The gentleman is recognized for 5 minutes.
    Mr. Bereuter. I want to establish a little legislative 
record here, and I would hope to have the gentleman from 
Connecticut's attention on this issue.
    Mr. Gejdenson. The gentleman from Nebraska always has my 
attention.
    Mr. Bereuter. Thank you. I know that is the case.
    I want to make sure that the amendment is not 
misinterpreted in Kazakhstan or by President Nazarbayev.
    Unfortunately, no one from the opposition parties was a 
part of the process for organizing the roundtables or in 
setting the agenda of such roundtable. I think, in fact, the 
roundtable was conceived as a substitute to the national 
dialogue that is favored by the major opposition party and 
other groups. I think it is important that Kazakhstan's 
President Nazarbayev not be allowed to twist this amendment and 
the approval thereof, which I hope to support, as a 
congressional endorsement for his very limited approach to 
discussions with the opposition----
    Mr. Gejdenson. If the gentleman will yield----
    Mr. Bereuter. I will yield in just a second. As a rejection 
favored by most of the opposition, I think we should not give 
any message whatsoever that we are giving an aura of legitimacy 
to a regime that has been corrupt and has dealt harshly and 
undemocratically with the opposition.
    I think that a more comprehensive and high-level national 
dialogue, similar to ones held some years ago in Poland and 
South Africa, for example, are much better ways to proceed than 
is the roundtable that is proposed. I am hoping the gentleman 
may agree that we do not want to send a message that we are 
satisfied or that the oppositions' concerns are satisfied by 
the roundtable. I yield to the gentleman for any comments he 
might make in response.
    Mr. Gejdenson. I agree with the gentleman. I point to two 
areas in my amendment. One is at the end of the second 
``whereas'' clause: ``now should increase the input in those 
discussions by opposition parties, public organizations that 
favor a more comprehensive national dialogue.'' Additionally, 
in lines 3 and 4 I emphasize the need ``to engage in a serious 
comprehensive national dialogue on an equal footing.''
    I think the gentleman is absolutely correct. My goal here 
was simply to say, they have taken a small step, which is 
important, but the gentleman is absolutely correct that there 
needs to be a lot more done. I guess what I am trying to say is 
once in a while you need a little bit of an ``atta boy,'' but 
they have a long way to go. We need to make sure that they 
recognize that America is not going to be happy, that they are 
not going to get the kind of reception here that they hope to 
get until they have real democratic institutions, real respect 
for opposition, respect for a free press, independent parties. 
I agree with the gentleman completely.
    Mr. Bereuter. Thank you. Reclaiming my time for just a 
second, I want to say I appreciate the gentleman's words. The 
emphasis he has given I think is appropriate, and I wanted that 
to be part of the hearing record here today.
    Mr. Smith. Mr. Chairman.
    Chairman Gilman. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    First of all, let me associate myself with the remarks of 
Mr. Bereuter. I think he very accurately described what I think 
all of our hope is in not conveying a misinterpretation of the 
intent of the gentleman from Connecticut's amendment. 
Kazakhstan, as we know, has participated in a series of 
roundtable discussions between the government and opposition 
and independent forces. The first roundtable took place in 
September, on September 2nd, and more are scheduled. The next 
one is expected in January.
    The purpose of these talks is to come to an agreement about 
ways to eliminate the very severe defects in election 
legislation, which the OSCE and ODA criticized in the past and 
to improve the election process. It is very important to stress 
that the roundtable discussions must be genuine, they must be 
serious. As I think Members know, the opposition and 
independent forces have to be able to sit at that table and 
take a part in those on an equal basis. We do not want to, in 
any way, endorse a farce that is done for international 
consumption. We want these to be real and genuine, and I think 
that, Mr. Bereuter, in raising some of these concerns, has 
precluded the President from misapplying the intent of what we 
are trying to do here.
    Chairman Gilman. Thank you, Mr. Smith.
    Any other Members seeking recognition? If there is no other 
Member seeking recognition, the amendment is now before the 
Committee. All in favor signify by saying aye; opposed; the 
amendment is agreed to.
    I just I just want to state my strong support for the 
resolution. Along with our colleague from Nebraska, Mr. 
Bereuter, I have shared an interest to underline to the 
Congress and the American people the importance of the States 
of Central Asia and the future stability of all Eurasia and the 
future expansion of global energy.
    I am going to ask that my full statement be made a part of 
the record. I think our Nation makes it clear that we expect 
and support true democracy and will not tie our policies in 
Central Asia to leaders bent on condemning their peoples to a 
future of repression, corruption and poverty. I support the 
amended resolution.
    [The Chairman's statement appears in the appendix.]
    Chairman Gilman. On the resolution, I recognize the 
gentleman from Nebraska, Mr. Bereuter.
    Mr. Bereuter. Mr. Chairman, I move the Chairman be 
requested to seek consideration of the pending resolution, as 
amended, on the suspension calendar.
    Chairman Gilman. The question is on the motion of the 
gentleman from Nebraska. All those in favor say aye, opposed 
no. The ayes have it. The motion is agreed to.


 S. 2682--REGARDING MAKING AVAILABLE CERTAIN MATERIALS OF THE VOICE OF 
                                AMERICA


    Chairman Gilman. A noncontroversial measure is next on the 
Voice of America. We will now consider S. 2682 relating to 
making certain Voice of America materials available. The Chair 
lays the bill before the Committee. The Clerk will report the 
title of the bill.
    Ms. Bloomer. ``S. 2682, to authorize the Broadcasting Board 
of Governors to make available to the Institute for Media 
Development certain materials of the Voice of America.''
    [The bill appears in the appendix.]
    Chairman Gilman. Without objection, the first reading of 
the bill is dispensed with.
    The Clerk will read the bill for amendment.
    Ms. Bloomer. ``Be it enacted by the Senate and House of 
Representatives of the United States of America in Congress 
assembled, Section 1.''
    Chairman Gilman. Without objection, the bill is considered 
as having been read and is open for amendment at any point.
    The bill was referred to the Subcommittee on International 
Operations and Human Rights, which has not acted on it.
    I now recognize the gentlewoman from Georgia, Mrs. 
McKinney, to introduce the bill.
    Ms. McKinney. Thank you, Mr. Chairman.
    I have a statement that I would like to submit for the 
record. I would just like to add that this is a 
noncontroversial bill that allows the Board of Governors of the 
Voice of America to enter into a contract with UCLA to digitize 
the analogue material and to allow access to the material to 
selected scholars for research.
    This bill is not precedent-setting, inasmuch as it has been 
done before with the University of Pennsylvania.
    This bill has been passed by the Senate, and I urge my 
colleagues to support it. Thank you, Mr. Chairman.
    [The prepared statement appears in the appendix.]
    Chairman Gilman. Thank you, Ms. McKinney. Are any other 
Members seeking recognition?
    If not, the gentleman from Nebraska, Mr. Bereuter is 
recognized to offer a motion.
    Mr. Bereuter. Mr. Chairman, I move the Chairman request and 
seek consideration of the pending bill on the suspension 
calendar.
    Chairman Gilman. The question is on the motion of the 
gentleman from Nebraska. All those in favor of the motion 
signify by saying aye, those opposed, no. The ayes have it. The 
motion is agreed to.
    Without objection, the Chairman is authorized to make 
motions under rule 22 relating to a conference on the bill. 
Further proceedings on the bill are postponed.
    We will now recess and come back right after the last vote, 
and hopefully we will be able to wind up our agenda. There is a 
series of votes on the floor. The Committee stands in recess.
    [Recess.]
    Chairman Gilman. The Committee will come to order. Members 
please take their seats.


                      S. 1453--THE SUDAN PEACE ACT


    Chairman Gilman. The Chair lays a bill before the 
Committee, Senate 1453, the Sudan Peace Act.
    The Clerk will report the title of the bill.
    Ms. Bloomer. ``S. 1453, an act to facilitate famine relief 
efforts and a comprehensive solution to the war in Sudan.''
    [The bill appears in the appendix.]
    Chairman Gilman. Without objection, the first reading of 
the bill is dispensed with.
    This bill was considered by the Subcommittee on Africa and 
by the Subcommittee on International Operations and Human 
Rights. The Subcommittees recommended amendments. Without 
objection, the Subcommittee recommendation in the nature of a 
substitute which is before the Members and marked Committee 
Print will be considered as the base text for the purpose of 
amendment. The Clerk will read the Subcommittee amendment for 
amendment.
    Ms. Bloomer. ``Committee print. Strike all after the 
enacting clause and insert the following: Section 1, short 
title.''
    Chairman Gilman. Without objection, the Subcommittee 
recommendation is considered as having been read and is open 
for amendment at any point.
    [The Subcommittee print of S. 1453 appears in the 
appendix.]
    Chairman Gilman. I now recognize the gentleman from New 
Jersey, Mr. Smith, for 5 minutes to introduce the bill.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Chairman, the government of Sudan's genocidal religious 
war against the non-Muslim peoples of southern Sudan have 
turned the south into, in the words of one Sudanese priest, 
``the hell of the earth.'' Enslavement, calculated starvation, 
forced conversion, and the bombardment of civilian targets, 
such as schools, churches, and hospitals, are still methods of 
terror favored by the National Islamic Front government.
    Unfortunately, Khartoum has also begun generating the 
revenue it needs to extend its self-described jihad by 
developing Sudanese oil resources. S. 1453, the Sudan Peace 
Act, is an important first step toward addressing the crisis in 
that war-torn region. Among other things, the bill condemns 
slavery and other human rights violations perpetrated by the 
Khartoum regime. I would note parenthetically that we held the 
first hearing on slavery in the Sudan in my Subcommittee, Mr. 
Chairman, back some 4\1/2\ or so years ago. We have had a 
number of followup meetings to that. We had actual survivors of 
slavery who testified, who talked about the gross indignities 
that they suffered as a result of slavery. Slavery in the year 
2000 continues to exist. This resolution condemns it.
    It expresses support for the IGAD-sponsored peace process. 
It expresses a sense of Congress on several objectives relating 
to improvement of relief services to the south of Sudan. It 
authorizes an additional $16 million for rehabilitation 
assistance to areas of Sudan not controlled by the government 
in the north, and it requires the President to report to 
Congress on several aspects of the conflict as well as options 
available to the United States for providing nonlethal 
assistance to members of the National Democratic Alliance.
    These are all very good things, Mr. Chairman, but the 
horrors of Sudan, which have already claimed more than 2 
million lives, demand more than expressions of concern and new 
reporting requirements. They require concrete action.
    For this reason, at our markup, the Subcommittee on 
International Operations and Human Rights reinstated portions 
of sanctions-related language that was present in both the 
House and the Senate--introduced versions of the Act. Unless 
the President can certify that Khartoum has made significant 
progress toward peace and respect for human rights, the 
restored language would impose certain trade and financial 
sanctions intended to keep the government of Sudan from raising 
funds in the U.S. capital markets. The robust U.S. economy 
should not be used to underwrite this ongoing genocide.
    I urge Members to support the bill. I know there will be 
some amendments, but I do hope that in its current form, 
Members will support it.
    Chairman Gilman. Thank you, Mr. Smith.
    Mr. Menendez, for general debate.
    Mr. Menendez. Thank you, Mr. Chairman.
    I want to start from the outset saying that I fully support 
this bill and all that it tries to do, and if I could have 
signed my name on to it as a cosponsor, I would have. Since it 
is a Senate bill, I can only commend the authors and the 
original cosponsors in the Senate, Senators Frist, Feingold, 
Brownback and Joe Lieberman.
    I am a cosponsor of a similar bill in the House, H.R. 2906, 
sponsored by Congressman Watts, Frank Wolf, who has done much 
to expose the barbarities of the Sudanese government; Ed Markey 
and, on this Committee, Mr. Tancredo, Mr. Payne, Ms. McKinney 
and Mr. Smith, all who have worked tirelessly on this issue.
    Mr. Chairman, I abhor the Sudanese slave trade and the 
Khartoum regime that perpetrates it as much as anyone in 
Congress. Even before the current sanctions were imposed on the 
Sudanese government, I am on the record as the former Ranking 
Member of the Africa Subcommittee as being critical of Sudan's 
despicable human rights abuses and its perpetuation of the 
country's brutal Civil War. The list of wholly condemnable 
practices then, as now, includes the abduction of children and 
the use of selective starvation as a weapon of war.
    This bill makes a case for sanctions against the Sudanese 
government. It makes clear that those sanctions will continue 
until the regime in Khartoum changes its ways.
    What I hope it will work toward, Mr. Chairman, however, is 
full enforcement, not a fig leaf. If, for example, you allow 
gum arabic to come into the United States through the Europeans 
instead of directly, all you do is give the Sudanese higher 
prices and more money and, therefore, undermine the very nature 
of the sanctions you seek to create. That should not stand.
    I will have two amendments aimed at strengthening the bill 
by broadening sanctions provisions and calling on the United 
States Government to do everything possible to bring Sudan's 
trading partners, which are our allies in Europe, into line on 
the sanctions.
    I thank you for the opportunity, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Menendez.
    Mr. Royce.
    Mr. Royce. Thank you, Mr. Chairman.
    The Africa Subcommittee marked this legislation up in July. 
I am glad to see that the Full Committee is paving the way for 
this bill to come on to the House floor. Let me say you have 
all heard the arguments about the full measure of the tragedy 
we are dealing with here, and I would hope that the Members of 
this Committee would all support the legislation. Thank you.
    Chairman Gilman. Are any other Members seeking time?
    Mr. Campbell. Mr. Chairman.
    Chairman Gilman. Mr. Campbell.
    Mr. Campbell. At the right moment, I would have an 
amendment, but this is general debate I assume, so I am happy 
to wait until later.
    Chairman Gilman. Mr. Tancredo.
    Mr. Tancredo. Thank you, Mr. Chairman.
    I too want to commend the Chairman for bringing this up, 
and the Chairmen of the Subcommittees for their work on this 
particular issue.
    As has been noted, it is one that has come before this 
Committee several times in the past, and I am pleased that it 
has finally developed into this particular piece of legislation 
that includes the issue of sanctions. We have been told, and we 
were told in the Subcommittees, that we should shy away from 
that, because it may cause the bill to be reconsidered and have 
to go back to the Senate. That argument, of course, I think is 
much less important in light of the fact that we know that the 
Sudanese government is making use of the economic forces--the 
economic resources available to them for the most nefarious of 
purposes; and that recently, as a matter of fact, the World Net 
Daily learned that the African Nation of Sudan has acquired 34 
new jet fighters from China, doubling the size of the country's 
Air Force, further escalating the Muslim government's war 
against Christians in southern Sudan.
    Records show the Sudan Air Force is now equipped with $100 
million worth of brand new Shangyen jet fighters built in 
China. A recent U.N. Report accused the Sudan government of 
using an airfield built with Chinese assistance to bomb schools 
and hospitals in its war against the south.
    Every increase in available resources to the northern 
government--to the government of Sudan and Khartoum--is used to 
propagate their war against the south. That is why sanctions 
are so important. Without sanctions, this bill is truly just a 
resolution, not a bill.
    I noted with interest that not too long ago, the Government 
of the United States, the State Department, and the President 
of the United States, threatened economic sanctions against the 
Nation of Peru, and they did so because they were concerned 
about the electoral process and whether there was validity in 
their electoral process, whether the election for President was 
being carried out accurately. The fact is that if we can 
threaten sanctions against Peru, for heaven's sake, because of 
their electoral process, why fear using this particular 
mechanism against a government who has propagated far more 
heinous crimes against its population than any other in the 
region or around the world in recent history.
    So it is a bogus idea, I think, to suggest that this is not 
an appropriate measure for us to take. I recognize we may be 
debating this further as this bill goes along, the idea of 
sanctions, but I just wanted to say on the front end that I 
think it is an enormously important part of the bill. Without 
it, we really don't have anything more than the kind of thing 
we have had in front of us time after time after time and that 
is rhetoric. They should do it. We hope they will do it. But, 
in fact, this gives them consequences for not moving in the 
direction of peace.
    So I sincerely hope that the Committee will support the 
bill in its entirety and that we will not change it, not water 
it down. I commend it to my colleagues for their approval.
    Chairman Gilman. Thank you, Mr. Tancredo. Is any other 
Member seeking recognition?
    I support this measure, which passed the Senate Foreign 
Relations Committee unanimously in November of last year.
    Sudan has been independent for some 44 years. For 34 of 
those years, it has been engaged in civil war. Entire 
generations of Sudanese in both the north and south have grown 
up with war as a regular fact of life. Several national 
governments, military and civilian, have come and gone. Some, 
like the current regime, have been militant Islamists. Others 
have been moderate, the historical norm for Islam in Sudan. 
All, however, have attempted, without much success, to subdue 
the rebellious south with military force.
    The cost in human life has been enormous; about 2 million 
dead in the past 17 years. Two million have perished. There is 
no way to estimate the death toll of the first 17 years of the 
war, from 1956 to 1973.
    Last year, high level State Department and National 
Security Council officials asked Members of Congress to remove 
restrictions in the law that would prevent food aid from going 
to the rebel forces. We did so in the mistaken belief that they 
had decided upon a course of action and were planning to do 
something with that authorization.
    But as soon as some NGOs and other officials within their 
own Administration publicly criticized the action, the 
Administration turned tail and ducked for cover. Current State 
Department guidance reads as follows, and I quote: ``The 
Administration has not made a decision to use previous 
authorization to provide direct food aid to Sudan's opposition 
forces, but the issue remains under review.''
    It is now going on a year that this has been under review. 
Perhaps the Administration should be reminded that time is 
running out. Their indecision has had real consequences and 
they have managed to achieve the worst of all worlds.
    The militant government in Khartoum spreads the word that 
the U.S. is actively supporting the rebels, and this mobilizes 
real support from its extremist allies in the Arab world. 
Meanwhile, the rebels actually receive nothing but rhetoric 
from our Nation. Although the State Department says it supports 
this bill in large measure, it bristles at reporting 
requirements that it describes as onerous. It objects to 
anything that might restrict the Administration's exercise of 
its authority with respect to economic sanctions. They have 
been arguing--the argument is not to tie the President's hands. 
These arguments would be more persuasive if the Administration 
could point to a consistent and effective policy of measures of 
its own during its 8-year tenure. Indeed, we would be less 
willing to tie the Administration's hands if it were not so 
painfully obvious that at least on Sudan policy, one hand often 
has not known what the other was doing. Accordingly, I urge my 
colleagues to support this measure.
    Mr. Menendez.
    Mr. Menendez. Thank you, Mr. Chairman. I have an amendment 
at the desk, number 34.
    Chairman Gilman. The Clerk will report the amendment, and 
the Clerk will distribute the amendment.
    Ms. Bloomer. ``Amendment offered by Mr. Menendez, page 11, 
after line 15, insert the following: (D), The importation to 
the United States of gum arabic, in raw or processed form----''
    Chairman Gilman. The amendment is considered as having been 
read.
    [The amendment appears in the appendix.]
    Mr. Smith. Mr. Chairman, I reserve a point of order.
    Chairman Gilman. A point of order is reserved.
    Mr. Menendez.
    Mr. Menendez. Thank you, Mr. Chairman.
    My purpose in offering this amendment, which is one small 
paragraph but I think very powerful in terms of what we are 
trying to accomplish, is that one of the products that Sudan 
produces, not its major one, but one of the major ones, gum 
arabic, which is needed here in the United States. If we are 
going to cut it off, and I am willing to support such a 
sanction, it should be in its totality, which means that 
whether it be in raw or processed form, if it is originating 
from the Sudan, whether imported directly from Sudan or from a 
third country, we are going to say no.
    If we do not do that, then all we are accomplishing in this 
one instance is having the Sudanese make more money because the 
Europeans are cornering the market, they are making more money; 
we are not hurting them, and we are still going to get a gum 
arabic product into the United States and pay higher prices for 
it and shut down companies that import directly.
    So I think most of us here today agree that sanctions 
against the Sudanese government are the right thing to do. I 
have supported and will support them. However, our European 
allies do not agree. Their policy of engagement and continued 
unfettered trade with Sudan is both undermining our policy and 
hurting American companies. This is particularly true with 
regard to one product, gum arabic, which is not Sudan's largest 
export, but it is an important one.
    Their ability to sell gum arabic to the world has not been 
stopped by our sanction. In fact, a top State Department 
official in testimony to the Congress more than a year ago 
said, ``Economically, the Sudanese regime has not been 
adversely affected at all by the U.S. ban. Sudan is exporting 
more gum arabic than ever before. American gum arabic refiners, 
on the other hand, may soon be forced to shut down, and 
American companies that use refined gum arabic could wind up 
paying higher prices to overseas competitors who are acquiring 
a monopoly on this necessary substance.''
    Unfortunately, his prophecy is now fact.
    So the Sudanese are making more money, the Europeans are 
making more money, and American companies are being unfairly 
hurt.
    Now, we all know that sanctions are going to hurt U.S. 
firms. There are some in my own district. I stand ready to have 
them face the consequences. But, if we are going to hurt them, 
let's at least be sure we are achieving our goals at the same 
time. Our goal is to hurt the Sudanese regime economically so 
that these killers and slave traders are forced to change. We 
will not do that if we allow them an open door to bring their 
product in through the Europeans, most particularly the French, 
who seem to be unwilling to work with us in order to achieve 
it.
    Thank you, Mr. Chairman. I urge the adoption of the 
amendment.
    Chairman Gilman. Thank you, Mr. Menendez. Does anyone wish 
to be heard?
    Mr. Smith. Mr. Smith, just so I understand exactly what is 
going on here, in the past it has been my understanding that 
the gentleman from New Jersey, my good friend, Mr. Menendez, 
while he was supportive of overall sanctions was actually in 
favor of carving out a protection for gum arabic, a position 
which I did not like, but unfortunately it is the position that 
prevailed.
    But it is my understanding that if this amendment were to 
be added to this bill, there would be a referral made or a 
demand for a referral by the Ways and Means Committee, which 
would make this legislation a dead letter. It would not be 
reported out of the Ways and Means Committee. We would be 
talking about, like I said, a piece of legislation that would 
be dead as a door nail.
    So I will insist on my point of order and obviously leave 
it up to the Chair, but it seems to me that the double-edged 
sword here is that this would be a killer amendment for the 
entirety of this legislation, because of the Ways and Means 
Committee. We all know that the Ways and Means Committee would 
be the final repository of what otherwise would be a good bill. 
We have carefully crafted the sanctions language in this. I 
give high marks to my Chief Counsel, Grover Joseph Rees, who 
wrote it in such a way that would preclude a referral to the 
Ways and Means Committee. I am absolutely transparent about 
that. We didn't want it to go there for one simple solitary 
reason: it would be a dead letter. This amendment makes the 
bill a dead letter.
    Chairman Gilman. If the gentleman will withhold his point 
of order, I think there is some other discussion.
    Mr. Menendez.
    Mr. Menendez. Well, it is my time or the gentleman's time?
    If it is on my time, my point, and I do not intend to 
insist on the amendment; but my point, however, is to say let's 
be honest and not hypocritical. The fact of the matter is, if 
we want to hurt the Sudanese, what we must do is shut down the 
avenue of any product that we seek to sanction from coming to 
the United States. Otherwise, all we do is give the Sudanese a 
greater market price, the Europeans are paying top euro for 
them because they want to corner the market; so we give the 
Sudanese more money and, therefore, allow them to have more 
resources to conduct the type of activity they have been 
conducting. That is not something we want to do.
    I am going to seek to withdraw, but I wanted to make the 
point to my colleague from New Jersey that I support what he 
wants to do and I don't want it to be referred anywhere else. 
But I hope we will work toward, if we are going to make this 
meaningful, locking down sanctions that ensure that we, in 
fact, don't just have American companies get hurt and end up 
giving the Sudanese more money at the end of the day.
    Mr. Smith. I thank the gentleman for that explanation. I 
don't think the word ``hypocritical'' would apply, though, 
because I and Mr. Tancredo, Mr. Royce, and so many others, have 
tried very hard to be as expansive as humanly possible in 
applying the sanctions. Many of our efforts were joint hearings 
with my good friend, Mr. Royce. We held the landmark hearings 
on the forgotten war against the 2 million people who so far 
have perished under unspeakable conditions. ``Crimes Against 
Humanity in the Sudan,'' was the title of our hearing on May 27 
of 1999. As I said, we had the first hearing ever that was held 
on that issue----
    Mr. Menendez. Well, reclaiming my time, my point is, when I 
say ``hypocritical,'' I am saying our policy, not my colleagues 
here.
    Mr. Smith. Well, I appreciate that.
    Mr. Menendez. Our policy, that if we are going to have 
sanctions, and I have had this policy worldwide, if we are 
going to have sanctions, the way to ensure it is that we don't 
provide open doors that ultimately allow back room entrances, 
so we can say that we are doing something, but in reality we 
are doing very little to effect a sanction in a way in which we 
want.
    I know that my colleagues who have pursued this are very 
sincere in their effort. I am talking about governmentally, 
ultimately in the Administration's policy, if we are not going 
to close down all access of this or any other product from the 
Sudan, then ultimately, we are not being true to our ultimate 
goal, and that is the context in which I meant it. I thank the 
gentleman.
    Chairman Gilman. Does the gentleman seek to withdraw?
    Mr. Menendez. I seek to withdraw, Mr. Chairman.
    Chairman Gilman. The gentleman's amendment is withdrawn. 
Mr. Menendez, do you have an additional amendment?
    Mr. Menendez. Yes, I do, Mr. Chairman. I have two 
amendments, 35 and 36, which I would ask unanimous consent to 
offer en bloc.
    Chairman Gilman. Two amendments offered en bloc by Mr. 
Menendez.
    The Clerk will read the amendments.
    Ms. Bloomer. ``Amendments offered by Mr. Menendez. Page 2, 
after line 5, insert the following: And redesignate subsequent 
paragraphs accordingly.''
    [The amendments, offered en bloc, appear in the appendix.]
    Chairman Gilman. Without objection, the amendments are 
considered as having been read.
    Mr. Menendez is recognized for 5 minutes on this amendment.
    Mr. Menendez. Thank you, Mr. Chairman.
    Mr. Chairman, the merger of these two amendments basically 
goes toward an expansion of language which I think is 
appropriate. It speaks, as I have already made the case that if 
sanctions against the regime are going to be effective, we must 
convince our trading partners to join us in attempts to hurt 
Sudan economically. Unfortunately, our European allies today 
have not been cooperative. This has meant that the sanctions 
have not hurt Sudan, but have hurt American companies and their 
employees, while European firms are reaping the benefit. Sudan 
is making more money than ever before on gum arabic, for 
example, as the Europeans are willing to pay top euro for the 
product in the hope that they can corner the market. They are 
cornering the market right now, buying all the stocks of gum 
arabic and selling to American firms who rely on it through 
European companies.
    Until we secure European cooperation on the sanctions, U.S. 
companies will bear an unfair burden and the Sudanese despots 
won't be persuaded in the least to change their ways. Those of 
us around the world who are disgusted by any forms of slavery 
in this day and age, as in any day and age, must work together 
politically and economically to send a message to the Sudanese 
government.
    So what we seek to do in this amendment is to strengthen by 
recognizing the refusal of those countries specifically that do 
not seek to join us but are, nonetheless, purchasing from the 
Sudanese and giving them higher prices, ensuring that we use 
any and all unilateral and multilateral economic and diplomatic 
tools to compel Sudan's trading partners to join us in this 
effort, and also to ensure that all of the other entities are 
engaged. I have taken out as well those references that would 
have created a referral; so to my colleague from New Jersey who 
has legitimate concerns about that, we took those references 
out to ensure that it wouldn't produce a referral to another 
Committee, but in essence, to strengthen our call for 
unilateral sanctions.
    Lastly, to suggest as a sense of the Congress that if we 
can close down all of the efforts to have any Sudanese imports 
come into the United States, either directly or indirectly 
through third countries, that we should seek to provide some 
relief to those companies, in whole or in part, who are 
affected. This falls in line also with our views on some of the 
trade sanctions we have had with reference to banana and 
hormone beef; and saying small businesses should not be the 
focus of those trade sanctions, we should give relief to those 
small businesses.
    I urge adoption of the amendment.
    Chairman Gilman. Any Members seeking recognition?
    Mr. Smith. Mr. Chairman, we are on both amendments at the 
same time, just in terms of parliamentary procedure?
    Chairman Gilman. They are en bloc.
    Mr. Smith. I would hope the sense of the Congress might be 
separated, just because I have some questions about how much 
money we are indeed talking about and to whom the money would 
go. Are we talking about Coca Cola, a large, multinational, 
rather cash-rich corporation, who would be compensated? I am 
just not sure who he is talking about, so if the gentleman 
could explain that.
    Mr. Menendez. I would be happy to explain that to the 
gentleman if he will yield.
    Current sanctions only deal with the refiners, so I think 
there are only two companies, small companies in the whole 
United States that import and refine gum arabic, and those are 
the only people to whom the sanctions apply, and those are the 
only people who, in fact, I am talking about.
    Mr. Smith. And about how much would we be talking about?
    Mr. Menendez. I can't quantify for the gentleman that 
amount, but I would be happy to try to get that information. I 
would just say to the gentleman, there are about 150 to 200 
employees in two very small companies that are the only ones 
that I know of in the entire country that import this, and they 
are the only ones affected by the sanctions.
    Of course, the sense of the Congress doesn't say we are 
going to do that, it just says we should look toward the 
possibility that if we can enforce such sanctions successfully, 
that we should look at giving some relief. The gentleman would 
find legislation that I have offered with many other Members of 
the House to give such relief to other small companies in 
similar circumstances where, in the context of trade disputes, 
we are affecting those small companies.
    Chairman Gilman. Is there any other Member seeking 
recognition?
    Mr. Payne.
    Mr. Payne. Thank you.
    As you know, this has been an ongoing debate for some time. 
I certainly appreciate my colleague from New Jersey having 
concerns, as he ought to, regarding businesses in his district 
which are affected, and I can understand the legislation that 
he is introducing. However, I think that somewhat of a 
precedent may be set by us attempting to hold harmless, 
although very small businesses, the businesses that are 
involved. You know, this question of gum arabic has been 
debated now for several years, 5 or 6. I know myself, because I 
attempted to have previous legislation passed to have sanctions 
on gum arabic.
    The thing that I find difficult to understand is that if a 
product is necessary for the final conclusion or the final 
making of some other product, then it would appear to me that a 
responsible company would look for alternatives, alternative 
places that this particular product could be grown, knowing 
there is a certain amount of time that it takes before the 
fruits can bear and become productive. But we have been 
discussing this question of gum arabic for some time now.
    I don't blame the refineries or the companies that are in 
the business of converting this into whatever the substance 
that is necessary for candy and sodas and all of the rest; but 
it seems to me that those large companies, multinational 
corporations who must depend on gum arabic, would at least have 
had some foresight to say well, let's move to Nigeria or let's 
go to Ethiopia, let's grow it in Eritria. I mentioned that 3 or 
4 years ago.
    Certainly, if you have a supply and you have everything in 
place, it is a lot easier simply to continue to draw from that 
place that you are drawing from.
    So it appears to me that the corporations that depend on 
gum arabic have not taken initiatives to try to prevent the 
eventuality that perhaps sanctions will be brought upon a 
country like Sudan. For those reasons, I have very little 
sympathy because it is not something that has come out of the 
blue; it is something that we have talked about; we have urged 
them to look at other sites, we have suggested that they find 
the topography that is similar to that in the Sudan where this 
product is grown, and that they, as any progressive company 
would be forward-thinking, would then move and start that 
product in that area.
    So I just have a concern about precedent-setting. In the 
past, as a matter of fact, with South African sanctions, there 
were many South Africans who were hurt and they said they 
supported the sanctions anyway because they knew it was the 
right thing to do.
    So I do certainly appreciate not offering the other 
amendment would have sent it to the Ways and Means Committee, 
which would have definitely killed any kind of sanctions. But 
in due respect, I cannot support these amendments.
    Chairman Gilman. Thank you, Mr. Payne.
    Are any other Members seeking recognition? If not, the 
question is on the amendments en bloc. All in favor signify in 
the usual manner. Opposed, no.
    The ayes have it. The amendment is agreed to.
    Mr. Smith. Mr. Chairman, I would ask for a recorded vote.
    Chairman Gilman. A show of hands, would that be acceptable?
    Mr. Smith. Yes.
    Chairman Gilman. All in favor of the amendment signify by a 
show of hands; opposed.
    Chairman Gilman. The amendment is not agreed to.
    Mr. Campbell.
    Mr. Campbell. Mr. Chairman, I have two amendments at the 
desk. One is very quick. The shorter one to strike section 5 B. 
I discussed it with the author.
    Chairman Gilman. Are they en bloc or separate amendments?
    Mr. Campbell. They are separate, Mr. Chairman.
    Chairman Gilman. The Clerk will report the amendments.
    Ms. Bloomer. ``Amendment offered by Mr. Campbell, pages 7, 
8, strike section 5b, renumber all succeeding sections.''
    [The amendment appears in the appendix.]
    Chairman Gilman. Mr. Campbell is recognized on his 
amendment for 5 minutes.
    Mr. Campbell. Mr. Chairman, 5b refers to the IGAD process 
as the only one the United States ought to be pursuing. That is 
a dated reference. Since the time that was drafted, there have 
been prospects of alternative routes that are positive, not 
involving Libya. I understand that that was a concern. I 
understand there has been some progress in Asmira; there has 
been some progress in some other opportunities perhaps 
involving Egypt.
    So I am asking that we drop five, which says that it is the 
sense of Congress that the best route is through the IGAD 
process in Nairobi and that the President should not create any 
process or diplomatic facility or office which could be viewed 
as a parallel or competing diplomatic track, because it may not 
be in the best interests of peace and settlement that we solely 
support IGAD. I leave in 5a and C, having consulted with 
Chairman Smith, because I don't wish to say there is anything 
wrong with IGAD, it just shouldn't be exclusive.
    I yield to my friend from New Jersey.
    Mr. Smith. I thank my friend for giving us advance notice 
about his intentions and for narrowing it to just section B. 
Because IGAD is certainly one viable route, but as he has 
pointed out, events have overtaken the text of the resolution. 
So I think it is a very timely deletion from the underlying 
resolution, and I thank him for it.
    Mr. Bereuter. Would the gentleman yield?
    Mr. Campbell. I yield.
    Mr. Bereuter. I just wonder if you could tell me if the 
Chairman of the Africa Subcommittee has had a chance to see 
this and has an opinion about it?
    Mr. Campbell. I have expressed it to him and I am confident 
that he will support it, but I cannot put words in his mouth.
    Mr. Bereuter. Is the gentleman in the anteroom?
    Mr. Campbell. Mr. Chairman, I yield to the Chairman of the 
Africa Subcommittee on the question of my amendment where I am 
attempting to strike the reference to IGAD as the only peace 
process to be followed.
    Mr. Royce. I am in concurrence. As originally marked up in 
our Subcommittee, we did not have that narrowly constricted 
language, and I agree with the gentleman from California.
    Mr. Bereuter. Thank you.
    Chairman Gilman. Are any other Members seeking recognition 
on the Campbell amendment?
    Mr. Payne.
    Mr. Payne. Yes. I will note and support that. Of course 
perhaps IGAD was put in because currently IGAD is the only 
official organization that was dealing, specifically over the 
last 3 or 4 years, with the process of attempting to come up 
with a solution. But I would accept the amendment of the 
gentleman from California.
    Chairman Gilman. Is any other Member seeking recognition?
    If not, the question is on the amendment. All in favor 
signify in the usual manner, opposed. The amendment is agreed 
to.
    I recognize Mr. Campbell on his second amendment.
    Mr. Campbell. Mr. Chairman, I have one other amendment.
    Chairman Gilman. The Clerk will distribute the amendment, 
and the Clerk will read the amendment.
    Ms. Bloomer. ``Amendment to S. 1453 offered by Mr. 
Campbell. Strike all and insert the following:''
    Chairman Gilman. Without objection, the amendment is 
considered as having been read.
    [The amendment appears in the appendix.]
    Chairman Gilman. Mr. Campbell is recognized for 5 minutes 
on the amendment.
    Mr. Campbell. Mr. Chairman, in respect of the hour and the 
fact that so many have already heard the debate here, I will 
just summarize in less than I think a minute.
    This simply goes back to the Senate version, and the reason 
why is that only the Senate version has a chance of passage, 
because we will not have time for a conference in this 
Congress. So if we are interested in having a bill pass, only 
the Senate version will.
    Good people disagree. I heard my good friend from 
Colorado's point of view earlier. The difference, of course, is 
with sanctions. The Senate version does not involve sanctions.
    I have expressed my concern in the Subcommittee as to the 
effectiveness of sanctions in general and in this case 
specifically, but I leave the fundamental argument simply as 
this: If you wish a resolution to pass out of the Congress, 
then we really don't have much choice this year except to adopt 
the Senate language, which is what this amendment does. It is 
not my intention, Mr. Chairman, to call for a rollcall on this. 
With that, I yield back.
    Chairman Gilman. Is any other Member seeking recognition?
    If not, all in favor of the Campbell amendment signify by 
saying aye; opposed, no.
    Mr. Payne. Mr. Chairman, if you would yield, I was really 
trying to get your attention and wanted to say that if we go 
back to the Senate language in which the sanctions were gutted 
and taken out, then for all intents and purposes, we have a 
very diluted bill. I mean, that was why I even opposed my 
colleague from New Jersey, Mr. Menendez, who I think perhaps 
was disturbed. But then if I knew that this was going to be the 
case, I wouldn't have been silent with my good friend.
    So this simply gives us a bill with no sanctions. I can 
understand maybe the difficulty of getting the bill through, 
but I don't know where this leads us at this time.
    Mr. Smith. Will the gentleman yield?
    Mr. Payne. Yes.
    Mr. Smith. Just for the record, I offered the amendment to 
reinsert these sanctions during a markup in the Subcommittee on 
International Operations. I think it is absolutely vital that 
we stand in this case shoulder to shoulder with the 
Administration, suggesting that there is going to be absolutely 
no diminution of our resolve. The peace sanctions are 
necessary. Sanctions never work in a day, but we have a 
genocide going on, as you know, and have spoken out so 
eloquently about. We need to state clearly and unambiguously 
our support for this. I would hope that Members would vote down 
the amendment of my good friend, Mr. Campbell, well intentioned 
though he always is.
    Mr. Tancredo. Will the gentleman yield? Taking the 
sanctions out of this bill is providing false hope, which is 
worse than doing nothing at all. We have done that to the 
Sudanese time after time after time. Do not pretend that 
something has happened if we pass a piece of legislation 
without the teeth of sanctions, because we all know it will be 
status quo. That is worse than this government taking no 
action. It is worse to create false hope. And I certainly 
oppose the amendment.
    Chairman Gilman. The Chair is in doubt on the rollcall, on 
the last vote on the amendment. Can we have a vote by a show of 
hands? All in favor of the amendment signify by a show of 
hands. Please raise your hands. All opposed please raise your 
hands.
    The noes have it..
    The Chair will entertain a motion by the gentleman from 
Nebraska, Mr. Bereuter.
    Mr. Bereuter. If there are no further amendments, then I 
move that the Chairman request to seek consideration of the 
pending measure on the suspension calendar.
    Chairman Gilman. The question is on the motion of the 
gentleman from Nebraska.
    Those in favor of the motion signify by saying aye, those 
opposed, say no. The ayes have it. The motion is agreed to.
    Without objection, the Chair or his designee is authorized 
to make motions under rule 22 with respect to a conference on 
the bill, the counterpart for the Senate.
    I understand we have one vote on the floor, which will be 
the last vote of the day. Please return and we will try to 
conclude our agenda as rapidly as possible. The Committee 
stands in recess.
    [Recess.]
    Chairman Gilman. The Committee will come to order.


    H. CON. RES. 414--RELATING TO REESTABLISHMENT OF REPRESENTATIVE 
                       GOVERNMENT IN AFGHANISTAN


    Chairman Gilman. While we are waiting for Members to 
return, we will take up one of our quicker resolutions. We will 
now consider H. Con. Res. 411, which is now renumbered H. Con. 
Res. 414, relating to Afghanistan. The Chair lays the 
resolution before the Committee. The Clerk will report the 
title of the resolution and distribute the resolution.
    Ms. Bloomer. ``H. Con. Res. 414, a resolution relating to 
the reestablishment of representative government in 
Afghanistan.''
    Chairman Gilman. Without objection, the first reading of 
the resolution will be dispensed with.
    [The resolution appears in the appendix.]
    Chairman Gilman. Without objection, the Clerk will read the 
preamble text of the resolution in that order for amendment.
    Ms. Bloomer. ``Whereas Afghanistan has existed as a 
sovereign nation since 1747, maintaining its independence, 
neutrality and dignity.''
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and is open for amendment at any 
point.
    I now recognize the gentleman from California, Mr. 
Campbell, the sponsor of the resolution, to introduce it to the 
Committee. The gentleman is recognized for 5 minutes.
    Mr. Campbell. Mr. Chairman, thank you so much for your 
accommodation. The bill is sponsored by myself and Members of 
this Committee, including Mr. Lantos, Mr. Rohrabacher, Mr. 
Royce, Mr. Bereuter.
    It simply calls to attention the efforts by the former king 
of Afghanistan to convene an emergency Loya Jirgah, which is a 
traditional Afghanistan assembly for the sake of possibly 
adding to the resolution of the war and difficulties in that 
country. The Administration has informed me of their support, 
and I read Mr. Inderferth's testimony before our Committee to 
say we are encouraged by the efforts of the Afghans around the 
world to contribute to the search for peace in group meetings 
in Rome, Cypress, Bonn and elsewhere. Many advocate the 
convening of a Loya Jirgah or grand council of Afghan leaders 
to forge a new national accord.
    There is nothing further in that resolution, and I urge its 
support.
    Chairman Gilman. Thank you, Mr. Campbell. Any other Members 
seeking recognition?
    Mr. Bereuter.
    Mr. Bereuter. Mr. Chairman, I want to speak in support of 
it. There is much that can be said about the terrible situation 
in Afghanistan. I think all of my colleagues are generally or 
very specifically aware of it. But the terrorism that is 
generated from that country and the haven for terrorists that 
it has become, including Osama bin Ladin, certainly should 
catch our attention.
    A number of Afghans around the world have looked to 
Afghanistan's history, and they seek the king to convene the 
grand council or the Loya Jirgah. This is a forum whereby 
leaders from around Afghanistan would be allowed to air their 
views and resolve their differences.
    I don't know whether this effort is going to succeed. The 
odds are against it. Secretary Inderfurth has spoken, as 
mentioned by Mr. Campbell, in support of it. The Administration 
supports it. I am pleased to be cosponsoring this initiative by 
our colleague, the distinguished gentleman from California. I 
think it is worth trying. I am pleased about the initiative, 
and I commend the gentleman for pursuing this effort.
    Chairman Gilman. Thank you, Mr. Bereuter.
    Are any other Members seeking recognition?
    Mr. Rohrabacher. Mr. Chairman, I have an amendment.
    Chairman Gilman. Before that, let me speak on the general 
debate.
    I want to commend Mr. Campbell for crafting this important 
initiative, and I strongly endorse H. Con. Res. 414, 
legislation expressing the sense of Congress that the United 
States supports the former Afghan king Mohammed Zahir Shah's 
initiative to convene an emergency Loya Jirgha or Grand 
Assembly to establish a democratic government in Afghanistan. I 
also want to praise Congressman Rohrabacher, the gentleman from 
California, for his expertise regarding Afghanistan and the 
Loya Jirgah process.
    During times of Afghan national crises, it is traditional 
to hold a Grand Assembly to democratically consider means and 
methods to tackle significant problems. The power behind the 
Loya Jirgah is its assurance that all groups within Afghanistan 
will be equally represented in an historic effort to resolve 
the crises at hand. Our nation should be actively supporting 
that effort in every way possible.
    The Taliban, which currently rules over much of 
Afghanistan, has turned that nation into a major worldwide 
supplier of heroin. It also exports terrorism and religious 
extremism.
    As the Taliban has extended its hold over Afghanistan, it 
has grown increasingly extremist and anti-Western, its leaders 
proclaiming that virtually every aspect of western culture 
violates their version of Islam.
    In addition to restrictions against women, such as barring 
them from holding jobs or traveling unaccompanied by a male 
relative, ancient and cruel forms of punishment, such as 
stoning, have been revived. There are reports of massive ethnic 
killings and starvation.
    The evolution of the Taliban bears a fearsome resemblance 
to the murderously fanatical and purist Pol Pot regime in 
Cambodia.
    The Taliban also continues to give refuge to Osama bin 
Ladin, the Saudi terrorist who plots against American citizens.
    Distressingly, Taliban leaders who have made narcotics the 
economic base of their regime view the drug trade itself as a 
potential weapon. Views of the West and many pro-Western 
countries by the Muslim world as being corrupt, the Taliban 
have no compunction about trafficking in narcotics.
    Our government must get firmly behind the Grand Assembly 
process so that Afghanistan can begin again to play a 
constructive role in the world and the Afghan people can once 
again live in peace.
    Accordingly, I urge our colleagues on the Committee to 
support H. Con. Res. 414.
    Is any Member seeking recognition? Mr. Rohrabacher, for an 
amendment.
    Mr. Rohrabacher. I have an amendment at the desk.
    Chairman Gilman. The Clerk will report the amendment, and 
the Clerk will distribute the amendment.
    Ms. Bloomer. ``Amendment offered by Mr. Rohrabacher, on 
page 2, in the Resolved section, replace Clause (1) with: (1) 
supports democratic efforts that respect the human and 
political rights of all----''
    Chairman Gilman. Without objection, the amendment is 
considered as having been read.
    [The amendment appears in the appendix.]
    Chairman Gilman. Mr. Rohrabacher is recognized for 5 
minutes on the amendment.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. This 
amendment does not in any way alter the fundamental purpose of 
Mr. Campbell's bill. In fact, Mr. Campbell, I think I can say 
supports the changes. It does nothing but strengthen them, and 
what, in essence, the changes this amendment would bring about 
actually add just the concept that the Loya Jirgah is not an 
end in itself. The Loya Jirgah would lead to a democratic 
process that would permit the people of Afghanistan eventually 
to determine their own destiny through a free and democratic 
electoral process. This is what, in the end, will actually 
change the situation in Afghanistan. The king, and I know the 
king very well--I have met him on many occasions--is not 
seeking a Loya Jirgah in order to reestablish monarchy in 
Afghanistan. If that were the case, I am sure Mr. Campbell, 
being a Republican and not a monarchist, would not be 
supporting this bill. But the fact is the king agrees that the 
Loya Jirgah should be the process in which a transition 
government is established, which will then lead to a democratic 
process of elections in Afghanistan.
    One last thought, Mr. Chairman, and that is, I am sorry to 
have to assert this, and I will assert this on the floor of the 
House as well. I am sorry, but I have made it my life to know 
what is going on in Afghanistan, and after years of trying to 
talk to this Administration about our policy, as an honest 
person and one with some expertise in this area, I have to tell 
you that I have concluded that this government of ours, that 
this Administration, has been covertly supporting the Taliban 
for years. I make that charge not with glee, but with, just 
with sadness in my heart.
    After 2\1/2\ years of trying to get documents from the 
State Department, and 2 years after the Secretary of State 
promised us personally in this room to have the documentation 
of the fundamentals of American policy toward Afghanistan made 
available to us, those documents have still not been made 
available to us, 2 years after she made the commitment, 2\1/2\ 
years after us trying to assert our rightful claim to have an 
oversight authority in this area. This, plus many other things, 
especially the Taliban offensives that have accompanied Mr. 
Inderfurth's trips to south Asia and to that area of the world 
and the advances that have been made by the Taliban after each 
and every trip Mr. Inderfurth made to Pakistan, leads me to 
conclude that this Administration has been supporting this 
despicable, antiwoman, antihuman regime that harbors terrorism 
and is again involved with drugs and repression.
    This amendment today, Mr. Campbell's underlying bill and 
this amendment, put us on record as taking the higher road and 
that Congress believes that the people of Afghanistan have a 
right to control their destiny through free elections and need 
some peace in this world after 20 years of turmoil. Thank you 
very much.
    Chairman Gilman. Are there any other Members seeking 
recognition?
    If not, the consideration before us is the Rohrabacher 
amendment. All in favor signify in the usual manner by saying 
aye; opposed, no.
    The amendment is agreed to.
    Are there any other further amendments?
    If there are no further amendments, the previous question 
is ordered on the resolution.
    Without objection, the gentleman from Nebraska is 
recognized to offer a motion.
    Mr. Bereuter. Mr. Chairman, I move the Chair may request 
and seek consideration of the pending measure, as amended, on 
the suspension calendar.
    Chairman Gilman. The question is on the motion of the 
gentleman from Nebraska. All those in favor of the motion 
signify by saying aye; those opposed say no. The ayes have it. 
The motion is agreed to. Further proceedings on this matter are 
postponed.
    We will now take up another measure out of order at the 
request of Mr. Smith, who has to leave.


     H. CON. RES. 382--CALLING ON AZERBAIJAN TO HOLD FREE AND FAIR 
                        PARLIAMENTARY ELECTIONS


    Chairman Gilman. We will now take up H. Con. Res. 382, 
calling on the government of Azerbaijan to hold free and fair 
parliamentary elections in November 2000.
    The Clerk will report the title of the resolution.
    Ms. Bloomer. ``H. Con. Res. 382, a resolution calling on 
the government of Azerbaijan to hold free and fair 
parliamentary elections in November 2000.''
    Chairman Gilman. Without objection, the first reading of 
the resolution will be dispensed with.
    [The resolution appears in the appendix.]
    Chairman Gilman. Without objection, the Clerk will read the 
preamble and text of the resolution in that order for that 
amendment.
    Ms. Bloomer. ``Whereas Azerbaijan has been a participating 
state----''
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and is open for amendment at any 
point.
    I now recognize Mr. Smith, the gentleman from New Jersey, 
to introduce it to the Committee. The gentleman is recognized 
for 5 minutes.
    Mr. Smith. Mr. Chairman, I do have an amendment at the desk 
in the nature of a substitute.
    Chairman Gilman. The Clerk will report the amendment. The 
Clerk will the read the amendment. The Clerk will distribute 
the amendment.
    Ms. Bloomer. ``An Amendment in the nature of a substitute 
offered by Mr. Smith. Strike the preamble and insert the 
following:''
    Chairman Gilman. Without objection, the amendment is 
considered as having been read.
    [The substitute amendment appears in the appendix.]
    Chairman Gilman. Mr. Smith is recognized on his amendment.
    Mr. Smith. Thank you very much, Mr. Chairman.
    This amendment in the nature of a substitute is being 
offered for one reason: to urge the government of Azerbaijan to 
hold free and fair parliamentary elections on November 5th, 
less than 5 weeks away.
    President Aliev has often pledged to hold free and fair 
elections, but Azerbaijan's record is poor. In fact, the 
Helsinki Commission, which I chair, conducted a hearing on May 
25 concerning the upcoming elections, and the progress, or more 
accurately stated, the lack of progress in building a 
democratic environment, and the violation of human rights in 
Azerbaijan.
    The three elections, Mr. Chairman, that have been held 
since 1995 have not met OSCE standards. These flawed elections 
have deepened the distrust between the government and the 
opposition, undermining prospects for establishing democratic 
institutions and resolving the Nagorno-Karabakh conflict and 
promoting peaceful, predictable transfers of power.
    The parliamentary elections due to be held next week offer 
the opportunity to demonstrate the Azerbaijani government's 
commitment to democracy and to overcome tension between the 
government and the opposition and within Azerbaijani society. 
Unfortunately, Azerbaijan has refused to incorporate 
substantive suggestions made by the OSCE's Office of Democratic 
Institutions and Human Rights into its election law, which do 
not correspond to the OSCE standards. As a matter of fact, Mr. 
Chairman, when we held this hearing on the upcoming elections, 
many of us were cautiously optimistic that there might be some 
progress. Regrettably, that progress has failed to materialize.
    Azerbaijan's Central Election Commission has recently 
excluded several parties, including major opposition parties, 
claiming signatures were falsified or otherwise invalid. This 
claim is based on the same flawed methodology employed in the 
1995 parliamentary election. The OSCE and the U.S. Government 
have criticized the exclusion of these parties and repeatedly 
has called upon Azerbaijan to bring its election law into 
correspondence with internationally recognized OSCE norms. The 
exclusion of major opposition parties will clearly undermine 
confidence in the election results in Azerbaijan and the 
international community, and threatens to continue the pattern 
of flawed elections in Azerbaijan.
    This resolution again calls on the government and the 
parliament of Azerbaijan to bring its legislative framework up 
to the OSCE standards, not to exclude opposition parties on the 
basis of flawed methodologies without giving them a chance to 
prove the veracity of their signatures and to create an 
environment conducive to the holding of free and fair 
elections.
    Mr. Chairman, the Helsinki Commission will hold additional 
hearings. This hearing that we held, as I mentioned earlier, 
had a varied cross-section of panelists, including Ambassador 
Daniel Fried, who represented the Administration very ably; 
Clifford Bond; and we even had the Azerbaijani Ambassador, 
Ambassador Pashayev, who gave the government's point of view; 
and then we heard from several of the opposition party 
spokesmen who gave us, again, some very, very compelling 
testimony.
    So I do hope that the Committee will pass this resolution 
so that they know exactly where we are coming from in our hopes 
that there will be a free and fair election.
    Chairman Gilman. Thank you, Mr. Smith. Are any other 
Members seeking recognition on this resolution?
    If not, I yield myself such time as I may consume.
    The United States has a growing relationship with the 
Republic of Azerbaijan, one of the Newly Independent States of 
the former Soviet Union. That relationship obviously has a 
great deal to do with Azerbaijan's geopolitical position, given 
its location between Russia, Iran and Turkey, and also has much 
to do with its potentially huge energy reserves.
    But that relationship also has to focus on the expansion of 
a truly democratic government with Azerbaijan if it is to prove 
enduring and if it is in the benefit of the Azeri people over 
the long term.
    Much has been accomplished over the past 9 years in 
building a new independent state in Azerbaijan.
    This resolution introduced by my colleague from New Jersey, 
Mr. Smith, points out those things that the Azeri leadership 
has recently done that conflict with the need to move toward 
truly democratic government, and points out the steps it needs 
to take to get back on the real road to democracy.
    The parliamentary elections to be held in Azerbaijan next 
month are an important milestone on the road to democracy in 
that country. I support the passage of this resolution, making 
it clear that our Nation expects the Azeri leadership to ensure 
that they are truly free and fair.
    I ask that my full statement be made a part of the record.
    [The prepared statement appears in the appendix.]
    Chairman Gilman. Is there any other Member seeking 
recognition?
    If not, the gentleman from Nebraska, Mr. Bereuter is 
recognized to offer a motion.
    Mr. Bereuter. Mr. Chairman, I move that the Chair may 
request to seek consideration of the pending measure, as 
amended, on the suspension calendar.
    Chairman Gilman. The question is on the motion of the 
gentleman from Nebraska. As many as are in favor of the motion 
signify in the usual manner. Opposed, no. The ayes have it. The 
motion is agreed to.
    The Chair is deemed to be instructed to make motions under 
rule 22 of this measure, a companion from the Senate. Further 
proceedings on this measure are postponed.


H. RES. 588--CONCERNING VIOLATIONS OF PROVISIONS OF THE HELSINKI FINAL 
                                  ACT


    Chairman Gilman. We will now take up resolution H. Res. 
588, expressing the sense of the House with respect to 
violations in Western Europe of provisions of the Helsinki 
Final Act.
    The Chair lays the resolution before the Committee. The 
Clerk will report the title of the resolution.
    Ms. Bloomer. ``H. Res. 588, a resolution expressing the 
sense of the House of Representatives with respect to 
violations in Western Europe of provisions of the Helsinki 
Final Act and other international agreements relating to the 
freedom of individuals to profess and practice religion or 
belief.''
    Chairman Gilman. Without objection, the first reading of 
the resolution will be dispensed with.
    [The resolution appears in the appendix.]
    Chairman Gilman. Without objection, the Clerk will read the 
preamble and the text of the resolution in that order for 
amendment.
    Ms. Bloomer. ``Whereas under article 18 of the Universal 
Declaration of Human Rights, everyone has the right to 
freedom----''
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and is open for amendment at any 
point.
    I now recognize the gentleman from Arizona, Mr. Salmon, the 
sponsor of the resolution, who has an amendment.
    Mr. Salmon. Mr. Chairman, I have an amendment in the nature 
of a substitute at the desk.
    Chairman Gilman. The Clerk will read the amendment. The 
Clerk will distribute the amendment.
    Ms. Bloomer. ``Amendment in the nature of a substitute 
offered by Mr. Salmon. Amend the preamble to read as follows.''
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and is open for amendment at any 
point.
    [The amendment appears in the appendix.]
    Chairman Gilman. I now recognize the gentleman from 
Arizona, Mr. Salmon, to speak on his amendment for 5 minutes.
    Mr. Salmon. Thank you, Mr. Chairman.
    I appreciate the opportunity to talk on this measure. First 
I might say that I appreciate the Democrats working with me to 
craft this substitute motion. I believe that this piece of 
legislation is fair, it is responsible, it covers a broad range 
of problems in terms of religious freedom and the persecution 
of certain religious minority groups, and I know that is one of 
the things that has stirred up some controversy in the past.
    At the outset, I would like to thank Karen Lord of the 
Helsinki Commission, and Hillel Weinberg of the Full Committee 
for their hard work in helping to draft this resolution for 
markup today.
    Unfortunately, government discrimination against minority 
groups and individuals in Western Europe based on religion or 
belief continues to persist. Such discrimination has been 
documented in several State Department human rights reports and 
U.N. reports. This discrimination takes place at the national 
and local levels of government and has included the denial of 
business licenses, the exclusion from government employment and 
political parties, and the prevention of performances or 
exhibitions by minority religions. Religious and minority 
discrimination appears to be permeating in European countries 
like France, Belgium, Austria and Germany.
    For example, in Belgium, the most recent international 
Helsinki federation report mentions that religious minorities 
in Belgium have been subjected to various forms of harassment 
and other human rights violations, such as slander, anonymous 
threats, loss of jobs, bomb threats, and denial of room rental 
for religious ceremonies.
    In France, the French National Assembly passed a bill that 
would restrict the free expression, growth and development of 
173 ``blacklisted'' religious groups including, but not limited 
to, Jehovah's Witnesses, Scientologists, Opus Dei, Muslims, 
Unificationists, and certain denominations of Orthodox Judaism. 
Furthermore, this bill would imprison religious proselytizers 
for up to 2 years for mental manipulation of the public.
    Another example took place in Austria. The 1999 U.S. 
Department of State Annual Report on International Religious 
Freedom stated that the conservative Austrian people's party 
formally accepted a decision that the party membership is 
incompatible with membership in a sect. This policy led to the 
resignation of a local party official.
    Lastly, Germany continues to engage in discriminatory trade 
practices by using a sect filter to ensure that a firm is not 
affiliated with a certain religion or belief before granting a 
contract to them. We heard testimony in this Committee a couple 
of months ago regarding a certain vendor that provides services 
to Microsoft, and we remember the problems that we are having 
there.
    It is time that this blatant discrimination came to a stop. 
I, along with my colleagues, Mr. Payne and Mr. Gilman, have 
introduced resolution 588, which expresses the sense of the 
House relating to the freedom to profess and practice religion 
or belief in Western Europe. The resolution also documents 
several of the examples I have just discussed.
    I urge my colleagues to vote yes on Resolution 588, and I 
would like to also call to your attention letters sent to 
Chairman Gilman by several religious leaders supporting my 
resolution and urging its adoption. If I could, without 
objection, I would like to enter them into the record.
    Chairman Gilman. Without objection.
    Mr. Salmon. These letters encourage the passage of this 
resolution, because these religious leaders recognize, as we 
have, that this is a serious problem. As you can see, there are 
all kinds of organizations from those that represent the 
Catholic religion to the Jewish religion to the family research 
council. So there are many, many groups that have recognized 
the problem.
    I have another letter from a group called the Religious 
Action Center of Reformed Judaism which also supports the 
passage of this resolution.
    [These letters appear in the appendix.]
    Mr. Salmon. I would like to close by quoting a very, very 
profound and moving quote that is inscribed on the second floor 
at the end of the permanent exhibit in the Holocaust Museum.

          ``First, they came for the socialists. I was not a 
        socialist. I did not speak out. Then they came for the 
        trade unionists. I was not a trade unionist, so I did 
        not speak out. Then they came for the Jews and I did 
        not speak out because I was not a Jew. Then they came 
        for me, and there was no one left to speak for me.''

That is pastor Martin Nemor.
    I know that some have said, why in the world would we want 
to say something about problems with our friends. We should 
only be beating up on our so-called enemies. But let me quote 
to you in the letter that was sent to Chairman Gilman by these 
religious leaders, a quote that I think is very, very 
appropriate.

          ``If we do not halt this antireligion movement in 
        Eastern Europe, particularly in liberal democratic 
        states like France, what right do we have to criticize 
        nonwestern countries whose policies do not measure up 
        to our own standards of religious freedom? Should the 
        American community of faith not be concerned that the 
        government of France, like that of Communist China, 
        will not discuss issues of religious liberty with the 
        United States Government. If we can't talk to our 
        friends, who can we talk to?''

    Mr. Chairman, I encourage the adoption of this measure. It 
is something that has been debated over the last 3 years. I 
know because I have been involved in all of those debates. I 
know when I have gone to OSCE meetings to the various 
participating countries it is an issue that we have constantly 
brought up, yet the problems still persist. If we truly are 
about religious freedom in this country and we serve as a 
beacon for the rest of the world, if we are that light on the 
Hill that President Reagan once talked about, then let's be the 
light on the Hill. Let us stand up for religious liberty 
throughout the entire world.
    I yield back the balance of my time.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman. I would say to the 
gentleman from Arizona, I was relieved to find when I first 
began to examine your bill that this was not a traditional 
scientology resolution with all of its defects and 
inaccuracies. I want to ask you to make sure I am addressing 
the right one. Are we talking now about H. Res. 588? Is that 
the one we have before us?
    Mr. Salmon. Yes.
    Mr. Bereuter. I have a number of specific questions, if I 
could just go over them line by line with you, and these are 
reports from various people, mostly international 
representatives from some of the European countries involved 
here.
    On page 3, the whereas clause that begins about 10 lines 
down, with respect to the French National Assembly, we were 
told by State just as a matter of accuracy that the National 
Assembly has not yet passed the bill and they would say it is 
under consideration. I wonder if you know if, in fact, that is 
accurate?
    Mr. Salmon. My understanding--yes, it did pass the House, 
and it is under consideration in the Senate, so it has not 
passed both bodies.
    Mr. Bereuter. But it has passed the assembly?
    Mr. Salmon. Right.
    Mr. Bereuter. That is your understanding?
    Mr. Salmon. Correct.
    Mr. Bereuter. Well, then, perhaps State is wrong or that is 
now out of date.
    Also on that same page, with respect to the French National 
Assembly, the State Department indicates that the Seventh Day 
Adventists should not be on that list. I don't have any 
knowledge one way or another.
    Mr. Salmon. Could you repeat the question?
    Mr. Bereuter. That on the list on the last whereas clause 
on number 3, our State Department says that Seventh Day 
Adventists should not be listed there.
    Mr. Salmon. They are not on the list. They are not on the 
list of the 173. If you read the statement as it is written, it 
does not say they are part of that list. It says that--let me 
see, ``whereas in 1996, French National Assembly report listed 
173 organizations as suspect, including,'' and it goes through 
and lists those groups. And then it says, ``and official 
entities harass, intimidate, deny employment.'' That is not 
continuing with the list.
    Mr. Bereuter. I see your point. So you believe that the 
second reference is accurate?
    Mr. Salmon. That is correct.
    Mr. Bereuter. Okay. On page 5, the whereas clause that 
begins ``whereas Scientologists''--this is a matter of 
interpretation and I would just like your clarification. At 
least the German Government suggests that the German Government 
is not orchestrating boycotts in Germany. Now, your legislation 
does not say that, although they are concerned about the 
implications, so I would just like your clarification. There 
may well be orchestrated boycotts. But you are saying the 
German Government is, in no way, involved in orchestrating such 
boycotts? Is that consistent----
    Mr. Salmon. Yes, it does not refer to a boycott perpetrated 
by the German Government. It simply says boycotts. And to my 
knowledge, that is the same information that we have gotten as 
well, that there is no governmental entity that is actually 
overtly instigating any kind of boycotts.
    Mr. Bereuter. On the top of page 4, Mr. Salmon, this could 
be clarified, just a minor point. The Austrian law, somehow we 
believe it was enacted in 1998, but that is just a minor point. 
That can be collected, I gather. You may be right.
    I thank the gentleman for his responses to these questions. 
One of the concerns that I have had--and I know various 
governments in Europe have had--is related to their subsidy of 
church bodies and the treatment by the State or various levels 
of their government with respect to subsidies paid to the 
churches. They are particularly concerned in some cases, for 
example, in Germany, since they do subsidize the recognized 
churches, that subsidies do not flow to churches that they do 
not recognize as religions, but contend that they do not, 
thereby, justify, or in any way condone discrimination against 
it.
    Is there anything in your legislation that you think is 
addressing the tax issue appropriately or inappropriately?
    Mr. Salmon. This legislation is silent on any 
recommendations as far as tax policy of other countries. It is 
not our intent to step in and tell these countries who they are 
to give the subsidy to or who they are not. There is no 
language on that.
    Mr. Bereuter. Mr. Salmon, thank you very much for your 
responses. I yield back.
    Chairman Gilman. Thank you, Mr. Bereuter.
    Mr. Payne.
    Mr. Payne. Thank you very much. Let me commend Mr. Salmon 
for the outstanding job that he did, of course, as a cosponsor. 
We worked diligently on this legislation. I am glad that it is 
broadened enough so that those who had specific problems with 
the fact that we talk about religious persecution and have 
included Scientologists, that now seems to be put down further 
in the resolution, and therefore, finds less objection. I 
thought that the resolution, as it stood for the last 4 or 5 
years, should have been passed, but I was in the minority, and 
of course it was not.
    So I am pleased that with this broadening and widening and 
including of 189 groups, we could finally get some resolution 
passed. We should certainly, though, seriously be against 
intolerance everywhere, and we are finding that there is more 
and more of it growing in the world. It seems like as the world 
moves to sort of a one-body, one-Europe, you know, almost one 
North America with NAFTA and all that, we are finding that 
intolerance is on the increase and it doesn't make sense--not 
religious intolerance, racial intolerance, intolerance for 
sexual preference.
    So I hope that this resolution passes. I think that it 
certainly expresses the sense of the House with respect to the 
violations in Western Europe. We certainly have been critical 
of ourselves and we still need legislation here in the United 
States to protect minorities and others also. So we are not 
doing something that we are looking over there and not over 
here. So once again, I would like to commend Mr. Salmon and I 
strongly support the resolution, I support the broadening of 
it, I support the inclusiveness of it, and I would hope that we 
would be able to have this resolution passed.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Payne.
    Dr. Cooksey.
    Mr. Cooksey. Thank you, Mr. Chairman.
    I have some concerns about a trend that I have seen on this 
Committee. It seems that every week, we spend an inordinate 
amount of time on another resolution going over something that 
maybe makes everyone on the Committee feel good about 
themselves and the greater worth about what they are doing; but 
at the same time, we are ignoring present day problems--the 
history of the 20th century. In the 20th century, apparently 
there was genocide by the Ottoman Turkish Empire, and we have 
spent 10 hours discussing that.
    The history of the Nazis and the Holocaust is well-known. 
Stalin killed 11 million Ukrainians, or some large number. We 
have our Trail of Tears in the United States that we seem to 
ignore, and Congress existed when this occurred and Congress 
participated in it. And this Congress, in this Administration, 
sat by on our hands when hundreds of thousands of people were 
killed in Rwanda, Burundi, the Congo, and more recently in 
Sierra Leone.
    So today, we are telling four European countries, Austria, 
Belgium, France, and Germany how to run their government, how 
to treat their religions. At the same time, if they were to 
tell us how to run our government, how to run our Congress, how 
to manage our relations with religion, I am sure we would 
resent it, and properly so.
    I am convinced that God will indeed judge us by our deeds 
as individuals, and I don't think God is going to judge us on 
our mixing politics and religions. That was one of the 
foundations of this country. So I am opposed to this piece of 
legislation. I don't really think it serves any purpose.
    I would point out in relation to Scientology, which has 
been a nagging problem for this Congress every year and it is 
always defeated, this Administration, once they came into 
office in 1993, was the first time Scientology had ever been 
recognized. That was in 1993. So how can we criticize Germany 
for not recognizing Scientology when our Administration made 
probably a political decision on a group that I know has a 
history of preying on elderly, perceived wealthy little widows, 
and apparently preys on some people in the entertainment 
industry that are not smart enough to do anything else but be 
entertainers.
    So I really am opposed to this and do not think it serves 
any useful purpose. I think that if we are going to do 
something useful or meaningful, we need to address some of the 
problems of infectious disease around the world, some of the 
problems of current day human rights abuses. Because I don't 
really think anyone is suffering in Austria or Belgium or 
France or Germany to the extent that it has been brought up 
today.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Dr. Cooksey. Are any other 
Members seeking recognition?
    Mr. Campbell.
    Mr. Campbell. Very briefly, to my good friend from 
Louisiana in particular, I read the resolution and I think it 
is a correct statement of the Rules of the House that we do not 
enact the whereas clauses. That is to say the whereas clauses, 
they are not numbered, they don't become part of law, and I 
tell you why I say that, because the resolution starting at 
page 6 with the lines that are numbered do not, in my judgment, 
carry any of the dangers that the gentleman from Louisiana 
observed, which are entirely contained in the whereas clauses.
    Now, that is not to say that a friend looking at our 
actions overseas will treat that difference with the same 
respect that a student of statutory construction would here in 
the United States. But I don't find anything objectionable in 
the enacting clauses, the therefore clauses, and I would yield 
to my good friend from Louisiana, if there is any aspect there 
that you would like to identify, and then would I yield 
whatever time I have back to the author of the resolution as 
well. But just for a second, if there is anything that you see 
on page 6 or 7 that you would like to draw attention to, I 
would be pleased to yield, and if not, I don't want to put you 
on the spot. I yield to you.
    Mr. Cooksey. I would ask the author if he would be willing 
to withdraw the whereas for the Scientology group.
    Mr. Campbell. I yield to Mr. Salmon.
    Mr. Salmon. I respectfully would decline to the gentleman. 
This is about religious inclusion for all of these various 
groups, and I don't want to diminish the bill in any way. I 
might also thank the gentleman for yielding. Every one of these 
countries, these 4 countries that are noted in this resolution 
cite international covenants in which they willingly signed and 
agreed to these international covenants. We are simply trying 
to put their feet to the fire and make sure that they adhere to 
them.
    I must respectfully disagree, if the gentleman from 
Louisiana does not agree that religious freedom is a human 
right. You stated that we should spend our time dealing with 
human rights issues. This country was founded on religious 
freedom. That is what we are about. The First Amendment to the 
Constitution of the United States is about religious freedom. 
That is why we came here. That is why the pilgrims originally 
came to this country, to escape religious discrimination. 
People of my faith have endured religious discrimination even 
in this country.
    Maybe the gentleman has never had to encounter that, but I 
have sat through hearing after hearing after hearing, and I 
have heard of multiple problems right now in Europe. It is a 
serious problem, and if we don't stand in this Congress for 
defending religious liberty, we have no right to speak on other 
things.
    In China, where we have had the PNTR vote, every year it 
comes up, we talk about the religious freedom issues in China. 
I do not think the gentleman from Louisiana believes that those 
are not very serious issues. They are very serious. To me, this 
is very, very important. I am sorry that you don't agree that 
it is an important issue to try to defend religious liberty 
worldwide, but I believe that that is a very fundamental part 
of what we are about here.
    Mr. Campbell. I will reclaim my time. My attempt to pour 
oil on troubled waters has failed. The whole idea of my 
intervention was to say, hey, nothing to disagree about on the 
enacting clauses, and instead, I am afraid I have made things 
worse; so I am going to withdraw, unless my friend from 
Louisiana wants to use the rest of my time.
    Mr. Cooksey. Why don't we drop the whereas on all of the 
different religions, all of them, without singling out any one.
    I am for religious freedom, but my point is, we are 
dwelling on this issue in these four European countries, and we 
are sitting on our hands while people are dying in Sierra 
Leone. I was there 2 months saying I saw it. You saw the abuses 
that have gone on there, that have gone on all over west Africa 
because we have one group that does not have the courage to do 
the right thing in west Africa and a group in our party that 
does not care, it seems. And this is true with the Kurds, in 
Iran, Turkey, Iraq. There are a lot of groups--I mean, what 
greater human right is there than the right to life?
    Mr. Salmon. If the gentleman would yield.
    Mr. Campbell. I reluctantly yield.
    Mr. Salmon. I do not disagree whatsoever. I think we are 
singing from the same sheet of music. I would be happy to work 
with the gentleman on any legislation that he would like to put 
forward on Sierra Leone or talk to the Administration, but I 
don't understand why it is not possible to do two goods. I am 
not responsible for the fact that we haven't taken up any 
legislation or any issues regarding Sierra Leone or defending 
life. I certainly agree with that. I don't oppose the 
gentleman. I simply am asking you to work with me on this one 
and I would be happy to work with you on the other. Thank you.
    Chairman Gilman. The gentleman's time has expired.
    I support the pending resolution. It is unfortunate that 
countries like those named in the preamble, which are so 
important as allies, and where liberty is, in general, so 
highly regarded, seem to have a blind spot when it comes to 
religious liberty.
    This is a carefully drafted resolution dealing with a 
problem that is widely recognized in the community of observers 
of religious liberty in this country. It is supported by 
representatives of diverse religious groups from southern 
Baptists to Sikhs. I have received letters in support of it 
signed by personalities ranging from the Interim Dean of the 
Catholic University Law School to Michael Novak of the American 
Enterprise Institute.
    Accordingly, I believe this measure deserves the support of 
all Members of the Committee and I urge its adoption. I ask 
unanimous consent to insert my full statement into the record.
    [The prepared statement appears in the appendix.]
    Chairman Gilman. Are there any other Members seeking 
recognition or seeking to offer amendments?
    If there are no further amendments, the previous question 
is ordered on the----
    Mr. Cooksey. Mr. Chairman.
    Chairman Gilman. Mr. Cooksey.
    Mr. Cooksey. I would like to request a recorded vote and I 
notice there is not a quorum here right now.
    Chairman Gilman. Are you making a point of order with 
regard to a quorum?
    Mr. Cooksey. Yes.
    Mr. Ackerman. Mr. Chairman.
    Chairman Gilman. Mr. Ackerman.
    Mr. Ackerman. Could I make a unanimous consent that we 
suspend further discussion on this bill until we complete the 
rest of the calendar and take this one up at the end?
    Chairman Gilman. A motion has been made to--a unanimous 
consent has been made. Is there objection to the unanimous 
consent request?
    Dr. Cooksey.
    Mr. Cooksey. Mr. Chairman, I would object.
    Chairman Gilman. Dr. Cooksey objects.
    Mr. Cooksey. I object to the unanimous consent request.
    Chairman Gilman. There is an objection to the unanimous 
consent request.
    The Chair will now----
    Mr. Ackerman. Mr. Chairman.
    Chairman Gilman. Yes, Mr. Ackerman.
    Mr. Ackerman. I make a motion to table the request of Mr. 
Cooksey.
    Chairman Gilman. A motion has been made to table the 
request.
    Mr. Bereuter. Could we have a clarification of 
parliamentary situation?
    Chairman Gilman. I am going to ask our counsel to set forth 
the parliamentary situation.
    Mr. Weinberg. Mr. Chairman, my understanding is that a 
point of order of no quorum was made by Dr. Cooksey, and I 
believe that there is no higher motion available such as a 
motion to table at this point. The Chairman would be obliged, I 
would advise the Chairman that he ought to count for a quorum 
and then we would establish whether or not we had a quorum 
present, following the normal procedure.
    Chairman Gilman. The Chair will count for a quorum.
    The Clerk will call the roll.
    Ms. Bloomer.  Mr. Gilman.
    Chairman Gilman. Aye , present.
    Ms. Bloomer.  Mr. Gilman votes aye.
    Mr. Goodling.
    [No response.]
    Ms. Bloomer. Mr. Leach.
    [No response.]
    Ms. Bloomer.  Mr. Hyde.
    [No response.]
    Ms. Bloomer.  Mr. Bereuter.
    Mr. Bereuter. Present.
    Ms. Bloomer.  Mr. Bereuter votes present.
    Mr. Smith.
    [No response.]
    Ms. Bloomer.  Mr. Burton.
    [No response.]
    Ms. Bloomer.  Mr. Gallegly.
    [No response.]
    Ms. Bloomer.  Ms. Ros-Lehtinen.
    [No response.]
    Ms. Bloomer. Mr. Ballenger.
    [No response.]
    Ms. Bloomer.  Mr. Rohrabacher.
    [No response.]
    Ms. Bloomer.  Mr. Manzullo.
    [No response.]
    Ms. Bloomer.  Mr. Royce.
    Mr. Royce. Present.
    Ms. Bloomer.  Mr. Royce votes present.
    Mr. King.
    [No response.]
    Ms. Bloomer.  Mr. Chabot.
    [No response.]
    Ms. Bloomer.  Mr. Sanford.
    [No response.]
    Ms. Bloomer.  Mr. Salmon.
    [No response.]
    Ms. Bloomer.  Mr. Houghton.
    [No response.]
    Ms. Bloomer.  Mr. Campbell.
    Mr. Campbell. Present.
    Ms. Bloomer. Mr. Campbell votes present.
    Mr. McHugh.
    [No response.]
    Mr. Cooksey. Mr. Chairman.
    Chairman Gilman. Dr. Cooksey.
    Mr. Cooksey. I would like to interrupt the quorum call for 
a second and yield to Mr.----
    Chairman Gilman. It is not in order, but are you 
withdrawing your request?
    Mr. Cooksey. I want to yield to Mr. Campbell, and then I 
want to make one more statement after his statement.
    Chairman Gilman. Well, it is not in order unless you want 
to withdraw the request for a quorum and then we can recognize 
you.
    Mr. Cooksey. Okay. I will withdraw my request for a quorum.
    Chairman Gilman. The gentleman has withdrawn his request 
for a quorum. I now recognize Dr. Cooksey.
    Mr. Cooksey. I ask unanimous consent to speak.
    Chairman Gilman. Without objection.
    Mr. Cooksey. Mr. Chairman, I want to go back and make the 
same point I made earlier. This Committee is spending too much 
time on resolutions like this, and I am not sure that we really 
help anyone out. I am sitting here right now with a news 
release about 5 Catholic priests that have died in Kenya, and I 
worked in Kenya off and on for 6 years. Why haven't we 
condemned the government of Kenya, why haven't we taken 
decisive action there? Taking someone's right to life, 
someone's life is a far greater human rights violation than 
what we have seen in these four European countries. I am 
convinced that we are not doing enough along these lines, and I 
think that we need to reconsider what we are doing----
    Mr. Ackerman. Will the gentleman yield?
    Mr. Cooksey. I would hope that next year when this Congress 
reconvenes and this Committee reconvenes, we will spend more 
time on worrying about people that have either lost their lives 
or are currently under the threat of losing their lives.
    I yield.
    Mr. Ackerman. I would just like to remind the gentleman 
that the Committee's intent to take up the resolution on Kenya 
doing exactly what you just said if we are allowed to continue 
without having a disruption of disbanding because of the 
possible suggestion of the lack of a quorum.
    Chairman Gilman. We will continue----
    Mr. Cooksey. Well, I have withdrawn my quorum call.
    Mr. Bereuter. Would the gentleman from Louisiana yield?
    Mr. Cooksey. Yes, I yield.
    Mr. Bereuter. I want to clarify my own position. I intend 
to vote for this resolution, and in fact will be voting to move 
it forward because of the work that Mr. Salmon has done. My 
concern is that this Member does not want to do anything to 
suggest that Scientology is a religion. But I look at the 
language here and it does say religion or belief. Certainly, 
people who are engaged in Scientology have a belief, and that 
gives me an opportunity to express my view without being 
opposed to the resolution. But I want it particularly clear 
that I do not consider this vote to be a concession on my part 
that Scientology is a religion. I thank the gentleman for 
yielding for that clarification for the record and to make 
myself feel comfortable about it.
    Chairman Gilman. Thank you, Mr. Bereuter. Are there any 
other Members seeking recognition? If not, if there are no 
further amendments and no further requests, I recognize the 
gentleman from Nebraska for a motion.
    Mr. Bereuter. Mr. Chairman, I move that the Chairman be 
requested to seek consideration of the pending resolution as 
amended on the suspension calendar.
    Chairman Gilman. The question is now on the motion of the 
gentleman from Nebraska. All those in favor signify in the 
usual manner; opposed. The ayes have it. And the resolution is 
agreed to.


           H. CON. RES. 361--COMMENDING THE REPUBLIC OF BENIN


    Chairman Gilman. We now move to H. Con. Res. 361 relating 
to Benin.
    The Chair lays the resolution before the Committee. The 
Clerk will report the title of the resolution.
    Ms. Bloomer. ``H. Con. Res. 361, a resolution commending 
the Republic of Benin.''
    Chairman Gilman. Without objection, the first reading of 
the resolution will be dispensed with.
    [The resolution appears in the appendix.]
    Chairman Gilman. Without objection, the Clerk will read the 
preamble and the text of the resolution in that order for 
amendment.
    Ms. Bloomer. ``Whereas in 1990 the Republic of Benin made a 
smooth transition from Marxist rule to constitutional 
democracy.''
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and open for amendment at any 
point.
    I now recognize the gentleman from New York, Mr. Ackerman, 
the sponsor of the resolution to introduce it to the Committee. 
The gentleman is recognized for 5 minutes.
    Mr. Ackerman. Thank you, Mr. Chairman. I want to thank you 
as well as Chairman Royce and Mr. Gejdenson and Mr. Payne for 
agreeing to consider this resolution.
    Too often, Mr. Chairman, the news we hear from west Africa 
is bad news. Civil unrest, human rights abuses, refugees, are 
the usual images that we see of Africa. So I am pleased that 
with this resolution, we can support a good news story in west 
Africa.
    Under the leadership of President Mathieu Kerekou, Benin 
has successfully transitioned into a vibrant constitutional 
democracy. As a result of the legislative elections in March 
1999, there are opposing parties controlling the executive and 
legislative branches of the government. Benin stands out as a 
true example of political pluralism, religious tolerance and 
respect for human rights. In fact, according to the State 
Department's Country Reports on Human Rights, Benin has no 
political prisoners and the government generally respects the 
human rights of its citizens.
    Last January, I had the opportunity to travel to Benin and 
meet with President Kerekou. He impressed me with his pro-
American attitude, his commitment to privatization of State-
owned enterprises and his willingness to support international 
law enforcement efforts to stem the tide of narcotics 
trafficking in west Africa.
    Mr. Chairman, this resolution is very straightforward. It 
simply commends the government and the people of Benin for 
their commitment to democracy and urges the Administration to 
enhance its efforts to support democratic consolidation and 
free enterprise in Benin. I urge my colleagues to support the 
resolution.
    Chairman Gilman. Thank you, Mr. Ackerman. Is any other 
Member seeking recognition on the Ackerman resolution?
    Mr. Royce. Yes, Mr. Chairman.
    Chairman Gilman. Mr. Royce.
    Mr. Royce. I want to express my support for this resolution 
and commend its author, Mr. Ackerman. Democratic progress 
unfortunately has been halting in some of Africa, so we need to 
take note of where there is progress, and that is what this 
resolution does. And it deserves our support. I think there is 
an amendment that Mr. Ackerman was going to offer, and I 
support the resolution, and I thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Royce.
    Are any other Members seeking recognition?
    Mr. Payne.
    Mr. Payne. Mr. Chairman, let me also commend Mr. Ackerman 
for this resolution. I think that the country of Benin, a very 
small country next to the giant country of Nigeria really, as 
has been indicated, made a very smooth transition to 
constitutional democracy.
    As you probably know, many of the countries in Africa were 
pushed into the Warsaw Pact countries because of the refusal of 
the United States of America to support their independence. 
Many of the colonial powers were NATO allies and we looked the 
other way as we sought the support for Mobutu in Zaire and 
Savambi in Angola, and P.W. Botha in South Africa, and we could 
go on and on. So we were on the wrong side of conscience.
    We are now hopefully trying to redo some of the problems 
that we have created with the Africa Trade and Opportunities 
Act, with President Clinton visiting Africa twice, one 12-day, 
6 country tour. But I would certainly commend Benin President 
Soglo, the one who moved it into this new mood. He was 
defeated, actually, because the World Bank said you had to 
bring in a lot of reforms, tighten the belts, had to pay back 
debt, and he did that. That didn't go over well and he lost his 
office, but he stepped out and the new President moved in with 
no problem.
    I think I really commend Mr. Ackerman for talking about 
when things happen correctly. We see so many times when they 
don't happen right, we read about it, we talk about the 
refugees, we talk about the killings and the maimings and the 
Sierra Leones and the Congos and so forth. But I certainly 
commend you for having this resolution.
    Secondly, President Kerekou admitted that there was 
certainly complicity in the slave trade and African leaders 
worked in tandem with the European slave traders, and that 
slavery would not have flourished the way that it had if it 
were not for the concurrence of leaders in Africa at that time. 
The President of Haiti was there at the conference, and I had 
an opportunity to meet with him, and he said that the apology 
that the President of Benin made to the Haitian President was 
really heartwarming.
    So I think that there is a lot more in this, and at the 
appropriate time I would like to highlight more of what has 
happened in this little country of Benin. But I commend Mr. 
Ackerman again for this resolution.
    Chairman Gilman. Thank you, Mr. Payne.
    Mr. Lantos.
    Mr. Lantos. Mr. Chairman, I just would like to associate 
myself with the comments of my friend, Mr. Payne, and I want to 
commend Mr. Ackerman for bringing this resolution before us, 
and I urge its adoption.
    Chairman Gilman. Thank you, Mr. Lantos.
    I commend Mr. Ackerman too for this resolution on Benin. In 
this Committee we regularly call attention to injustice, to 
war, and the abuse of power wherever they may occur. Witness, 
for example, our earlier discussion on Sudan.
    Occasionally, we must also acknowledge the considerable 
progress that some nations have made and give credit where it 
is due. The relationship between our Nation and President 
Mathieu Kerekou of Benin has not always been smooth. During the 
Cold War, President Kerekou expressed a Marxist ideology that 
gave our Nation some cause for concern. In 1990, however, 
President Kerekou allowed free and fair elections to take place 
in Benin. Defeated at the polls, he stepped down gracefully. 
Six years later, he came back into power the same way he left, 
by the ballot box and the popular will of the citizens of 
Benin.
    In his second administration, President Kerekou has 
exhibited wisdom, strength and compassion. This resolution 
commends his leadership and a growing friendship between our 
two nations.
    Accordingly, I urge our colleagues to join in support of 
this measure.
    Is there any other Member seeking recognition?
    Mr. Ackerman. Mr. Chairman, I have an amendment at the 
desk.
    Chairman Gilman. Mr. Ackerman has an amendment. The Clerk 
will read the amendment. The Clerk will distribute the 
amendment.
    Ms. Bloomer. ``Amendment offered by Mr. Ackerman, in the 
5th clause of the preamble----''
    [The amendment appears in the appendix.]
    Chairman Gilman. Without objection, the amendment is 
considered as having been read.
    Mr. Ackerman is recognized for 5 minutes on his amendment.
    Mr. Ackerman. Thank you, Mr. Chairman.
    The amendment that I offered here reflects changes to the 
resolution that were suggested to me by Chairman Royce. The 
amendment makes modest, but important, changes to the 5th, 7th, 
8th and 9th whereas clauses, as well as to the first resolved 
clause. In addition, the amendment deletes the last resolve 
clause.
    With Mr. Royce's suggestions, I believe the resolution is 
much improved and I urge my colleagues to support the 
amendment.
    Chairman Gilman. Is any Member seeking recognition on the 
amendment?
    If not, the question is on the amendment. All in favor 
signify in the usual manner, opposed, no. The amendment is 
agreed to.
    I recognize the gentleman from Nebraska, Mr. Bereuter, for 
a motion.
    Mr. Bereuter. Mr. Chairman, I move the Chairman be 
requested to seek consideration of the pending resolution as 
amended on the suspension calendar.
    Chairman Gilman. The question is on the motion by the 
gentleman from Nebraska. All in favor signify in the usual 
manner; opposed. The resolution is adopted.
    Further proceedings on this matter will be postponed.


  H. CON. RES. 410--CONDEMNING THE ASSASSINATION OF FATHER JOHN KAISER


    Chairman Gilman. We now consider H. Con. Res. 410 
concerning the assassination of Father John Kaiser and others. 
The Chair lays the resolution before the Committee. The Clerk 
will report the title of the resolution.
    Ms. Bloomer. ``H. Con. Res. 410, a resolution condemning 
the assassination of Father John Kaiser and others who work to 
promote human rights and justice in the Republic of Kenya.''
    [The resolution appears in the appendix.]
    Chairman Gilman. Without objection, the Clerk will read the 
preamble and text of the resolution in that order for 
amendment.
    Ms. Bloomer. ``Whereas Father John Kaiser, a Catholic of 
the Order----''
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and is open for amendment at any 
point.
    I now recognize the gentleman from California, Mr. Lantos, 
the sponsor of the resolution, to introduce it to the 
Committee.
    The gentleman is recognized for 5 minutes.
    Mr. Lantos. Thank you very much, Mr. Chairman.
    First I would like to thank my friends, Mr. Royce and Mr. 
Payne, for waiving jurisdiction and allowing the resolution to 
come before the Full Committee.
    Mr. Chairman, I have a lengthy and eloquent prepared 
statement that was created by my colleague and associate, Mr. 
Hans Hogrefe. I would like to ask permission that it be placed 
in the record.
    Chairman Gilman. Without objection.
    [The prepared statement appears in the appendix.]
    Mr. Lantos. I will be very brief.
    Those of us who work in the vineyards of human rights 
occasionally come upon a giant. Father John Kaiser is such a 
giant. This 68-year-old Catholic priest devoted his life to 
help the people of Kenya, and as his final reward he was 
assassinated, probably at the insistence and the urging of the 
government. There are indications, Mr. Chairman, that other 
Catholic priests have been singled out for assassination. So 
far, we have five Catholic priests whose deaths appear to be a 
mystery, more likely a government-inspired assassination. 
Father John Kaiser has displayed a degree of unselfish devotion 
to human rights, the plight of the poor that moves one to 
tears. I would strongly urge all of my colleagues to join me in 
this tribute and in calling upon the government of Kenya to 
undertake an independent, or to allow to be undertaken an 
independent inquiry into the circumstances of Father John 
Kaiser's death.
    Chairman Gilman. Thank you, Mr. Lantos.
    Mr. Royce.
    Mr. Royce. Very briefly, Mr. Chairman, I rise in support of 
this resolution, and I want to commend its author, Mr. Lantos. 
I have no doubt that the killing this resolution condemns was a 
political killing. When democratic supporters who use such 
peaceful means are struck down, we all lose. Father John Kaiser 
was an American citizen, he was fighting for human rights, he 
was fighting for democracy in Kenya. He was revered, in fact, 
by Kenyans. He was struck down and he deserves this resolution. 
Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Royce. Are any other 
Members seeking recognition?
    Mr. Payne. Mr. Chairman.
    Chairman Gilman. Mr. Payne.
    Mr. Payne. Let me also commend Mr. Lantos, and I associate 
myself with the remarks of the Chairman of the Subcommittee, 
Mr. Royce. I think that we should certainly insist that the 
government of Kenya have an independent investigation as is 
called for in this resolution. We certainly condemn the 
violence around Father Kaiser and the others as we try to 
promote human rights. We should insist that our State 
Department and our embassy in Kenya personally deliver to the 
President this resolution, and we demand that there be a 
thorough investigation.
    Let me commend the gentleman again for this resolution. I 
yield back the balance of my time.
    Chairman Gilman. Thank you, Mr. Payne.
    I yield myself such time as I may consume.
    I want to commend the gentleman from California, Mr. 
Lantos, for bringing this measure to our attention at this 
time.
    An outspoken and passionate defender of the poor, the weak 
and the oppressed, Father John Kaiser was shot and killed just 
a month ago. His killers still remain at large. Although Father 
Kaiser knew that he was in danger, his courage and compassion 
never left him.
    He is one of the distressingly long line of clergy who have 
been murdered in Africa. Eight years ago, 5 American nuns from 
Illinois were killed by Charles Taylor's NPFL soldiers in 
Liberia. We are still waiting for their killers to be brought 
to justice. We must not let 8 years slip by with no resolution 
of Father Kaiser's case. We owe it to him and to the voiceless 
on whose behalf he spoke with such energy and commitment. We 
also owe it to the rule of law in Kenya.
    As the theologian Reinhold Niebuhr wrote, ``Man's capacity 
for justice makes democracy possible; but man's inclination to 
injustice makes democracy necessary.''
    Accordingly, I urge our colleagues to fully support this 
measure.
    If there are no further requests for time, or any 
amendments, I recognize the gentleman from Nebraska, Mr. 
Bereuter, for a motion.
    Mr. Bereuter. Mr. Chairman, it is a particular pleasure, as 
this is the last resolution of the day, to move that the 
Chairman request to seek consideration of the pending 
resolution on the suspension calendar.
    Chairman Gilman. The question is on the motion. All those 
in favor of the motion signify by saying aye. All those opposed 
say no. The ayes have it. The motion is agreed to. Further 
proceedings on this matter are postponed.
    The Committee stands adjourned, and I thank our colleagues 
for being here.
    [Whereupon, at 5 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

   PREPARED STATEMENT OF HON. GEORGE RADANOVICH, A REPRESENTATIVE IN 
                 CONGRESS FROM THE STATE OF CALIFORNIA

                              H. RES. 596

    Mr. Chairman, today I am introducing a new bill regarding the 
affirmation of the U.S. record on the Armenian Genocide.
    As the sponsor of this resolution I have carefully followed all of 
the testimony and communications from proponents and opponents. I note 
that some Members have expressed concern with the training component of 
the former bill --H.Res.398--specifically the complexity of 
implementing this clause. I also note that during the subcommittee 
hearing, Ambassador Grossman testified that the Foreign Service 
Institute already includes the Armenian Genocide in its training 
program. This was later confirmed by a State Department spokesman. 
Therefore, taking into account the concerns of some of my colleagues 
and the statements of the Department, and with the support of Chairman 
Smith, I submit this new bill. All references to training have been 
removed. I trust that this change will enjoy the support of this 
committee and will also make expedited floor consideration possible.
    H.Res. 398 enjoyed the bi-partisan support of some 140 members and 
I rest assured that H. Res. 596 maintains the intent of my original 
bill. The new resolution also enjoys the support of the Speaker, the 
House Minority Whip, the Chairman and Ranking Minority Member of this 
Committee, as well the Chairman and Ranking Minority Member of the 
International Operations and Human Rights Subcommittee. I thank all for 
their support and cooperation.
    With the training component removed, what remains in H.Res. 596?

        <bullet> LAffirmation of the US record that fully documents our 
        government's attempt to end the genocide of the Armenians in 
        Turkey at the time of the Genocide and to save those who 
        survived it. In view of the denial literature that we have been 
        bombarded with prior to and since the subcommittee hearing, I 
        believe that affirmation is even more critical. I share with 
        you a portion of the remarks from Professor Deborah Lipstadt to 
        Chairman Smith, and I quote, ``Denial of genocide strives to 
        reshape history in order to demonize the victims and 
        rehabilitate the perpetrators. Denial of genocide is the final 
        stage of genocide; it is what Eliie Wiesel has called `double 
        killing'. Denial murders the dignity of the survivors and seeks 
        to destroy the remembrance of the crime.''

    I would like to commend and fully support the comments of 
Congresswoman McKinney during the markup of this bill in Subcommittee 
in response to the ``high-priced denial campaign.'' Silence in the face 
of genocide, as we have learned, can only embolden those who would 
again seek the systematic destruction of an entire people.
    I would also like to address an argument that persistently comes up 
regarding this resolution. Each time this body attempts to come to 
closure on this subject, opponents ask why now? They may even say, `the 
intent of the resolution is commendable, but the timing is 
inopportune.' Mr. Chairman, unless the Turkish government ends its 
ongoing campaign to deny the facts of the Armenian Genocide, the only 
time acceptable to our ally is never. And I regret to say that our 
State Department readily concurs with Turkey. Why now? Because later 
accomplishes nothing Turkey remains adamant in its denial and its 
reprehensible tactics of threats and coercion are rewarded. Why now? 
Because passage of this resolution today by this Committee and 
subsequently on the House floor will end denial--which expressed 
differently is the killing of truth. At least one branch of my 
government will say categorically to all deniers that they have failed.
    I implore my colleagues here today to understand that this 
resolution is a Sense of the House resolution regarding the U.S. 
record. Despite all of the threats emanating from Turkey regarding U.S. 
bases, U.S. contracts, jobs, etc. this resolution is NOT an assault on 
the Republic of Turkey. Furthermore, I reject Turkey's presumption that 
it can impose its views regarding the American response to the Armenian 
Genocide on this Committee. If we bow to Turkish pressure over a House-
only resolution regarding our record, there's no telling what else the 
U.S. will be called upon to give into the next time Turkey threatens a 
doomsday scenario. I believe that as a matter of principle, Congress 
must not let any foreign government dictate what legislation it can or 
cannot adopt.
    I thank you Mr. Chairman and I hope this Committee accepts my 
resolution and does the right thing today.
                               __________

  PREPARED STATEMENT OF HON. ILEANA ROS-LEHTINEN, A REPRESENTATIVE IN 
                   CONGRESS FROM THE STATE OF FLORIDA

                              H. RES. 596

    Mr. Chairman, one of the most important lessons humanity has 
learned throughout the centuries, is that we must not forget. If we 
fail to acknowledge and condemn the crimes of the past, we are sending 
a message to those who have little regard for human life, that they can 
act with impunity in the present and future.
    This resolution seeks to ensure that this grim period in history is 
not erased or re-written by those who argue that the genocide of over a 
million Armenians is a mere fabrication.
    Failure to act; failure to underscore that this was a systematic 
effort to massacre and destroy the Armenian people, is tantamount to a 
denial and, thus, a further attack on the victims and an affront to 
their memory.
    This resolution is about the past, but a past mankind is doomed to 
repeat unless we state in no uncertain terms that this type of action 
is not, nor will it ever, be tolerated by the United States.
    An example of the danger posed by a policy of neglect which ignores 
the Armenian genocide is outlined in clause (16) of this resolution.
    This clause refers to a 1939 letter where Adolf Hitler orders the 
attack on Poland and dismisses the objections by saying: ``who, after 
all, speaks today of the annihilation of the Armenians.''
    To reiterate, this measure is a testament to our commitment to 
human life and focuses on the massacre of the Armenian people to 
underscore U.S. abhorrence of genocide against any people, anywhere, at 
any time.
    I commend my colleagues, Mr. Radanovich and Mr. Rogan, for 
introducing this resolution and fighting the good fight. I am proud to 
be a co-sponsor of the measure and ask the members of this committee to 
render their support.
                               __________

  PREPARED STATEMENT OF HON. WILLIAM D. DELAHUNT, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF MASSACHUSETTS

                              H. RES. 596

    Mr. Chairman, I want to thank you for holding a markup on this 
legislation. This is a very important topic. It is also a very 
sensitive one. So it's critical that there be a frank and thoughtful 
discussion of the matter in Congress.
    Genocide is an extremely loaded word. It is not something to be 
tossed around lightly. Genocide is literally a crime against humanity 
itself, an attempt to eliminate an entire segment of the human race. 
And thus it is an attack on us all. Something we must all join together 
in fighting. And we must be aware of the details of past experiences of 
genocide. That way we are familiar with the warning signs and can stop 
a new one before it begins.
    That is why I worked successfully last year to change the State 
Department human rights reporting requirements to take into account 
instances of war crimes, crimes against humanity, and genocide. That is 
why I supported efforts to stop what could have been a genocide in 
Kosovo. That is why I still call for more investigation into what 
happened in Guatemala.
    And that is why I believe that the truth about the Armenian 
Genocide--because that's what it was--should be understood by all and 
officially acknowledged by the American government--and the Turkish 
government. By recognizing the Armenian Genocide, the US government 
will contribute to the further study of a crime that affects us all and 
thus help prevent future horrors. I co-sponsored H Res 398, the 
previous version of this legislation, and I give this resolution my 
full support as well.
    I know that there are objections to this resolution. I understand 
that there are those who, for a variety of reasons, do not see this as 
an issue affecting all humanity. Instead, they see it merely as ethnic 
politics or part of a campaign to discredit Turkey. That is 
unfortunate.
    I believe American recognition of the genocide would encourage the 
Turkish government, our ally and fellow democracy, to do the same--
which would be a good thing for Turkey. Turkey has long been a leader 
in that part of the world. In fact, the current Turkish government is 
politically descended from those who overthrew the regime which carried 
out the genocide. A move by Turkey to acknowledge that the genocide did 
happen and to seek reconciliation with the past would be just as 
revolutionary. It would set an admirable precedent for other nations in 
the region who have refused to deal with their own histories of 
violence.
    Just as Turkey and Greece have begun to take steps towards 
addressing their differences, moving beyond the debate over whether or 
not the genocide happened would allow Turks and Armenians to begin 
doing the same. Such reconciliation would benefit Turks as much as 
Armenians and would contribute to peace and stability in the region. 
And peace and stability is definitely in the interests of the United 
States. I urge my colleagues to support this resolution.
    Thank you, Mr. Chairman.
                               __________

 PREPARED STATEMENT OF HON. ENI F.H. FALEOMAVAEGA, A REPRESENTATIVE IN 
                      CONGRESS FROM AMERICAN SAMOA

                              H. RES. 596

    Chairman Gilman:
    I commend you for your strong leadership of the House International 
Relations Committee. Over the years, you have earned my deep respect 
`and that of our colleagues for your vigorous protection of human 
rights throughout the world.
    Today, our committee considers adoption of House Resolution 596, a 
measure which seeks official recognition by the United States Congress 
that, in 1915 to 1923, a genocide was committed by the Turkish Ottoman 
Empire against the Armenian people.
    While I have the greatest respect for our colleagues who support 
this measure, and I fully sympathize with their position--I must 
reluctantly disagree for two reasons, and strongly urge that H.Res. 596 
be defeated.
    First, as our colleagues are aware, the historical accounts of the 
tragic events of 1915 to 1923 are mixed and filled with 
inconsistencies. Indeed, historians, scholars, and academia are split 
as to whether a genocide was committed.
    It is my understanding that intercommunal warfare was rampant in 
this period, with terrible suffering in both the Armenian and Turkish 
communities, and amongst Christians and Muslims alike.
    While it is estimated that one-and-a-half million Armenians died or 
disappeared in the tragic conflict, we must not forget that the 
invading Russians and their Armenian allies also had blood on their 
hands. In fact, historical accounts document that upwards of 3 million 
Ottoman Muslims died in this conflict, along with the decimation of the 
Jewish population numbering over 200,000. H.Res. 596 one-sidedly fails 
to mention these atrocities.
    From the mixed historical record, Mr. Chairman, I cannot absolutely 
and conclusively determine that a genocide, rather than wartime 
casualities, was responsible for the tragic losses suffered by the 
Armenian people.
    Second, I believe it important that we place the consideration of 
this resolution in perspective.
    Were this resolution to be adopted, I firmly believe it would 
alienate the Republic of Turkey, which for over four decades has been 
steadfast as one of America's most trusted and loyal allies in NATO 
during the Cold War.
    As we sit here today discussing H.Res. 596 and the events of 85 
years ago, American warplanes are taking off from Turkish airbases to 
patrol the skies over Northern Iraq to contain Saddam Hussein, who is 
suspected of rebuilding his deadly arsenal of weapons of mass 
destruction. Our aircraft cannot be there without the full cooperation 
of our Turkish ally, an ally whose soldiers have fought side by side 
with ours since Korea.
    As we sit here today examining this resolution, our special envoy, 
Ambassador Al Moses, is working with both the Greek and Turkish 
governments to solve one of the most intractable problems in the region 
the issue of Cyprus.
    As we sit here today debating H.Res. 596, American oil companies 
and the Administration are looking to move ahead on building a.new oil 
pipeline across Turkey to deliver new crude oil to America, at a time 
when oil prices have skyrocketed with unpredictable instability ahead.
    Finally, Mr. Chairman, as we sit here today, the Administration is 
seeking to end the war between Armenia and Azerbaijan, a war that has 
caused almost I million Azeris to become refugees in their own country.
    I raise these points, Mr. Chairman, to remind our colleagues that 
Turkey--a longtime friend and crucial ally--plays a central role in 
helping us meet, understand, and solve issues that fundamentally affect 
us and America's national interest.
    Simply put, Mr. Chairman, if this resolution is adopted, I firmly 
believe it would irreparably damage our strategic partnership with 
Turkey. As some of our colleagues may be aware, two days ago in Ankara, 
the President and Parliament of Turkey took action strongly opposing 
adoption of this resolution--urging it would be perceived as a 
humiliation of our longtime NATO ally that would jeopardize our 
friendship and security relationship.
    It is a good bet, Mr. Chairman, that if this resolution is adopted, 
our planes would no longer fly from Turkish airbases; that Ambassador 
Moses' efforts would be stopped; that the pipeline would never be 
built; and that the war between Armenia and Azerbaijan would continue. 
This is clearly not in the national interest of the United States.
    Mr. Chairman, the policy implications of passage of H.Res. 596 are 
profound--profound enough in my estimation that it should be defeated.
    There are better avenues, Mr. Chairman, to express Congress' 
condemnation of the terrible, tragic losses of life suffered during the 
late years of the Ottoman Empire, and I urge our colleagues to pursue 
and support such measures.
    Mr. Chairman, all of us are very proud to be Americans and, in that 
spirit, I urge our colleagues to put politics aside and seek what is 
truly in the best interests of our great Nation.
                               __________

  PREPARED STATEMENT OF HON. BENJAMIN A. GILMAN, A REPRESENTATIVE IN 
      CONGRESS FROM THE STATE OF NEW YORK, CHAIRMAN, COMMITTEE ON 
                        INTERNATIONAL RELATIONS

                            H. CON. RES. 397

    I want to state my strong support for this resolution.
    I and my colleague from Nebraska, Mr. Bereuter, have shared an 
interest to underline to the Congress and the American people the 
importance of the states of Central Asia to the future stability of all 
of Eurasia and to the future expansion of global energy supplies.
    In fact, as Chairman of our Subcommittee on Asia and the Pacific, 
Chairman Bereuter took under his wing the ``Silk Road Act,'' a measure 
which was passed last year as part of our Foreign Assistance 
Appropriation Act for Fiscal Year 2000.
    I commend him for that successful effort, and I want to commend him 
as well for joining as a sponsor of this measure--House Concurrent 
Resolution 397--introduced by our colleague from New Jersey, Mr. Smith.
    The resolution before us today says some very detailed and 
extremely important things about the very negative trends in Central 
Asia with regard to respect for democracy and human rights. But this 
measure makes clear one over-riding fact: democracy is absolutely vital 
to the future peace and prosperity of the peoples of Central Asia.
    My colleagues, I am certain that none of us wants to see the 
peoples of Central Asia end up in the situation that has come about in 
other countries that are blessed with tremendous natural resources--in 
other words, we do not want to see those countries' resources exported 
and the revenues from their sale stolen by corrupt officials while the 
peoples of those states sink into poverty.
    Democratic government is indeed the best antidote for the kind of 
corruption that is the cause of such afflictions. For those of us who 
care about the future of the peoples of Africa, for example, we know 
that where true democracy has been absent, corruption has flourished 
and poverty, suffering, and violence have spread.
    Unfortunately, the leadership of the states of Central Asia--
inherited from the ranks of the ``nomenklatura'' of the former Soviet 
Union--is proving itself to be increasingly corrupt and far from 
democratic.
    I fear that the increasing violence we see in some of those 
countries today is merely a harbinger of things to come, unless the 
leaders of Central Asia change their ways--and soon.
    The United States should make it clear that we expect and support 
true democracy and will not tie our policies in Central Asia to leaders 
bent on condemning their peoples to a future of repression, corruption 
and poverty.
    I support adoption of this resolution.
                               __________
                                     U.S. Congress,
                                  House of Representatives,
                                Washington, DC, September 28, 2000.

    Dear Colleague: I am writing to ask you to support S. 2682. Senator 
Joseph Biden and I introduced identical companion legislation on June 
6, 2000. S. 2682 passed the Senate on June 23, 2000 under unanimous 
consent and without amendment.
    This non-controversial legislation will enable the Institute for 
Media Development (IMD) to archive Voice of America's (VOA) Africa 
Division broadcast materials for scholarly purposes. IMD is a tax-
exempt corporation dedicated to promoting the innovative use of the 
media, particularly in Africa. Currently VOA Africa broadcasts are not 
being archived, and programming that is rich in interviews of African 
political and cultural leaders is being lost to posterity. IMD is 
looking primarily to the private sector to finance the initiative, and 
this bill will have a zero net effect on spending according to the 
Congressional Budget Office.
    IMD will place the VOA programming in an Africana digital archive. 
The Africana digital archive will be on-line and accessible by scholars 
and others around the world. The materials will not be available for 
commercial broadcast purposes, and any mis-use of the materials may 
result in the termination of the program. The quality and quantity of 
information on the Internet about Africans and other people of color is 
in dire need of improvement, and this project is a significant step in 
that direction.
    The internationally renowned African Studies Center at UCLA is the 
academic partner in the project, and both the Center and the University 
Library (ranked 2nd in the nation) have agreed to provide resources to 
help make the Africana digital archive a reality. Since its 
establishment in 1959, the UCLA African Studies Center has continued to 
be one of the leading National Resource Centers on African Studies in 
the United States. The reputation that it shares with UCLA has been 
instrumental in winning the confidence and enthusiastic support of both 
VOA and the Broadcasting Board of Governors for the project.
    This legislation will preserve some of the rich culture and 
politics of modem day Africa. I urge you to support this legislation.
            Sincerely,
                      Cynthia McKinney, Member of Congress.
                               __________

  PREPARED STATEMENTS OF HON. BENJAMIN A. GILMAN, A REPRESENTATIVE IN 
      CONGRESS FROM THE STATE OF NEW YORK, CHAIRMAN, COMMITTEE ON 
                        INTERNATIONAL RELATIONS

                            H. CON. RES. 382

    The United States has a growing relationship with the Republic of 
Azerbaijan, one of the newly independent states of the former Soviet 
Union.
    That relationship obviously has a great deal to do with 
Azerbaijan's geo-political position, given its location between Russia, 
Iran and Turkey, and also has much to do with its potentially huge 
energy reserves. But that relationship also has to focus on the 
expansion of truly democratic government within Azerbaijan if it is to 
prove enduring and if it is to benefit the Azeri people over the long 
term.
    Much has been accomplished over the past nine years in building a 
new, independent state in Azerbaijan. That has not been easy.
    Azerbaijan has not only had to deal with the tremendously difficult 
problems associated with the emergence from communist rule, but has 
been at war with neighboring Armenia for almost a decade now, a war 
that has only been suspended by the cease-fire that was negotiated six 
years ago.
    Of the almost eight million people who live in Azerbaijan, one 
million have become refugees from that fighting, placing an incredible 
burden on that new state and its depressed economy.
    Still, while we can appreciate the tremendous problems the Azeri 
people confront and the progress they have made in consolidating their 
new independence, we would be remiss if we did not insist that their 
leadership respect their right to truly democratic government--and take 
concrete steps to bring democracy to life in that country.
    This resolution, introduced by my colleague from New Jersey, Mr. 
Smith, points out those things that the Azeri leadership has recently 
done that conflict with the need to move toward truly democratic 
government--and points out the steps it needs to take to get back on 
the road to democracy.
    The parliamentary elections to be held in Azerbaijan next month are 
an important milestone on the road to democracy in that country.
    I support the passage of this resolution, which makes it clear that 
the United States expects the Azeri leadership to ensure that they are 
truly free and fair.

                              H. RES. 588

    I support the pending resolution, H. Res. 588.
    We held a hearing on the issue of religious liberty in Western 
Europe in which we took testimony from independent experts, the 
Administration, as well as from representatives of persons who were 
aggrieved by the behavior of certain European governments.
    We also invited testimony from foreign Ambassadors; although they 
did not appear personally, their statements were circulated at the 
hearing.
    It is unfortunate that countries like those named, which are so 
important as allies, and where liberty is in general so highly 
regarded, seem to have a blind spot when it comes to religious liberty.
    The motivations of these governments are by and large good ones--
the protection of individuals from possible harm--but in some cases 
they are inadmissible--such as the protection of well-established 
religions or a hostility to religion.
    In any event they are simply not compatible with internationally 
recognized human rights standards. Even worse, they encourage 
developing democracies to enact similar laws. And so we need to address 
the problem, respectfully but clearly.
    This is a carefully drafted resolution that deals with a problem 
that is widely recognized in the community of observers of religious 
liberty in this country. [As you have been told] it is supported by 
representatives of diverse religious groups, from Southern Baptists to 
Sikhs. I have received letters in support of it signed by personalities 
ranging from the Interim Dean of the Catholic University Law School to 
Michael Novak of the American Enterprise Institute.
    Accordingly, I believe that it deserves the support of all the 
members of the Committee and I urge its adoption.
                               __________

  PREPARED STATEMENT OF HON. TOM LANTOS, A REPRESENTATIVE IN CONGRESS 
                      FROM THE STATE OF CALIFORNIA

                            H. CON. RES. 410

    Mr. Chairman, my House concurrent resolution 410 intents to bring 
attention to the tragic deaths of several human rights defenders in 
Kenya, and to get Congress on the record as condemning these deaths in 
the strongest possible way. While H. Con. Res. 410 condemns the 
assassination of Father John Anthony Kaiser on August 23, 2000, in the 
Republic of Kenya, it also highlights the general human rights 
situation in Kenya, and the dangers for those brave enough to work in 
the defense of human rights in this country.
    Mr. Chairman, Father Kaiser's love for the Kenyan people turned him 
into a relentless activist for human rights and social justice, and an 
outspoke critic of the Moi government.
    Father Kaiser was born in Perham Minnesota in 1932 to a German 
father and Irish Mother as one of four children. Kaiser attended a one-
roomed school for eight years before he went to a Benedictine secondary 
school. He then joined the U.S. Army Airborne for three years. After 
his service, he began to pursue his true calling by attending St. 
John's University in Collegeville, Minnesota. After two years he 
transferred to St. Louis University where he got his B.A. in 
Philosophy. Father Kaiser then crossed the ocean and studied theology 
in preparation for the priesthood at St., Joseph's Mill Hill College,in 
London.
    In 1964, Father Kaiser was, ordained a Mill Hill Missionary priest. 
He was sent to Kenya and assigned to the Kisii Catholic Diocese where 
he served as a pastor for 30 years. Most of these years he lived in 
Kisliiland, away from any public attention. He had gone to Kenya to 
build churches and clinics. In the first several years in Kenya he 
would travel from Mass to Mass on a motorcycle over dirt roads. Father 
Kaiser spoke the local languages fluently. In his parish work, Father 
Kaiser was known as someone who could mediate disputes. Once, during a 
dispute between Maasai and Luo leaders over an old gold mine, Father 
Kaiser sat with the adversaries late into the night, patiently and 
persistently helping them to find common ground.
    A conservative Catholic of intense faith, he lived ascetically and 
what he saw happening to Kenyans turned him into a crusader of social 
justice. In 1993, Father Kaiser was transferred to Ngong Catholic 
Diocese. His transformation from remote parish priest to nationally 
known human rights campaigner began in 1994 when, in his new 
assignment, he worked in the Maela Displacement Camp. Farmers had taken 
refuge in Maela after being pushed off their land. He chose to live 
with the displaced people and saw the disease, despair and hunger in 
the way they were forced to live. He was moved to stand with people 
whose only crime was being born into the `wrong' tribe.
    When the government decided to break up the camp by force, Father 
Kaiser stood in the way. Father Kaiser took all the women and children 
and put all of them inside the church. He got in a sleeping bag and 
slept in the entrance of the church so they were unable to forcibly 
evict them that night. The authorities came back the following night 
and beat him up. Father Kaiser was placed under house arrest. During 
Christmas week of 1995, Kaiser was arrested twice for opposing the 
destruction of the Maela Refugee Camp of which he was the chaplain.
    After his experience in Maela Refugee Camp, Father Kaiser was 
assigned to the Lolgorian Parish in the Trans Mara District, working 
among the Maasai people who were trying to defend themselves against 
land invaders. Father Kaiser also helped young Maasai women to pursue 
rape cases against their attackers. Father Kaiser lived in the 
Lolgorian Parish until his death.
    In 1999, Father Kaiser testified before the Akiwumi Commission, a 
special government commission set up to investigate the 1992 tribal 
clashes in Kenya's Great Rift Valley. He told the members of the 
commission just what he had witnessed. He reported dates, names, places 
and times. He accused two Cabinet ministers of instigating tribal 
clashes and seizing land vacated during the fighting, which broke out 
before the 1992 multiparty elections. In November of 1999, he narrowly 
escaped deportation when the Kenyan Immigration Department refused to 
renew his work permit. The government issued the permit renewal only 
after the Catholic Church and civil rights groups accused it of trying 
to silence him for his human rights advocacy. Earlier that year, the 
Kenyan Law Society honored Kaiser with the prestigious 1999 Human 
Rights Award for his tremendous human rights work.
    In a letter to his family and friends, Father Kaiser wrote, ``some 
sage once wrote that to understand African problems you must understand 
three main causes of all problems here which are: Tribalism, tribalism 
and tribalism. I would disagree with that and say rather the one main 
cause of all problems in Africa is bad government leaders who stir up 
tribal wars for their own political ambitions. That is what is 
happening in Kenya, and the practice goes back into the history of 
colonialism.''
    On August 23, Father Kaiser had been at the Mill Hill House in 
Nairobi. He was visibly upset and,nervous. He confided to other Mill 
Hill priests that he feared for his life. He left the Mill Hill House 
and went to the Bishop's house in Ngong. When he left the bishop's 
house he did not say where he was going. On August 24 the Bishop of 
Ngong, Rt. Rev. Colin Davies, received an anonymous call saying that 
Kaiser was shot dead in Naivasha. His body was found on the side of the 
road in Naivasha, not far from his own car and with his own gun beside 
him. Police investigating the scene shortly after his death immediately 
ruled out suicide.
    The Catholic Justice and Peace Commission of the Kenya Episcopal 
Conference stated that ``it is no secret that Fr. Kaiser has been a 
thorn in the flesh of some senior Kenya government officials and 
Ministers, for his incessant crusade against social injustices.'' In 
the same statement the commission remarks ``While we cautiously 
appreciate the on-going joint CID/FBI investigation into the murder, we 
strongly doubt the seriousness of the Kenyan government, especially in 
the absence of an official government statement: let.alone a message of 
condolence to his family and friends. The government's reaction, cover-
ups of the past such killings and the reckless utterances by some 
senior government officials and Ministers, compound our doubts.''
    Father Kaiser was not an ordinary U.S. citizen; having served in 
Kenya for 36 years he was also a Kenyan. Therefore, U.S. citizens 
cannot ignore the Kenyan cry for truth and justice in this case nor in 
other cases where Kenyan citizens who have championed for the same 
human rights causes have been mysteriously murdered with no serious 
investigations.
    Mr. Chairman, my resolution calls on the Kenyan Government to allow 
a truly independent investigation not only into the death of Father 
Kaiser, but also into the deaths of Father Stallone, Father Graiff, and 
Father Luigi Andeni, all of the Marsabit Diocese, and the murder of 
Brother Larry Timons of the Nakuru Diocese and of Father Martin Boyle 
of the Eldoret Diocese. While I appreciate the fact that FBI officials 
are currently investigating the death of Father Kaiser, the recent 
unsatisfactory experiences regarding the investigations into the deaths 
of other human rights defenders and members of the clergy and the 
record of impunity clearly show that the Kenyan government needs to go 
beyond its current efforts.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
